<html>
<title> - FETAL TISSUE: IS IT BEING SOLD IN VIOLATION OF FEDERAL LAW?</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





      FETAL TISSUE: IS IT BEING SOLD IN VIOLATION OF FEDERAL LAW?

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                         HEALTH AND ENVIRONMENT

                                 of the

                         COMMITTEE ON COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 9, 2000

                               __________

                           Serial No. 106-104

                               __________

            Printed for the use of the Committee on Commerce

                    ------------------------------  

                     U.S. GOVERNMENT PRINTING OFFICE
63-102CC                     WASHINGTON : 2000






                         COMMITTEE ON COMMERCE

                     TOM BLILEY, Virginia, Chairman

W.J. ``BILLY'' TAUZIN, Louisiana     JOHN D. DINGELL, Michigan
MICHAEL G. OXLEY, Ohio               HENRY A. WAXMAN, California
MICHAEL BILIRAKIS, Florida           EDWARD J. MARKEY, Massachusetts
JOE BARTON, Texas                    RALPH M. HALL, Texas
FRED UPTON, Michigan                 RICK BOUCHER, Virginia
CLIFF STEARNS, Florida               EDOLPHUS TOWNS, New York
PAUL E. GILLMOR, Ohio                FRANK PALLONE, Jr., New Jersey
  Vice Chairman                      SHERROD BROWN, Ohio
JAMES C. GREENWOOD, Pennsylvania     BART GORDON, Tennessee
CHRISTOPHER COX, California          PETER DEUTSCH, Florida
NATHAN DEAL, Georgia                 BOBBY L. RUSH, Illinois
STEVE LARGENT, Oklahoma              ANNA G. ESHOO, California
RICHARD BURR, North Carolina         RON KLINK, Pennsylvania
BRIAN P. BILBRAY, California         BART STUPAK, Michigan
ED WHITFIELD, Kentucky               ELIOT L. ENGEL, New York
GREG GANSKE, Iowa                    TOM SAWYER, Ohio
CHARLIE NORWOOD, Georgia             ALBERT R. WYNN, Maryland
TOM A. COBURN, Oklahoma              GENE GREEN, Texas
RICK LAZIO, New York                 KAREN McCARTHY, Missouri
BARBARA CUBIN, Wyoming               TED STRICKLAND, Ohio
JAMES E. ROGAN, California           DIANA DeGETTE, Colorado
JOHN SHIMKUS, Illinois               THOMAS M. BARRETT, Wisconsin
HEATHER WILSON, New Mexico           BILL LUTHER, Minnesota
JOHN B. SHADEGG, Arizona             LOIS CAPPS, California
CHARLES W. ``CHIP'' PICKERING, 
Mississippi
VITO FOSSELLA, New York
ROY BLUNT, Missouri
ED BRYANT, Tennessee
ROBERT L. EHRLICH, Jr., Maryland

                   James E. Derderian, Chief of Staff

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

                 Subcommittee on Health and Environment

                  MICHAEL BILIRAKIS, Florida, Chairman

FRED UPTON, Michigan                 SHERROD BROWN, Ohio
CLIFF STEARNS, Florida               HENRY A. WAXMAN, California
JAMES C. GREENWOOD, Pennsylvania     FRANK PALLONE, Jr., New Jersey
NATHAN DEAL, Georgia                 PETER DEUTSCH, Florida
RICHARD BURR, North Carolina         BART STUPAK, Michigan
BRIAN P. BILBRAY, California         GENE GREEN, Texas
ED WHITFIELD, Kentucky               TED STRICKLAND, Ohio
GREG GANSKE, Iowa                    DIANA DeGETTE, Colorado
CHARLIE NORWOOD, Georgia             THOMAS M. BARRETT, Wisconsin
TOM A. COBURN, Oklahoma              LOIS CAPPS, California
  Vice Chairman                      RALPH M. HALL, Texas
RICK LAZIO, New York                 EDOLPHUS TOWNS, New York
BARBARA CUBIN, Wyoming               ANNA G. ESHOO, California
JOHN B. SHADEGG, Arizona             JOHN D. DINGELL, Michigan,
CHARLES W. ``CHIP'' PICKERING,         (Ex Officio)
Mississippi
ED BRYANT, Tennessee
TOM BLILEY, Virginia,
  (Ex Officio)

                                  (ii)


                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Alberty, Dean................................................    54
    Cohen, Samuel L., Pathology/Microbiology Department, 
      University of Nebraska.....................................    56
    Fredericks, Lynn.............................................    51
    Kinney, Hannah C., Division of Neuroscience, John F. Enders 
      Pediatric Research Laboratories............................    62
    Samuelson, Joan I., President, Parkinson's Action Network....    59

                                 (iii)

  

 
      FETAL TISSUE: IS IT BEING SOLD IN VIOLATION OF FEDERAL LAW?

                              ----------                              


                        THURSDAY, MARCH 9, 2000

                  House of Representatives,
                             Committee on Commerce,
                    Subcommittee on Health and Environment,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m. in room 
2322, Rayburn House Office Building, Hon. Michael Bilirakis 
(chairman) presiding.
    Members present: Representatives Bilirakis, Upton, Stearns, 
Greenwood, Deal, Burr, Bilbray, Whitfield, Ganske, Norwood, 
Coburn, Lazio, Cubin, Pickering, Bryant, Bliley (ex officio), 
Brown, Waxman, Deutsch, Stupak, Green, Strickland, DeGette, 
Barrett, Capps, Hall, Towns, and Eshoo.
    Also present: Representative Largent.
    Staff present: Brent DelMonte, majority counsel; Marc 
Wheat, majority counsel; Amy Davidge, legislative clerk; John 
Ford, minority counsel; and Edith Holleman, minority counsel.
    Mr. Bilirakis. The hearing will come to order.
    Before the Chair gives his opening statement, the Chair 
calls upon the chairman of the full Commerce Committee, Mr. 
Bliley, for his opening statement.
    Chairman Bliley. Thank you, Mr. Chairman, and thank you 
very much for holding this hearing today, which will consider 
whether human fetal tissue is being bought and sold in America 
in violation of Federal law.
    In 1993, Congress made it illegal to buy and sell human 
fetal tissue for valuable consideration. Federal regulations 
also prohibit anyone from altering the timing, method, or 
procedures of abortion solely for the purpose of obtaining 
human fetal tissue and require a woman's informed consent 
before fetal tissue can be used for research purposes.
    While these latter restrictions are limited to federally 
funded transplantation research only, many independent 
researchers have adopted similar guidelines because of the 
ethical and patient safety issues involved in such matters.
    Congress' objectives in this area were threefold: to ensure 
that fetal tissue could be made available for valuable research 
purposes, while at the same time preventing the development of 
a market for such tissue and ensuring that the health of women 
undergoing abortions would not be put at risk simply to acquire 
the tissue. Yet, over the last 7 years, since this bill became 
law of the land, there has been no government oversight of any 
type concerning whether this important law is being followed.
    We contacted the National Institutes of Health, and it 
informed us that since the law was passed the agency has not 
reviewed at all whether the law is being complied with.
    We contacted the Department of Justice, and their 
representatives told us the same thing, even though the 1993 
law is a criminal statute with criminal enforcement provisions.
    Today, I am glad to say that this governmental neglect 
ends.
    In explaining the meaning of the law that is the focus of 
the hearing today, our colleague from California, Congressman 
Waxman, once said, ``It would be abhorrent to allow for the 
sale of fetal tissue and a market to be created for that 
sale.''
    Just recently, Congressman Waxman reinforced these comments 
by saying that companies that sell this tissue, ``Should be 
prosecuted. Any price is unreasonable and illegal.'' I 
wholeheartedly agree.
    The clear intent of the statute was to permit donations of 
fetal tissue, with those involved in acquiring or providing the 
tissue being permitted to recoup their reasonable costs. But I 
am saddened to report to the committee and to the American 
people that there does appear to be evidence that, in fact, a 
market has been created for the sale of human fetuses and fetal 
body parts.
    We also will hear today about how this growing market for 
fetal tissue may be influencing the manner in which abortions 
are being performed, with potential risks to the health of the 
mother.
    Before the ``20/20'' piece ran last night on ABC, which I 
hope all were able to see, I had the opportunity to view and 
comment upon the undercover hidden camera interview that 
producers conducted with Dr. Miles Jones of Opening Lines, a 
fetal tissue broker who was subpoenaed to attend today's 
hearing. In seeing the interview, I heard Dr. Jones assert that 
during some weeks he could make up to $50,000 in profit from 
buying and selling fetal tissue and body parts.
    He clearly stated on several occasions that market force 
determines the price at which he sells fetal body parts. ``It 
is what you can sell it for,'' he said in response to a 
question about how much a brain or kidney goes for. He also 
made clear the cost of procuring the fetus ``is the same 
whether you get one kidney or two kidneys, a lung, a brain, a 
heart.'' The rest he agreed was just money in the bank.
    I was absolutely shocked and sickened at what I heard, and 
I know the vast majority of Americans would be, as well.
    Let us be clear. Today's hearing is not about whether fetal 
tissue research is a good or bad thing, and it is definitely 
not about whether a woman should have a right to choose to have 
an abortion, which is the law of the land. Rather, we are here 
today to gather information about whether fetal tissue brokers 
and others involved in this industry are complying with Federal 
law.
    Whether we are pro life, pro choice, Republican, Democrat, 
or Independent, I think and hope that we can all agree that 
present Federal law which allows for this research should be 
both respected and enforced.
    I thank you, Mr. Chairman, and yield back the balance of my 
time.
    Mr. Bilirakis. I thank the gentleman.
    Ms. DeGette for an opening statement.
    Ms. DeGette. Thank you, Mr. Chairman.
    Mr. Chairman, initially I understand there are members of 
the full committee who do not serve on this subcommittee but 
wish to join us here today, and so, as you know, it is a 
longstanding custom of the committee to allow them to 
participate.
    I make a unanimous consent request right now that you would 
extend to any full committee members on either side of the 
aisle this courtesy.
    Mr. Whitfield. Reserving the right to object.
    Mr. Bilirakis. The gentleman reserves the right to object.
    Mr. Whitfield. Just to clarify, the procedure that we have 
followed in the past, and I presume we will follow today, the 
members of the subcommittee will have the first opportunities 
for questioning the witnesses. I do not know if you even want 
to open up the questioning by members who are not on the 
subcommittee, by the times we have allowed them to make 
statements and not to engage in questions, but certainly the 
members of the subcommittee ought to have the first opportunity 
for questions.
    Mr. Bilirakis. Is there an objection to the unanimous 
consent request?
    Mr. Stearns. Reserving the right to object, Mr. Chairman.
    Mr. Bilirakis. The gentleman is recognized.
    Mr. Stearns. I think the purpose of the hearing is to hear 
from the witnesses, and you and I have been in these hearings 
where we have a series of opening statements and it consumes a 
lot of time.
    It seems to me that members who are not on this 
subcommittee could submit their questions for the record and 
they do not necessarily need to have an opening statement or 
have the opportunity to ask questions, and so, in the spirit of 
trying to get maximum effect from the witnesses, my concern is, 
if we open it up to non-members of the committee, that we not 
only lengthen the process, dilute the process, but we take time 
away from the witnesses.
    So I would reserve.
    Mr. Bilirakis. You are still reserved, but you have not 
objected at this point?
    Mr. Stearns. Well, I would object.
    Mr. Bilirakis. You would object?
    Mr. Stearns. I would object.
    Mr. Bilirakis. All right. Objection has been heard.
    Ms. DeGette. Thank you.
    Mr. Chairman, in addition, I hope maybe we can get some 
consent for this, that members not present be allowed to submit 
their opening statements.
    Mr. Bilirakis. Without objection, that is always the case, 
and it will be the case today.
    Ms. DeGette. Thank you, Mr. Chairman.
    Like everybody in this room, I was shocked at the taped 
statements I saw law night on ABC's ``20/20.'' Dr. Miles Jones, 
the owner of Opening Lines, essentially stated that he profited 
from the illegal sale of fetal tissue, in direct contravention 
of both medical ethics and Federal law.
    Dr. Jones' statements were incriminating, to say the least, 
and he must be investigated by Federal authorities immediately.
    I was almost as shocked, frankly, when I learned that, 
despite the majority's apparent knowledge of these facts since 
last November, no one has made a formal request to the 
Department of Justice to investigate Dr. Jones and his company.
    Last November, my colleague from Colorado introduced a 
resolution condemning the illegal sale of fetal tissue and 
calling on this committee to hold a hearing, which I agreed 
with. So here we are today, almost 5 months later.
    During all of this time, despite the horrific nature of the 
allegations against Dr. Jones and his company, no one has made 
a formal attempt to stop him, his business practices, or his 
company.
    So what are we really up to here? Are we trying to stop an 
operator who is likely engaging in criminal activity, or is 
there a larger agenda?
    Frankly, because of our shock after watching the ABC news 
program last night, my Democratic colleagues and I have sent 
the Department of Justice a letter requesting that an 
investigation begin immediately. Mr. Chairman, I would like to 
submit that for the record.
    Mr. Bilirakis. Without objection, that will be the case.
    Ms. DeGette. Thank you.
    [The information referred to follows:]

                      U.S. House of Representatives
                                      Committee on Commerce
                                                      March 9, 2000
The Honorable Janet Reno
Attorney General
Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530

The Honorable Louis Freeh
Director
Federal Bureau of Investigation
J. Edgar Hoover Building
935 Pennsylvania Avenue, S.W.
Washington, D.C. 20535
    Dear Attorney General Reno and Director Freeh: Last night on the 
ABC News show ``20/20'', allegations were made that Opening Lines, a 
company that provides fetal tissue to researchers, was illegally 
profiting from the sale of this tissue by charging researchers a fee 
that includes more than Opening Lines' cost of providing the tissue.
    Section 498B of the Public Health Service Act (42 U.S.C. 289g-2) 
states that it is a felony to knowingly acquire, receive, or otherwise 
transfer any human fetal tissue for valuable consideration if this 
transfer affects interstate commerce. Valuable consideration does not 
include ``reasonable payments associated with the transportation, 
implantation, processing, preservation, quality control, or storage of 
human fetal tissue.''
    Although allegations of obtaining illegal consideration for human 
fetal tissue by Opening Lines have been made by various parties for 
many months, it is our understanding that none of those making the 
allegations have ever referred this matter and their documentation or 
other evidence of criminal activity to the Justice Department for 
investigation.
    Therefore, by this letter, we are requesting that the Justice 
Department and the Federal Bureau of Investigation conduct a full 
investigation of Opening Lines, its principals and its current and 
former employees to determine if violations of Section 498B have 
occurred, and take ate enforcement action.
            Sincerely,
                                            John D. Dingell
                              Ranking Member, Committee on Commerce
                                              Sherrod Brown
             Ranking Member, Subcommittee on Health and Environment
                                                  Ron Klink
       Ranking Member, Subcommittee on Oversight and Investigations
                                            Henry A. Waxman
                     Member, Subcommittee on Health and Environment
                                              Diana DeGette
                     Member, Subcommittee on Health and Environment
                                                Bart Stupak
                     Member, Subcommittee on Health and Environment
                                                 Fred Upton
                     Member, Subcommittee on Health and Environment

    Ms. DeGette. Dr. Miles Jones made very incriminating 
statements during a hidden camera interview on the program that 
indicates he may have profited from the illegal sale of fetal 
tissue. The authorities must investigate these statements.
    I also just saw a letter that the chairman showed me from 
the Department of Justice to Mr. Upton. Apparently, Mr. Upton 
had contacted the Justice Department and was sent a letter, 
which I would also ask unanimous consent to include in the 
record, that they are reviewing the information obtained by 20/
20.
    [The information referred to follows:]

                         U.S. Department of Justice
                              Office of Legislative Affairs
                                                      March 9, 2000
The Honorable Fred Upton
U.S. House of Representatives
Washington, DC 20515
    Dear Representative Upton: This responds to your telephone 
conversation this morning with Deputy Attorney General Eric Holder and 
your subsequent letter regarding the Department's efforts in enforcing 
the ban on the sale of fetal tissue for profit, especially in light of 
the information obtained by 20/20 on this issue, and your request to 
open an investigation on this matter.
    As you know, recently there have been many troubling but 
unsubstantiated allegations in the media regarding the sale of fetal 
tissue for profit. However, based upon a preliminary review of our 
records, it appears that the Department has not received any 
information meeting our standards for triggering a formal investigation 
that fetal tissue has been sold for a profit. We are still reviewing 
our records for receipt of information. Further, three weeks ago, the 
National Institutes of Health and the Department of Health and Human 
Services informed the Department that they also had not received 
information of this kind. In addition, a 1997 study conducted by the 
General Accounting Office failed to turn up any reported violations of 
the ban by federally funded researchers covered by the study. See GAO, 
NIH-Funded Research: Therapeutic Human Fetal Tissue Transplantation 
Projects Meet Federal Requirements 3 (1997).
    We are currently reviewing the information obtained by 20/20 to 
determine whether specific allegations raised by 20/20 warrant the 
opening of an investigation by the Department or a referral to another 
agency for investigation.
    In the event that the Department receives specific information that 
a violation of federal law has occurred, we will investigate the matter 
to determine if there is sufficient evidence to support a prosecution 
or, where appropriate, refer the information to the proper agency for 
investigation.
    Please do not hesitate to contact my office if we can be of further 
assistance.
            Sincerely,
                                               Robert Raben
                                         Assistant Attorney General

    Ms. DeGette. So the good news, I hope, is that we will have 
an investigation by the Department of Justice into these 
allegations.
    One thing I noticed about the report last night was that 
there was no evidence of widespread criminal activity in fetal 
tissue sales. That report and the witnesses listed for this 
hearing today point to one offender. We need to take measures 
to stop him immediately, while at the same time preserving the 
important medical research that proper fetal tissue protocols 
afford us.
    Mr. Chairman, 16 million people have diabetes in the United 
States, 4 million Americans have Alzheimer's, 1.5 million 
people suffer from Parkinson's disease, 30 million Americans 
have an autoimmune-related disease, 10 million women have been 
diagnosed with osteoporosis, 8.2 million Americans suffer from 
cancer, 450,000 Americans are paralyzed or have spinal cord 
injury, and 150,000 children are born with birth defects each 
year.
    Mr. Chairman, I could go down this list for my entire 
opening statement and still not identify the millions of 
Americans who could and may benefit from fetal tissue research.
    This research has already resulted in significant advances 
in the treatment of many diseases, such as Parkinson's, and it 
offers extraordinary promise in the search for many other 
diseases. The scientific community is ecstatic about the 
promise of fetal tissue research and its derivatives, like stem 
cells.
    As the co-chair of the House Diabetes Caucus, but, more 
importantly, as the mother of a 6-year-old child who was 
diagnosed with diabetes 2 years ago, I am hopeful about the 
promise of fetal tissue research.
    Because of the extraordinary promises----
    Mr. Bilirakis. Would the gentlelady please summarize?
    Ms. DeGette. Mr. Chairman, I believe that you generally 
give the ranking member some comity in opening statements.
    Mr. Bilirakis. All right. The gentlelady is already at 6\1/
2\ minutes.
    Ms. DeGette. I am almost done. Thank you.
    Because of the extraordinary promise this science holds for 
millions of people, I want to ensure--and I know my colleagues 
on this committee and in this body want to ensure--that the 
research is conducted ethically. Any violators of the Federal 
laws and protocols must be prosecuted to the fullest extent of 
the law.
    As I said before, the House majority has been investigating 
these allegations, I hope, since November of last year, yet, to 
my knowledge, no criminal investigation has been initiated. The 
majority's investigators have not even subpoenaed the financial 
records of the company that purportedly violated the Federal 
statute that prohibits profiting from fetal tissue.
    I would urge the majority to tone down the nature of this 
investigation and to really find out if there is a violator 
and, if so, they need to be prosecuted.
    Again, if this hearing or any subsequent investigations 
uncover evidence of wrongdoing or abuse, it is imperative that 
violators must be prosecuted and punished to the fullest extent 
of the law. However, we cannot jeopardize legitimate and 
ethical fetal tissue research. Too many millions of Americans' 
lives are at stake.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Diana DeGette follows:]
Prepared Statement of Hon. Diana DeGette, a Representative in Congress 
                       from the State of Colorado
    Thank you Mr. Chairman. I understand there are members of the Full 
Committee who do not serve on this Subcommittee but may wish to join us 
today. As you know Mr. Chairman, it is a long-standing custom of this 
Committee to allow them to participate. I would hope he would extend 
any Full Committee Members this courtesy.
    Like everyone this room, I was shocked at the taped statements I 
saw last night on ABC's 20/20. Dr. Miles Jones, the owner of Opening 
Lines, essentially stated that he profited from the illegal sale of 
fetal tissue, in direct contravention of both medical ethics and 
federal law. Dr. Jones' statements were incriminating, to say the 
least, and must be investigated by federal authorities immediately.
    I was almost as shocked when I learned that, despite the Majority's 
apparent knowledge of these facts since last November, no one has made 
a request to the Department of Justice to investigate Dr. Jones and his 
company. Last November, my colleague from Colorado introduced a 
resolution condemning the illegal sale of fetal tissue and calling on 
this committee to hold a hearing. So here we are today, almost five 
months later. During all this time, despite the horrific nature of the 
allegations against Dr. Jones and his company, no one has made any 
attempt to stop him, his business practices or his company. So what are 
we really up to here? Are we trying to stop an operator who likely is 
engaging in criminal activity or do we have a larger agenda?
    Because of our shock after watching the ABC News program 20/20 last 
night, my Democratic colleagues and I have sent the Department of 
Justice a letter requesting that an investigation begin immediately. 
Dr. Miles Jones made very incriminating statements during a hidden 
camera interview on the program that indicates he may have profited 
from the illegal sale of fetal tissue. The authorities must investigate 
these statements.
    One thing I noticed about the report last night was that there was 
no evidence of widespread criminal activity in fetal tissue sales. That 
report, and the witnesses listed today, point to one offender. We need 
to take measures to stop him--while at the same time preserving the 
important medical research that proper fetal tissue protocols afford 
us.
    Sixteen million people have diabetes in the United States, 4 
million Americans have Alzheimer's, 1.5 million people suffer from 
Parkinson's disease, 30 million Americans have an autoimmune related 
disease, 10 million women have been diagnosed with osteoporosis, 8.2 
million Americans suffer from cancer, 450,000 Americans are paralyzed 
or have a spinal cord injury, and 150,000 children are born with birth 
defects each year. Mr. Chairman, I could continue down this list for my 
entire opening statement and still not identify the millions of 
Americans who could benefit from fetal tissue research.
    This research has already resulted in significant advances in the 
treatment of many diseases, such as Parkinson's, and it offers 
extraordinary promise in the search for a cure for many other diseases. 
The scientific community is ecstatic about the promise of fetal tissue 
research, and its derivatives, like stem cells. As the Co-Chair of the 
House Diabetes Caucus, but more importantly, as the mother of a six-
year-old child with diabetes who could benefit significantly from 
appropriate fetal tissue research, I am also extremely hopeful about 
its promise.
    Because of the extraordinary promise this science holds for 
millions of people, I want to ensure, and I know my colleagues on this 
Committee, and in this body, want to ensure, that this research is 
conducted ethically.
    It is vital that scientists follow all of the proper protocols that 
Congress has put in place. Let me be perfectly clear. Any illegal 
activity with respect to fetal tissue research must not be tolerated. 
The allegations that brought about today's hearing taint the promise of 
this research, and, if they are true, must be investigated. And any 
perpetrators must be prosecuted to the full extent of the law.
    If allegations that businesses are profiting from fetal tissue 
procurement are true, the law is clear. The 1993 NIH Revitalization 
Act, which established the conditions under which federally funded 
fetal tissue research can occur provides that it is unlawful for any 
person to knowingly acquire, receive, or otherwise transfer any human 
fetal tissue for valuable consideration. Specifically, it prohibits the 
purchase of human fetal tissue. Additionally, a GAO report issued in 
1997 determined that these requirements were being met and no further 
complaints have been issued or detected, according to the NIH. Again, 
if this law has been violated, those who have conducted illegal 
activity must be prosecuted immediately.
    As I said before, the House Majority has been investigating these 
allegations since November of last year, yet to my knowledge, no 
criminal investigation has been initiated. The Majority's 
``investigators'' have not even performed the basic act of subpoenaing 
the financial records of the companies that purportedly violated the 
federal statute that prohibits profiting from the sale of fetal tissue. 
Instead, the Majority appears to favor ``oversight by privatization,'' 
shirking its duties by relying solely on the investigations of private 
entities. There are only two investigations of which I am aware. The 
first was conducted by Life Dynamics, an organization that has 
identified as its mission the elimination of abortion and fetal tissue 
research at any cost. The ABC News program 20/20 conducted the second 
investigation, which, as I said, aired last night. Neither of these 
organizations has turned over any evidence to the proper authorities, 
or reported wrongdoing to the proper oversight bodies. If there is 
evidence of wrongdoing, now is the time to lay it on the table so we 
can address it, and take steps to prevent it from happening again.
    I ask that the Department of Justice begin its investigation 
immediately so we may determine if the allegations we are evaluating 
today are substantiated. Thus far, I have yet to see any foundation or 
authentication for the accusations that resulted in this hearing. In 
fact, the only legal authentication of which I am aware is an 
affidavit, which invalidates the aforementioned charges.
    Again, if this hearing, or any subsequent investigations uncover 
evidence of wrongdoing or abuse, it is imperative that violators must 
be prosecuted and punished to the fullest extent of the law. I cannot 
repeat this enough. We must preserve the integrity of this lifesaving 
research.
    Unfortunately, I do not believe it is the intent of this hearing to 
preserve the integrity of this research. Rather, the intent is to 
inflame. There are some that wish to halt potentially lifesaving fetal 
tissue research by any means necessary. It saddens me to report that 
threats have been made to scientists involved in fetal tissue. Some of 
the allegations made today are affiliated with organizations that 
publish threats to doctors who perform abortions and the zealots who 
carry out these threats.
    We cannot allow unsubstantiated allegations, or isolated instances 
of wrongdoing to jeopardize the advance of medical research that holds 
extraordinary potential for 16 million diabetics, 4 million Americans 
with Alzheimer's, 1.5 million people suffering from Parkinson's and 
millions of other Americans who could benefit from this research. Mr. 
Chairman, I sincerely hope we can work in a bipartisan manner to ensure 
that if criminal activity has occurred, it is prosecuted. I also hope 
we can work together to protect the integrity of fetal tissue research.

    Mr. Bilirakis. I thank the gentlelady.
    The Chair now will provide his opening statement.
    As has already been said, for several months the majority 
oversight staff of the full Commerce Committee has been 
investigating whether fetal tissue is being bought and sold in 
violation of Federal law. Today's hearing will allow the 
committee to receive statements from two witnesses who were 
subpoenaed by full committee Chairman Bliley to provide 
testimony about this issue.
    When Congress overturned the ban of federally funded fetal 
tissue transplantation research in 1993, certain protections 
were placed in the law. These provisions were designed to avoid 
influencing a woman's decision on whether or not to terminate 
her pregnancy by the knowledge that donating her fetal tissue 
could prove useful to others.
    Specifically, that 1993 law requires that consent for 
abortion precede consent for tissue donation.
    The law also requires physicians performing abortions to 
certify that they did not alter the timing, methods, or 
procedures of abortion solely for purposes of obtaining fetal 
tissue. These prohibitions apply only when the tissue is 
obtained for use for federally funded fetal tissue 
transplantation research.
    However, Congress also enacted provisions making it 
unlawful for any person to acquire, receive, or transfer human 
fetal tissue for valuable consideration.
    While the term ``valuable consideration'' is not 
specifically defined, the law does allow reasonable payments 
for costs incurred in acquiring and providing the tissue.
    Congressional intent was clearly expressed by our 
colleague, Mr. Waxman, who managed the bill in the floor of the 
House. When asked whether it would prohibit the buying and 
selling of fetal tissue, Mr. Waxman responded, ``It would be 
abhorrent to allow for sale of fetal tissue and a market to be 
created for that sale.'' I think every member of this 
subcommittee would agree. And I also believe, as the gentlelady 
has already said, that full and vigorous enforcement of the law 
against the sale of fetal tissue is essential to prevent a 
negative impact on legitimate research.
    The committee has received information indicating that a 
market for fetal tissue exists and that Federal law is being 
violated. When the majority committee staff contacted the 
Justice Department, however, they were told that no credible 
evidence of potential violations has been presented and no 
investigation has been initiated, and we have a letter to that 
effect. Ms. DeGette referred to it.
    Clearly, the Justice Department has the responsibility to 
actively enforce these protections and an obligation to 
investigate any potential violations, and I hope that we will 
all join together in urging the Justice Department to commence 
an investigation on this matter.
    I looked for Mr. Waxman after the votes earlier today and 
couldn't find him. When I am not looking for you, Henry, you 
are always there; when I am looking for you, I can never find 
you.
    Well, I do want to shorten this up.
    Dr. Miles Jones is a pathologist who founded and runs 
Opening Lines, a group which acquires human fetal tissue and 
provides it to the research community for a fee. He has refused 
to respond to numerous written and verbal requests for 
information from the committee, and we trust and hope that he 
will be here today. He has been subpoenaed.
    Mr. Dean Alberty is a former employee of Opening Lines and 
the Anatomic Gift Foundation, another company which acquired 
fetal tissue and provided it to the research community for a 
fee. He has been prevented from speaking with the committee 
staff by a confidentiality agreement he signed with the 
Anatomic Gift Foundation, which includes an exception for 
statements made under subpoena, and that is the reason for the 
subpoena.
    The focus of our hearing, as Mr. Bliley has already said, 
is whether the 1993 law is being followed. We are not here to 
debate the many issues associated with fetal tissue 
transplantation research. While I respect the sincere and 
strongly held views of each member on that subject, it is not 
the topic of our hearing.
    I also want to acknowledge in advance the delay in 
providing written letters of invitation to three of our 
witnesses, Dr. Cohen, Dr. Kinney, and Ms. Samuelson. While 
these witnesses were previously contacted about the possibility 
of testifying, they did not receive formal confirmation until 
yesterday, for which I do apologize. As a result, their written 
statements were not received 2 days prior to the hearing, as 
required under our committee rules. I would like to assure 
them, however, that this delay in no way reflects on the merit 
of their testimony. I appreciate their understanding and, of 
course, the understanding of the members of the minority, and 
their particular effort to join us on such short notice.
    It is important to note that Messrs. Dingell and Brown 
contacted me last week to raise concern about the safety of 
individuals who could be identified by witnesses at today's 
hearing. They wrote that if witnesses were allowed to mention 
the names of clinics where abortions are performed or identify 
where the clinics are located, such disclosure could lead to 
harassment, injury, or death.
    While much of what we will discuss has already been 
reported in the media, I agree that it is important to err on 
the side of caution; therefore, the committee staff has 
informed the witnesses not to mention the names or disclose the 
location of any facilities which perform abortions, the 
employees of such facilities, or the researchers who receive 
tissue in their testimony or in response to questions.
    I want to request the same forbearance from each member of 
the subcommittee.
    I will recognize Mr. Waxman for an opening statement.
    Mr. Waxman. Thank you very much, Mr. Chairman.
    In 1993, the Congress passed important legislation 
authorizing Federal support of fetal tissue transplantation 
research. That legislation contained conditions for the 
collection of fetal tissue used in federally supported projects 
involving fetal tissue transplantation. It also established 
strong criminal penalties for the transfer of any fetal tissue 
for valuable consideration, whether that tissue was used in 
either the public or the private sector. In other words, we 
established clearly that it would be a crime to profit from the 
sale of fetal tissue.
    It is important to review exactly why this legislation was 
passed. We did it because of the tremendous promise of fetal 
tissue transplantation for the cure and treatment of diseases, 
particularly Parkinson's, Alzheimer's, cystic fibrosis, 
multiple sclerosis, and many others. We cannot lose sight of 
that.
    We know that fetal tissue research opened a world of 
possibilities and that transplantation of fetal tissue was an 
important part of that research. We also recognize the delicate 
ethical issues involved in this area of research. It was 
important to establish clearly in Federal law standards to 
protect against abuses, and, indeed, to extend some of those 
protections beyond federally funded research projects.
    We used as our model for those standards the 
recommendations of the Human Fetal Tissue Transplantation 
Research Panel that was appointed by the Reagan/Bush 
Administration to provide us advice on this issue. Those are 
the standards we have in law today.
    This hearing is examining whether there are instances where 
those standards have been violated. Where that has occurred, we 
are all in agreement that the abuses should be stopped and the 
law should be enforced. We stand ready to join with our 
colleagues to ask Federal and State authorities to do their 
job.
    Mr. Chairman, I stand in support of you and Mr. Bliley in 
your quotations of my statements on the House floor. We do not 
want to tolerate violations of the law.
    The appropriate response to incidents where the law has 
been broken is to enforce the law and prosecute the violators, 
and we have an absolute obligation to ensure that violations 
are isolated instances and not widespread practices that would 
undermine the fetal tissue program.
    It is also important to remember how valuable fetal tissue 
research is. We now have a diagnostic test for hepatitis-C, a 
test that was developed using liver fetal tissue.
    We are making progress in the development of an HIV 
vaccine, again using fetal tissue.
    Recently, we had indications of a cure of diabetes in mice, 
again with research involving fetal tissue.
    We cannot turn our backs on these lifesaving advances.
    Finally, let me make one last point. The law establishes 
safeguards to separate the decision to have an abortion from 
the use of the fetal tissue for transplantation research in 
federally supported projects. There was no intent to increase 
the number of abortions so that tissue could be obtained.
    When this law was passed in 1993, it was supported by 
Republicans and Democrats. Senator Dole supported it. Senator 
Thurman supported it. Members who were pro choice and those who 
were pro life supported it.
    I continue to believe that instances where the law is being 
broken are rare. There has been no indication in the 
information shared with us that this hearing will indicate 
otherwise. But any instance where the law is broken should be 
pursued. If people are breaking the law, let us prosecute them. 
If State and Federal laws are not being enforced, let us do 
better. But let us not sensationalize this issue and 
generalize, from one or two possible cases, in order to 
undermine the efforts of those who do comply with the law and 
who seek medical progress. If we do that, we do a disservice to 
those whose very lives may depend on the medical advances that 
fetal tissue research can bring.
    Thank you very much for holding this hearing, Mr. Chairman. 
I yield back the balance of my time.
    Mr. Bilirakis. I thank the gentleman.
    Mr. Upton for an opening statement?
    Mr. Upton. Thank you, Mr. Chairman.
    Section 498(b), subsection A, ``It shall be unlawful for 
any person to knowingly acquire, receive, or otherwise transfer 
any human fetal tissue for valuable consideration if the 
transfer affects interstate commerce.'' It is real clear. That 
is the law. That is the law that I helped craft with my 
colleague from California, Henry Waxman, nearly a decade ago. 
Our bond was our desire to ensure that promising research was 
not hamstrung by politics.
    We did it for moms and dads, we did it for sisters and 
brothers, spouses and friends, those who, unfortunately, know 
the heartache associated with diseases like Parkinson's, 
Alzheimer's, diabetes, and cancer.
    We share a common goal of putting substance over politics 
in finding a cure. Equally important, we passed this law 
because of our conviction that profiteering and coercion in the 
procurement of fetal tissue is morally wrong and has to be 
prevented.
    Today, we will hear of horrifying activities--activities 
which are reprehensible, inexcusable, and certainly highly 
illegal in the public and private sector, based on the 
provisions that I helped craft.
    No one in this room is more anxious to go after the 
culprits and right any wrongs than I am. Those breaking the law 
must be pursued, prosecuted, and severely punished.
    I pledge to work to close any gaps that exist, whether it 
be a matter of more oversight, more inspections and audits, 
heavier fines, tougher licensing. In fact, based on the horror 
stories that have been divulged in the past couple of weeks, I 
personally spoke this morning on the phone with Deputy Attorney 
General Eric Holder, requesting the full cooperation of the 
Justice Department in pursuing any and all violations of the 
law. A number of my colleagues sent a letter to Attorney 
General Reno in this regard, as well.
    In the letter that I received back about an hour ago from 
Robert Rabin, the Assistant Attorney General, he indicated, 
``We are currently reviewing the information obtained by 1920/
20' to determine whether specific allegations raised by 1920/
20' warrant the opening of an investigation by the Department 
or a referral to another agency for investigation.
    ``In the event that the department receives specific 
information that a violation of Federal law has occurred, we 
will investigate the matter to determine if there is sufficient 
evidence to support a prosecution.''
    We need to have a constructive dialog addressing abuses of 
this research and the possible remedies. Unfortunately, in any 
society, despite our most diligent efforts, there are reckless, 
renegade law-breakers, and, sadly, in terms of today's hearing, 
we have heard accounts of respect for the law and the dignity 
of human life taking a back seat to greed. If these allegations 
are true, I have not ever witnessed a clearer case of money as 
the root of incredible evil and the enemy of what the vast 
majority of God-fearing Americans recognize is flat-out wrong.
    In that regard, I wholeheartedly support the subpoena of 
Miles Jones, who was shown last night on ``20/20'' smirking and 
bragging about his seedy scheme to evade the law and to profit 
from the sale of fetal tissue. By all accounts, he is a monster 
whose nightmarish activities are an offense to all of us. As 
Churchill once said, ``The only guide to a man is his 
conscience.'' If what we have heard about Miles Jones is true, 
he does not have one. His only guide, sadly, has been his 
greed.
    The first question I would have asked him at this panel 
this afternoon, had he had the courage to show up, was, ``How 
do you sleep? How do you possibly sleep at night?'' No, Miles 
Jones is not here. He is on the run and he is hiding. But I, 
for one, intend to ensure that he is brought in for full 
questioning and that justice is served.
    I value life-saving research, the nature of which will be 
detailed later on today, and I value human life, the alleged 
degradation and desecration of which will also be detailed 
today.
    Every one of us needs to set and follow our own moral 
compass.
    I deplore the actions of those who seek to profit from the 
sale of fetal tissue. It is wrong, it is illegal, and it has to 
be stopped.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Fred Upton follows:]
  Prepared Statement of Hon. Fred Upton, a Representative in Congress 
                       from the State of Michigan
    Good afternoon.
    Over a decade ago, as a new member of this Committee, I faced one 
of my very first votes on a highly controversial issue--a vote to 
overturn the ban on fetal tissue transplantation research. I was told 
that this was a very complicated issue--as it obviously remains today--
and I was told by fellow Republicans that this issue was so potentially 
politically explosive that I should just vote to keep the ban intact . 
. . it was the right thing to do. After all, didn't I want to be 
assured of reelection? Did I want to cause trouble? Was it worth it?
    Well, after much soul searching and really looking at the FACTS of 
the issue, I decided, YES, it WAS worth it. Absolutely.
    At that time, I joined forces with my colleague across the aisle--
Henry Waxman. A man, with whom, frankly, before that time I had very 
little in common. He was from California. I was from Michigan. On the 
only other issue with which I had really come to know him, we had 
differed greatly on our approach: Clean Air. And yet, we both realized 
the tremendous life saving potential of fetal tissue research. Our bond 
was our desire to ensure that incredibly promising research was not 
hampered and hamstrung by politics. As I delved into this issue, I met 
extraordinary people . . . real heros . . . Joan Samuelson, herself a 
victim of Parkinson's who will testify later today about the merits of 
the research in terms of a potential cure for Parkinson's Disease . . . 
Guy Waldron, a pro-life Baptist Minister who, after losing 2 children 
to genetic birth defects and facing the loss of their third, agreed to 
fetal tissue transplantation--much to the dismay of his own 
congregation . . . Dr. Otis Bowen, the Secretary of Health and Human 
Services at the time the Reagan Administration ban went into effect who 
would not sign the executive order overturning the ban because he 
recognized its error . . . and Ruth Katz, a former Congressional 
staffer who served this very Committee and Congressman Waxman so well.
    These individuals and the many others who worked with us on this 
effort came from very different backgrounds, professions and political 
orientations. What we all shared was the common goal of putting 
substance OVER politics and finding a cure to ease and hopefully end 
the suffering of so many millions of Americans.
    I will leave it to the groups represented here today to speak 
further of the promise this research holds. I am not an expert in this 
area.
    What I did, when recognizing the promise of this research, and 
feeling disheartened about the politics surrounding this issue, was to 
reach across the aisle to my colleague and craft an amendment that 
would allow the research to go forward, but only with strict safeguards 
that were not then in place.
    Had our amendment not been incorporated into the NIH 
reauthorization bill, we would not be having this hearing today. 
Because there would not be a federal statute so stringently prohibiting 
the very abhorrent practices that we outlawed in public AND private 
activities involving this research. The scope of our law was broad; the 
penalties severe.
    Here is what the law says:
          ``IT SHALL BE UNLAWFUL FOR ANY PERSON TO KNOWINGLY ACQUIRE, 
        RECEIVE, OR OTHERWISE TRANSFER ANY HUMAN FETAL TISSUE FOR 
        VALUABLE CONSIDERATION . . .''
          ``IT SHALL BE UNLAWFUL FOR ANY PERSON TO SOLICIT OR KNOWINGLY 
        ACCEPT A DONATION OF HUMAN FETAL TISSUE FOR THE PURPOSE OF 
        TRANSPLANTATION IF THE TISSUE IS OBTAINED PURSUANT TO AN 
        INDUCED ABORTION AND
          IF THE DONATION WILL BE OR IS MADE PURSUANT TO A PROMISE TO 
        THE DONATION INDIVIDUAL THAT THE DONATION WILL BE TRANSPLANTED 
        INTO A RECIPIENT SPECIFIED BY SUCH INDIVIDUAL.''
    Violators of this law are subject to stringent civil and criminal 
penalties, including jail time.
    Today we will hear of horrifying activities. Activities, which, if 
true, are not only reprehensible, inexcusable and unimaginable. They 
are illegal because of the amendment I helped craft. And no one is more 
anxious to go after the culprits and right any wrongs than I am. Those 
breaking this federal law should be pursued and prosecuted, and I hope, 
punished, to the fullest extent of the law. There is no excuse for this 
type of gross violation of the law, and sickening disrespect for the 
value of human life.
    I pledge to work to close any gaps that may exist in the law. 
Whether it be a matter of more oversight, more inspections and audits, 
tighter restrictions, heavier fines, tougher licensing. I have spoken 
with the Department of Justice about fully pursuing any and all 
violations of this law. And I am in the process of discussing with 
pharmaceutical companies and research institutions various ways to 
ensure that the spirit and letter of law are strictly abided by.
    I do not have a reputation for merely talking about problems. 
Especially in this matter, addressing any cracks in the system and 
finding a solution, while at the same time protecting the continuation 
of legitimate, legal medical research is an imperative I take most 
seriously. It is a matter life or death matter.
    I hope that at some point we can have a constructive dialogue on 
how to address abuses of this research, short comings in the law and 
ways to remedy it. I think the American people are tired of the 
accusatory, either/or, us versus them politics that really end up 
meaning: nothing gets done, people keep bickering--the problem 
persists. There are no winners.
    There must be common ground.
    I truly believe that no one--no one--in this room today would 
condone the type of activities as those detailed on a prominent news 
show last night.
    Unfortunately, in any society, there are those who abuse the law . 
. . those who put profit ahead of civility; basic respect for the 
dignity of human life takes a back seat to greed. Money becomes the 
root of incredible evil. It becomes the enemy of the common good.
    I wholeheartedly supported the subpoena of Miles Jones. From what 
many of us have heard alleged, there are many questions we would like 
to ask him. He has run. And he is hiding. But, I for one intend to join 
the effort to ensure he is brought in for full questioning and that 
justice is served.
    I value life saving research, the nature of which will be detailed 
later today. And I value human life, the degradation and desecration of 
which, sadly, purportedly will also be detailed today. To say that the 
two are mutually exclusive as some groups have done in the past few 
days just as they did a decade ago, is unfair and insulting.
    Let me close by saying that when Congress first looked at this 
issue back in 1991, as a new member of this committee, I set out to 
find Members of Congress who would join me in truly studying the issue, 
leaving labels, and fears, and political expediency aside. Very close 
to home I found someone who was known to relish complicated details, 
thorny issues and complex challenges. He was widely respected and known 
as one of the most civil, truly decent individuals in this institution. 
He was my colleague and very good friend, Paul Henry, of Grand Rapids, 
Michigan. Paul took the report of the Reagan Commission on Fetal Tissue 
Transplantation Research--as well as reams and reams of issue briefs 
from interest groups on all sides of the spectruirn--home to study. And 
those of you who remember Paul know he took his studying very 
seriously. A few days later Paul joined me on the floor of the House of 
Representatives urging members to adopt the NIH report ending the ban 
on fetal tissue transplantation--but only with the strict safeguards of 
our amendment in place.
    It was a tremendous act of courage.
    We all need to set and follow our own moral compasses. I deplore 
the actions of those that make a profit from the sale of fetal tissue. 
It is wrong. It is illegal. It must be stopped.
    I believe we can take aggressive action to crack down on any 
illegal activity while at the same time ensuring the progress of vital 
life saving research.

    Mr. Bilirakis. I thank the gentleman.
    Mr. Stupak, opening statement?
    Mr. Stupak. Yes, sir.
    Thank you, Mr. Chairman. I want to thank you for holding 
this hearing on the extremely serious issue of whether fetal 
tissue is being bought and sold for profit in violation of 
Federal law. I believe that it is critical that we examine 
these allegations.
    It is important to point out that, whether you are pro life 
or pro choice, it is impossible to condone the conduct of any 
health care provider or anyone else who would sell fetal tissue 
for profit or perform medical procedures that increase the risk 
to the patient. These actions are illegal and reprehensible.
    I join a number of my colleagues today, both Democrats and 
Republicans, in a referral to the Justice Department urging the 
Attorney General and FBI Director Freeh to investigate the 
alleged violations of Federal law.
    In addition, Mr. Alberty has made statements that, if true, 
could be serious crimes under Kansas State law.
    I would urge local authorities to conduct a vigorous 
investigation of these allegations.
    Mr. Chairman, it is important to note that the subcommittee 
has not conducted a whole or proper investigation on this 
matter. We should be able to easily determine whether companies 
have made a profit on these transactions. One should be able to 
acquire their financial records and compare their cost to the 
amounts that they received for the tissue and determine whether 
or not they made a profit.
    It is my understanding that the subcommittee has not 
received any information about the financial status of Opening 
Lines or the Anatomic Gift Foundation. I believe we have an 
obligation to investigate and examine these questions.
    The buying and selling of fetal tissue for profit is 
immoral and illegal. The failure to gain proper consent for 
donation of fetal tissue is immoral and illegal. The alteration 
of the medical procedure to increase the quality of fetal 
tissue is immoral and illegal.
    Our responsibility is to investigate these wrongdoings and 
bring them to the public's attention. I believe this 
subcommittee should perform a thorough and extensive 
examination of these issues.
    It is my hope that we can do the necessary work to 
investigate these allegations and bring the wrongdoers to 
justice and end this deplorable practice.
    With that, Mr. Chairman, I would yield back the balance of 
my time.
    Mr. Bilirakis. I thank the gentleman.
    Mr. Stearns for an opening statement?
    Mr. Stearns. Thank you, Mr. Chairman.
    I think, like many members, it is very, very disturbing 
that in this wonderful country of ours we see the trafficking 
of body parts has become a business enterprise. This macabre 
practice certainly has implications that go even further beyond 
this hearing today or whether any Federal laws have been 
broken. There is a moral and spiritual question involved, but 
the purpose today is not that. We are not here to conduct a 
witch hunt.
    The purpose of this hearing is very clear. It is simply to 
determine whether or not Federal laws have been broken, whether 
the allegations that organs and body parts were sold for 
profit--that is true--and Congress has in place laws that can 
allow men and women to disguise their operation under existing 
provisions of the law to allow them to continue their 
operation. Why has not the Administration started an 
investigation?
    These are the kind of questions that are most appropriate, 
and ultimately Congress and this committee should consider 
whether existing legal protection at the Federal and State 
levels against non-therapeutic experimentation on infants and 
fetuses is adequate.
    So, Mr. Chairman, I applaud you for having this hearing and 
I hope to hear from the witnesses.
    Mr. Bilirakis. I thank the gentleman.
    Ms. Eshoo for an opening statement?
    Ms. Eshoo. Thank you, Mr. Chairman.
    I think that all of us here today would agree that 
profiting from the sale of fetal tissue is morally repugnant. 
That is why in 1993 the Congress made it a criminal offense. 
Anyone found guilty of profiting from the sale of fetal tissue 
is subject to criminal fines and/or imprisonment for up to 10 
years. That is a very, very stiff penalty.
    We also included protections to ensure that women who 
donate their fetal tissue for federally funded transplantation 
research do so willing--not forcibly, but willingly--and that 
the procedure is done ethically.
    First, she must give her written consent to have an 
abortion. Only after consent to have the abortion can she 
provide the necessary written consent to donate the fetus. She 
cannot be paid for the donation and she cannot know the 
recipient.
    Second, the physician performing the abortion must certify 
in writing that the procedure was not altered in any way to 
produce more usable tissue.
    I fully support these laws and their vigorous enforcement, 
and I believe that we here in the Congress must work to ensure 
that these laws are being properly enforced. In fact, that is, 
I believe, the intent of this hearing today.
    Along these lines, Mr. Chairman, at least two of today's 
witnesses have admitted to actions which are in clear violation 
of the law. It is my understanding that the committee has known 
of this for several months and has not referred this matter to 
the proper authorities, and I think we need to know why, if, in 
fact, this is the case.
    Notwithstanding the abhorrent practices of the two brokers 
represented here today, all evidence points to the conclusion 
that the laws are working. In 1997, the GAO issued a report in 
which it found that the Federal laws are being complied with.
    I strongly question the veracity of some of the outrageous 
stories told by Mr. Alberty, who has made numerous false and 
conflicting statements. In fact, he recently gave a sworn, 
signed affidavit in which he recanted much of what he told Life 
Dynamics in a taped interview. Moreover, when interviewed by 
ABC's ``20/20,'' Mr. Alberty omitted the most inflammatory 
parts of his story to Life Dynamics, for which the group paid 
him $15,000.
    However, if what Mr. Alberty has said is true, there are 
laws already in place to punish those involved. We cannot and 
should not use the crimes of these bad actors as an excuse to 
severely restrict or ban lifesaving medical research that 
utilizes medical tissue.
    Medical research using fetal tissue is bringing us closer 
to cures for diseases like Parkinson's and diabetes than we 
ever thought possible. Due to its regenerative properties, 
fetal tissue provides hope that diseases that were once death 
sentences will some day be non-existent.
    In fact, we have already witnessed the miracles that can 
come from research on fetal tissue. It played an integral role 
in development of vaccines for polio and rubella, and, thanks 
to that research, these diseases have been virtually wiped out.
    Much of this lifesaving research is being done in my 
Congressional District, and the leading biotechnology company 
in stem cell research makes its home in California's 14th 
Congressional District.
    We will hear from several medical experts today who will 
tell us that the type of research that this company does poses 
the next big breakthrough in medicine, and we cannot stifle 
this progress.
    In 1992, former majority leader Bob Dole said supporting 
fetal tissue is, ``The true pro life position.''
    At this time, I ask, Mr. Chairman, unanimous consent to 
include in the record an editorial by the San Jose ``Mercury 
News.'' It provides a very enlightened and instructive look at 
this issue.
    Mr. Bilirakis. Without objection.
    [The information referred to follows:]

          [Published Monday, March 6, 2000--San Jose Mercury]

                               EDITORIAL
                    The opinion of the Mercury News
                         Science vs. Suffering
   The anti-abortion movement must not be allowed to stop stem cell 
                                research
    It would be a shame if anti-abortion hysteria whipped up by 
extremist groups were allowed to delay cures for childhood leukemia, 
diabetes and other killer diseases.
    But that's what could happen if House and Senate committees don't 
hear from Americans this month about the importance of federal support 
for stem cell research, a promising area of scientific investigation 
that unfortunately is clouded by abortion politics.
    Stem cells--the undifferentiated cells at the earliest stages of 
human life--can develop into any part of the body. Researchers expect 
some day to use them to generate cells and tissue for transplantation, 
repair of nerves, treatment of burns and many other uses. They might 
also revolutionize the way new drugs are tested.
    Stem cells are sometimes obtained from embryos grown in the lab but 
not used for in vitro fertilization, as well as from aborted fetuses. 
Stem cells can also be obtained from umbilical cord blood and 
placentas.
    Opponents of stem cell research say it is tainted by the use of 
material from abortions, and they are desperate that nothing beneficial 
ever come from a woman's choice to end a pregnancy. They also claim 
embryos will be grown just for spare parts, which is already 
prohibited.
    Two factors seem to be prompting members of Congress to call for 
hearings this month:
    First, the National Institutes of Health recently drafted 
guidelines that would allow stem cell research at federally funded 
sites (all universities, basically). Research is now done by private 
companies.
    Allowing such research in federally funded sites would accomplish a 
number of good things; It would bring ethical guidelines and public 
accountability to stem cell research, just as it has to fetal tissue 
research, which uses material from elective abortions; it would 
increase the amount of research; and it would prevent private, for-
profit companies from having a monopoly on how research results are put 
to use.
    Second, a small faction of the anti-abortion movement is stirring 
up concern over tissue procurement firms, the middlemen who obtain 
fetal tissue and market it to universities and biotechnology firms. If 
there is indeed illegal trafficking in fetal tissue, then the research 
should be brought under stricter government oversight, not driven 
underground.
    The embryos that yield stem cells are the left-overs from in vitro 
fertilization, and would be destroyed anyway. Allowing or disallowing 
stem cell research in federally funded labs has no effect on how many 
abortions are performed. While fertility labs and abortion clinics are 
now the most reliable source of fetal tissue, biotechnology companies 
are developing stem cells that will reproduce indefinitely, eventually 
making this debate moot.
    NIH's suggested guidelines allow stem cell research as long as the 
embryos were created for other purposes. Guidelines already in place 
for other kinds of fetal tissue research have prevented improper 
profiting from fetal tissue donations.
    Banning stem cell research because the material comes from aborted 
fetuses or surplus embryos would make as much sense as banning organ 
transplants because some of the donors were crime victims.
    Stem cell and fetal tissue research hold out the best hope yet for 
people suffering from Parkinson's disease, spinal cord injuries and 
Alzheimer's disease. This research also shows promise of alleviating 
the terrible suffering caused by strokes, cancer, cystic fibrosis, 
muscular dystrophy and many other ailments. Anti-abortion conservatives 
such as John McCain, Bob Dole and Strom Thurmond have supported fetal 
tissue research in the past. Today's members of Congress should follow 
their lead and protect stem cell research from the depredations of an 
ideological minority. As Dole put it in 1992, supporting life-saving, 
fetal tissue research is the ``true pro-life position.''

    Ms. Eshoo. I want to thank you for holding this hearing. 
Thank you, Mr. Chairman.
    Mr. Bilirakis. I thank the gentlelady.
    Mr. Greenwood for an opening statement.
    Mr. Greenwood. Thank you, Mr. Chairman.
    In the United States, we have the option to donate our 
bodies to science, and, because we do and because of the fact 
that we have this option, it is impossible to calculate the 
number of lives of men and women and children who have been 
saved, prolonged, and the amount of human suffering that has 
been relieved because of these donations.
    We also have a statute called the ``Uniform Anatomic Act'' 
that creates very clear guidelines as to how the donations of 
our bodies to science are to be handled.
    If someone violates those laws, they should be punished. 
There should be stiff punishments. But we would never think 
that the idea of donating our bodies to science should be 
rethought. We know how important those donations are.
    Similarly, we can donate our organs to relieve others of 
our fellow human beings. Again, you cannot calculate the 
suffering that has been relieved and the joy that has been 
brought to the lives of the loved ones of those people because 
their lives have been extended.
    If someone violated the Uniform Anatomic Gift Act and sold 
and profited from the donation of organs, we should and we 
would punish those individuals, but we would not rethink the 
value of the donation of our organs.
    In this country, women can also make the choice to donate 
fetal tissue. Again, it is impossible--probably more impossible 
than the other two instances--to calculate the amount of human 
suffering that will be relieved, the lives saved, lives 
prolonged because of the research that is and will be done 
using fetal research.
    In the instances that we will hear about today, those 
individuals who violated that law--and it is the unanimous 
opinion of those in this panel that they should be tracked down 
and punished, and punished severely. And if, in fact, there are 
loopholes in the law that would, for instance, allow women to 
be put at greater risk because of the procedures used to 
extract that tissue, perhaps we should look at that. But we 
should not and would not, I hope, question the value of fetal 
tissue research because of the enormous blessing that it brings 
to our society now and into the future.
    I look forward to hearing from the witnesses, Mr. Chairman.
    Mr. Bilirakis. I thank the gentleman.
    Mr. Green?
    Mr. Green. Thank you, Mr. Chairman. I want to thank you for 
scheduling this important hearing on fetal tissue research.
    It is important we address this issue. The trafficking of 
body parts is illegal, and it is a felony. If it happens, we 
need to address the proper authorities and actively prosecute 
the offenders. Those selling fetal tissue for profit should be 
in jail and not testifying before a Congressional committee.
    We cannot forget the benefits of fetal tissue research. 
Fetal tissue has helped develop vaccines for polio and rubella. 
Every year, an estimated 8,600 new cases of cancer occur among 
children between birth and age 14. Cancer is the chief cause of 
death by children under the age of 15. Fetal tissue research 
can help researchers and those afflicted understand more 
clearly what is happening and why.
    We must not underestimate how crucial and beneficial fetal 
tissue research is to the disease research such as Parkinson's 
and Alzheimer's.
    I want to thank you again for scheduling this hearing. 
Hopefully, we will not let politics get in the way of what the 
issue is here today.
    I yield back my time, Mr. Chairman.
    Mr. Bilirakis. I thank the gentleman.
    Mr. Deal for an opening statement.
    Mr. Deal. Thank you, Mr. Chairman. I thank you for holding 
this hearing today.
    I think there is one thing we need to keep in mind as we go 
through this hearing, and that is the context in which the law 
is written, and that is that we cannot simply point to one 
person or one group and say that they are the bad actors, 
because, as the law is written, it implies the obligation and 
responsibility on everyone in the chain to ensure that the law 
is adhered to.
    If, in fact, this is one bad actor or a few bad actors who 
are violating the law to make a profit in the sale and the 
trafficking in fetal tissue, it would seem to me that there is 
something that runs against common sense in the way this 
operates.
    First of all, how does someone have an exaggerated price 
for fetal tissue and sell it at an exaggerated price to make a 
profit? Normally, those who violate the law do so by being able 
to sell their contraband at less than the market rate. So one 
of the things I think we need to ask is: if this is someone 
whose profit factor is built into the sale of fetal tissue, how 
does that, in itself, not cause them to stand out and, 
therefore, immediately raise a red flag to those who are doing 
business with them?
    Thank you, Mr. Chairman.
    Mr. Bilirakis. I thank the gentleman.
    I would announce to the subcommittee and to the audience 
that we have two votes on the floor, a 15-minute and a 5-minute 
vote, so I am sure that is going to probably take us pretty 
close to 3:30. It is probably a good idea to just go ahead and 
recess for that period of time. We will start as soon as they 
have that second vote.
    [Brief recess.]
    Mr. Bilirakis. Let us have order, please.
    Mr. Whitfield for an opening statement.
    Mr. Whitfield. Mr. Chairman, thank you very much.
    President Clinton, on his first day in office, signed an 
executive order that ended Federal curbs on fetal tissue 
research. Soon thereafter, Congress passed public law 103-43, 
the National Institutes of Health Revitalization Act of 1993, 
which governed the sale of fetal tissue.
    During the Congressional debates on that legislation, 
supporters of fetal tissue research argued that the ethics 
provisions in the bill would curb the emergence of a 
marketplace for fetal body parts. The idea of such a market is 
barbaric, said Senator John McCain in a May, 1992, letter to 
constituents in which he announced that, because of the ethical 
safeguards added to the law, that he had dropped his opposition 
to fetal organ research.
    As a result of the ``20/20'' program and other evidence 
that has become available, despite a Congressional prohibition 
against a money-making marketplace for fetal tissue, there is 
strong evidence that such a marketplace has developed and that 
companies are selling fetal parts for profit.
    The purpose of this hearing is to send a message loud and 
clear that we will not, as a Nation, tolerate for one moment 
the selling of fetal parts for profit. Although we may live in 
a world of increasingly lax ethical standards, we will not 
tolerate a deviation from the highest ethical standards in the 
area of fetal tissue research.
    So I think what we are looking for in this hearing is: one, 
have Federal laws been violated; two, how widespread is the 
practice; and, three, what legal or Congressional action is 
necessary to stop it.
    So, Mr. Chairman, I am delighted that you are having the 
hearings on this important issue, and I look forward to hearing 
from the witnesses and the additional evidence that may be 
presented.
    Mr. Bilirakis. I thank the gentleman from Kentucky.
    Mr. Strickland for an opening statement?
    Mr. Strickland. Thank you, Mr. Chairman.
    I would like to begin my statement by reflecting upon the 
words of my colleague, Mr. Upton from Michigan. I was very 
moved by his statement. I think he said exactly what I feel in 
my heart regarding this matter.
    We are here today to hear testimony that at least one 
unscrupulous physician is flagrantly violating the criminal 
statute by making profits from the sale of fetal tissues. This 
is a crime of the lowest order, with disastrous consequences to 
donors who place their trust in medical professionals, for 
researchers who depend upon this tissue to do lifesaving work, 
and for the victims of the many diseases that could potentially 
be eradicated by this research.
    I hope that the Justice Department begins an immediate, 
full-scale investigation into these allegations to uncover 
criminal wrongdoing and to severely punish those who have 
perpetrated crimes.
    I am extremely disappointed, Mr. Chairman, that officials 
from the Department of Justice and the Department of Health and 
Human Services are not included among our witnesses today, 
since they have the authority to investigate allegations in 
pursuit of a conviction. I urge this subcommittee to hold 
additional hearings with the appropriate Federal officials at 
the earliest convenience.
    Furthermore, I note that one of today's witnesses will 
testify to the fact that he contacted the FBI to report 
wrongdoing by his employer, but that the FBI did not respond. 
If the FBI was informed and did not respond, I think the FBI 
should be before this committee to explain that.
    I will be interested in asking this witness who he talked 
with at the FBI, when he talked with that person, and what 
response he was given.
    I believe that the real heroes among us today are the 
medical researchers who spend month after month and year after 
year working to find answers to the dread diseases which plague 
us and our loved ones. I hope today that, as we condemn those 
that have violated the law and who have acted in this egregious 
manner, that we also pay homage to those men and women who, day 
after day, work selflessly to find a cure for the diseases that 
we are all concerned about.
    I thank you for having this hearing. I want to say that I 
appreciate the tone of the statements that have been given thus 
far. I think they reflect a serious bipartisan concern, and I 
hope they can lead to a serious bipartisan solution to the 
problem that we are addressing today.
    Thank you, Mr. Chairman. I yield back.
    Mr. Bilirakis. I thank the gentleman.
    The Chair recognizes Mr. Bilbray for an opening statement.
    Mr. Bilbray. Thank you, Mr. Chairman.
    Mr. Chairman, I cannot help but sit here and think that 200 
years ago the Federal Government of the United States decided 
to locate and start operating on Jenkins Hill, which later was 
called Capitol Hill. And I only say that because I can just 
imagine our founding fathers who developed this institution 
just thinking of us sitting here today talking about this 
situation. I think they would be astonished. I think they would 
be very encouraged [sic]. And I think they would be very 
disgusted.
    The issue before us I think is: how do we take this 
institution that has been operating for the people of the 
United States for over 200 years and apply it to this problem?
    The problem is that science is moving so quickly and 
miracles are coming at us so fast and people are using and 
abusing these technologies and these great breakthroughs to a 
point where it is hard for government to manage the situation 
in a reasonable manner.
    Now, fetal tissue research is hardly new. In fact, Jonas 
Salk used fetal tissue in the development of the polio vaccine. 
The huge, huge benefits that we received in the far past, the 
near past, but, most importantly, in the future justifies us 
taking very seriously this opportunity that we call ``fetal 
tissue research.''
    But it also means those of us who strongly support this 
research, as I do, also bear the responsibility to make sure 
that less-than-appropriate activities are not allowed to occur 
around this issue.
    Those of us that want to defend this great potential also 
have the obligation to get rid of this hideous problem that 
seems to have grown up around it.
    I would have to say, Mr. Chairman, that, as both my 
colleagues from the Democrat and the Republican side said, you 
guys were here when you passed this law, you saw a great 
opportunity. In all fairness, I think we all, in the back of 
our minds, had to recognize there was great potential for 
abuse.
    Let us concentrate on why those abuses occurred. Let us 
concentrate on why the prosecution and the issue has not been 
addressed before now. But let us talk about what can be done, 
not just by this Congress but by the Administration and by the 
community, at large, to make sure that the potential of tissue 
research is one of hope and of help, not one that we will have 
to hide from our children and grandchildren and say that, yes, 
we should have done more, we should have cared more.
    Thank you very much for giving us that chance to 
participate in the process of making sure this dream does not 
turn into a nightmare.
    Thank you very much, Mr. Chairman.
    Mr. Bilirakis. Ms. Capps for an opening statement.
    Ms. Capps. Good afternoon, Mr. Chairman. Thank you very 
much for holding this hearing.
    The parameters of the 1993 NIH Revitalization Act have been 
outlined in other opening statements. We are here today to 
discuss the possible abuses in the area of fetal tissue 
donation and sale. We have learned that one or more groups may 
be inappropriately profiting from sale of this tissue, which is 
a serious charge raising many ethical and legal questions.
    If third-party fetal tissue procurement businesses are 
making a profit from their transactions in clear violation of 
the law, they must be held accountable and they must be 
punished. No one on this committee would disagree with that. I 
would say compelling opening statements attest to our 
bipartisan and unanimous conviction in this area.
    Additionally, this hearing provides a good opportunity to 
look at ways that the Federal Government can eliminate these 
abuses. For a start, NIH must formulate safeguards to ensure 
that federally funded researchers avoid these illegal vendors 
of tissue.
    Mr. Chairman, I have several concerns with this hearing. 
First, I am concerned that the charges being leveled today, 
while very serious and troubling, are also being used by pro 
life groups to inflame the abortion debate. Second, we must not 
threaten the legal, ethical practice of fetal tissue research.
    My strongest concern is that today's debate will put the 
very research that we are discussing in jeopardy. I am 
concerned that our testimony may not include many good examples 
of tissue procurement because of the very real fear of 
harassment that such witnesses may experience.
    As a health care professional, I am a strong supporter of 
fetal tissue research. Doctors and scientists around the world 
have attested to the amazing potential in this area of science. 
In my own District, I represent several groups who have a 
personal understanding of just how important the work is. 
Members of the Parkinson's Association of Santa Barbara have 
again and again indicated their strong support of this research 
to me.
    Doctor Lois Jovanovich, a nationally known expert and 
director and chief scientific officer of the Santa Barbara 
Diabetes Project and the Samson Clinics, told me of the 
following case in which fetal tissue research was an invaluable 
tool. She was studying children's diabetes, where certain cells 
in the child's pancreas die for no known reason. Children 
suffering from this disease will die if they do not take 
insulin, which currently can only be administered by injection. 
These injections make children's lives very difficult.
    Dr. Jovanovich's group decided to attempt to transplant 
cells that make insulin so that injections would no longer be 
necessary, but childhood diabetics often develop autoimmune 
disease and become allergic to their own cells. Fetal tissue 
does not promote this allergic reaction.
    They decided to undertake a study to transplant fetal 
pancreas cells. Working with the clinic, women signed informed 
consent forms and were asked if they would like their fetal 
tissue destroyed, buried, or donated to research. Of the women, 
100 percent chose to donate their tissue to research. Forty-
seven children underwent transplants, and, although none of 
them were cured, their diabetes improved dramatically, as did 
the quality of their lives.
    So you see, Mr. Chairman, this research is opening new 
doors every day.
    Additionally, California bioscience innovators are 
conducting ground-breaking stem cell research, a closely 
related procedure to fetal tissue research. These critically 
important research projects are likely to produce breakthrough 
treatments for many diseases, including non-Hodgkin's lymphoma, 
breast cancer, cardiovascular disease, and rare blood 
disorders.
    This research could also yield more-effective antibiotics 
and transform the fields of organ transplantation, orthopedic 
surgery, and wound care.
    Mr. Chairman, medical research is one of the greatest 
efforts we in Congress can and do support. Increased funding 
for NIH is often championed by members from both sides of the 
aisle. Let us not seek to weaken the extraordinary potential of 
fetal tissue research with potentially sensational proceedings.
    If abuses are taking place, let Congress treat them in a 
measured and thoughtful manner.
    Yesterday, I heard from a 52-year-old woman who is my 
constituent and who is living with Parkinson's disease. 
Diagnosed 6 years ago, she is hopeful that medical research 
breakthroughs, seemingly so close, will help her to extend her 
life expectancy and dramatically improve her day-to-day health. 
In her words, ``Fetal tissue research could be the answer to my 
problem. Those who oppose it are taking away my chance at a 
productive future, and I just do not think it is fair.''
    Mr. Chairman, let us tread carefully on this most serious 
topic. The health and the hope of millions of Americans depend 
upon it.
    I yield back the balance of my time.
    Mr. Bilirakis. I thank the gentlelady.
    Dr. Ganske for an opening statement.
    Mr. Ganske. Mr. Chairman, I think it is good to have this 
hearing. I think there have been many thoughtful statements, 
but, in an effort to start moving to testimony, I will submit a 
statement, and I yield back.
    Mr. Bilirakis. I appreciate that.
    Mr. Barrett for an opening statement?
    Mr. Barrett. Thank you, Mr. Chairman. I appreciate the 
opportunity to be here today.
    Section 498(b) of the Public Health Service Act states that 
it is a felony to knowingly acquire, receive, or otherwise 
transfer any human fetal tissue for valuable consideration if 
this transfer affects interstate commerce.
    This law makes it clear that the allegations that have been 
made concerning some of the people who have been subpoenaed 
here today may have, in fact, violated Federal law. And I join 
with the other members of this committee urging us to take 
every action necessary to make sure that individuals who may 
have violated Federal law be investigated, and if it is found 
that they have, in fact, violated the law, that they be 
convicted and punished.
    There is no place in this society for people to benefit 
from the sale of these fetal parts. But, at the same time, I 
join with Ms. Capps and the others who understand and 
appreciate and support the tremendous advances in medicine and 
science that have arisen as a result of fetal tissue research 
and stem cell research, and I think it would be a mistake for 
us to allow what appears to be a violation of Federal law to 
turn into an attempt to undercut this valuable research.
    So, again, I join with those on this committee who urge us 
to move forward cautiously, so that when we make a decision as 
to what to do, that we do so, not based on emotions, but based 
on some research that we have done by ourselves.
    I also would urge the committee, and you, Mr. Chairman--and 
I do not know if it is appropriate to make a motion at some 
point, but you and perhaps the ranking member, on behalf of all 
committee members, to again contact that Justice Department 
following this hearing if we hear evidence today or if we hear 
testimony today that leads us to conclude that Federal law has 
been violated.
    I see no place in this hearing for politics. I think that 
this is a serious matter, and if we do find there have been 
violations of the law, I think we should work hand-in-hand with 
the Justice Department to make sure the individuals should be 
prosecuted.
    I would make a request, Mr. Chairman. I do have an 
affidavit from Lawrence Dean Alberty, Jr., who I believe is 
going to be one of our witnesses today, that he executed on 
January 20, 2000. I would ask at this time that that be made a 
part of the record.
    Mr. Bilirakis. Is there objection to that?
    [No response.]
    Mr. Bilirakis. There being none, so be it.
    Mr. Barrett. Thank you, Mr. Chairman.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T3102.001
    
    [GRAPHIC] [TIFF OMITTED] T3102.002
    
    Mr. Bilirakis. And I would say to the gentleman I 
appreciate the suggestion. Apparently, a letter has either gone 
out or is going out which has been strictly from your side, 
with the exception of Mr. Upton, and I think it ought to be a 
bipartisan letter, so hopefully we all can----
    Mr. Barrett. Mr. Chairman, as a point of inquiry, would a 
motion at some point be in order to do that, or how would we 
proceed as a committee?
    Mr. Bilirakis. I do not know. No, I would rather we did not 
try to determine what is in order or what is not in order, but 
we will prepare a letter, and we will coordinate with Ms. 
DeGette, and hopefully we can do it on a bipartisan basis.
    Mr. Barrett. Again, I----
    Mr. Bilirakis. I plan to do this, anyhow.
    Mr. Barrett. Good. I believe there are many members on both 
sides of the aisle that would like to be part of that.
    Mr. Bilirakis. Yes. Thank you.
    Mr. Barrett. I would ask you to consider that, as well.
    Mr. Bilirakis. Thank you.
    All right. That being the case, Dr. Norwood for an opening 
statement.
    Mr. Norwood. Chairman Bilirakis, I thank you for holding 
this hearing today. I know that is not an easy thing to do. We 
have difficulty staying on the subject, which is not about 
research--I think there is a lot of agreement there--but about 
selling body parts of children and babies. If we can stay on 
that as the topic of this hearing, I think it would help us.
    Though it was not easy for you to have this hearing, I 
believe it was the right thing to do and I commend you greatly 
for doing the right thing.
    My colleagues, like many of you, I come at this issue with 
a heavy heart. I spent most of my adult life in the health care 
professions, and I support and want to see medical research go 
forward--research that has been so helpful to so many people. 
It has brought hope and joy to thousands of people. I am very 
glad about that.
    But, Mr. Chairman, I cannot help but wonder what we have 
been reading about and are going to hear about today. Is it 
really medical research, or have we crossed over into that 
gray, shadowy land where we create wonderful-sounding excuses 
to rationalize using others for our own purposes?
    My heart is heavy and conflicted, because I have concluded 
that we are in real danger of crossing over into that gray land 
where no one is safe because anything we want to do can be 
rationalized.
    We are in danger of blurring a line that, in my opinion, 
needs to remain very bright.
    Despite a clear Congressional prohibition against a money-
making marketplace for aborted human tissue, it seems clear 
that just such a marketplace has developed. It seems clear that 
companies are selling aborted baby parts for a profit.
    Now, we cannot sit back and allow this to happen, and I 
think everybody on this committee agrees with that, for to do 
so would be to say to all the world that we have no problem 
with the notion that buying and selling of baby parts and 
organs is an acceptable form of commerce.
    What we are talking about here is selling another person's 
organs, parts of their body, a person who, by definition, 
cannot give their consent, even if they wanted to.
    Finally, Mr. Chairman, I need to ask a simple question. I 
thought there was a consensus in this country that at least we 
agreed that abortions should be rare. I mean, the President 
often says that abortions should be safe, legal, and rare. I do 
not agree with him on the legal part, but I would not mind 
seeing abortions a whole lot more rare in this country. But I 
do not see how abortions will be rare if we are allowing 
abortioners to make a profit by engaging in the gruesome 
business of harvesting the organs of the poor babies who are 
about to be aborted.
    Mr. Chairman, my heart is heavy because these are 
defenseless babies we are talking about, and yet, in some parts 
of the country and in some areas they are being treated like 
some animal being led off to the slaughter and their organs 
harvested. That is wrong, and we should do everything that is 
in our power--every Member of Congress--to not let this stand.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    Mr. Bilirakis. I thank the gentleman.
    Dr. Coburn for an opening statement.
    Mr. Coburn. Thank you, Mr. Chairman.
    I want to use one of the words that Mr. Dingell uses often, 
and that is ``peculiar.'' I think it is peculiar that the 
gentlelady from Colorado would raise an issue of whether or not 
this was reported, when the Congressional Record shows that she 
was involved in a colloquy about this very same issue on 
November 9th. I think she doth protest too much.
    I also think it is very important for us to understand the 
protections that were put into the law in 1993, and that not 
all the recommendations of the NIH panel were accepted. I want 
to give you three examples of how they weren't accepted and one 
of the reasons why we are in this problem.
    No. 1, the procedure could not be changed solely for the 
purpose of collecting fetal tissue when it comes to abortion. 
Well, that word ``solely'' totally eliminates and obviates that 
protection for women undergoing an abortion for fetal 
transplantation.
    No. 2 is the language was changed from ``fetal tissue'' to 
``fetal tissue for transplantation,'' which means fetal tissue 
used for other purposes, those prohibitions do not apply.
    Finally, there was a recommendation by the NIH consensus 
panel that the father of the child that was going to be used 
for fetal tissue research should also have the opportunity to 
give consent on his offspring, which that was ignored, as well.
    The third thing that I think is important as we talk to 
this, as Mr. Barrett pointed out, there is a Federal law that 
says not only is it wrong and against the law to market and 
sell this product at a profit, it is wrong to buy it. I want to 
tell you, there are hundreds of companies out there in this 
country, there are hundreds of universities that have received 
NIH money who have bought this product, based on what it looks 
like we see, at a price far in excess of the cost of collecting 
it, and under that definition, and what I have been told by 
legal counsel, is a violation of the very same law.
    So I think it is important that we look. There has to be a 
buyer that is willing to ignore the law for there to be a 
seller who is willing to ignore the law.
    Finally, I think that the way to solve this problem is for 
the members of this committee to support a bill I am going to 
introduce on Monday, and it is the Fetal Tissue Reporting Act. 
The best way to make sure the law is followed is to mandate 
that it is reported and what it is sold for and who it is 
shipped to so that we will all know, every citizen of this 
country will know that if fetal tissue is to be used in 
research, that it is done in a proper, legal, efficacious, and 
a manner in which there is good directed research.
    I would remind you that NIH had only approved fetal 
transplantational research for Parkinson's disease because they 
had felt, at this time when this was passed, that none of the 
other diseases yet met the standard to apply that.
    So I am not against the research. I have severe questions 
about destroying a life to save a life, even though I have been 
involved in doing that as a doctor who has performed abortions 
on women who were obviously going to die if they continued to 
carry their pregnancy. That decision, each and every time I 
made it, I questioned whether or not it was the right decision 
as I eliminated the life that was growing inside of that woman.
    So I do not want this to be about abortion. I do not want 
it to even be about fetal research. I think we have to make 
sure that this is not happening.
    I am worried that we know of two instances, it would seem, 
where people are violating the law. I think it is implicit upon 
us, as the committee that has jurisdiction over this, to make 
sure no one else is and not to just say, ``Oh, this is 
happening.'' So I would agree with Mr. Barrett and my friend 
from Ohio that I believe the Justice Department ought to be 
before this committee. I believe the FBI ought to be before 
this committee. And I believe the companies who bought this 
tissue ought to be before this committee.
    The point that Mr. Deal made that, in fact, if this was 
higher-priced material, why were they buying it? And did they 
not have knowledge that this was higher-priced material?
    So there would seem to me to be more than one or two guilty 
parties, in terms of the violation of this law. I am hopeful 
that we can conduct the hearing in such a way that we stay on 
the issues at hand.
    I would yield back at this time.
    Mr. Bilirakis. I thank the gentleman.
    Ms. Cubin for an opening statement?
    Ms. Cubin. Thank you, Mr. Chairman.
    We are here to talk about the buying and selling of human 
tissue, fetal tissue--arms, legs, eyes, ears, and so on--which, 
in and of itself, is a very serious action. But if that is not 
enough, if that is not solemn enough, what about the 
possibility that people are profiting financially from the sale 
of these body parts, just as if they were any other commodity 
like oil or cows or potatoes? This is unconscionable to anyone.
    Whatever personal belief any of us have about this issue, I 
would hope that no one would underestimate the gravity of this 
hearing today. I think to suggest that to investigate these 
potential abuses is to sensationalize the issue is truly 
putting politics above policy, and I think the it is truly 
politics at its worst.
    This hearing needs to take place because the Department of 
Justice has not been paying attention. Laws governing fetal 
tissue declare that it is unlawful for any person to knowingly 
acquire, receive, or otherwise transfer any fetal tissue for 
valuable consideration. Well, at this time we do not know for 
sure that laws are being broken, but that is precisely why we 
are holding this hearing. We are hoping that the witnesses 
today can shed some light on the extent to which this 
profiteering may be occurring.
    We are all aware of terrible stories that have been in the 
media. The possibility that potentially harmful abortive 
procedures are being performed on women, with the primary 
purpose being to harness as much fetal tissue as possible; the 
notion that women are being advised to abort because of so-
called abnormalities, when what really is being sought is the 
fetal tissue, itself--if these abhorrent practices are going 
on, then I think we had better be prepared to roll up our 
sleeves and do what is necessary to bring it to an end. But 
where in the world, as I said before, has the Department of 
Justice been? Why did it take an expose by a TV network to get 
the attention of this Administration about these abuses?
    Because this is an area where there is such potential for 
abuse, that is another reason why the Department of Justice 
should have been watching all along.
    This is a very difficult issue to face. It is a difficult 
issue for all of us. But I implore my colleagues and I implore 
everyone involved in it not to politicize the issue. Find out 
what the facts are.
    This does not have to be the last hearing that we have. We 
do need to get more information. We do need to hear from the 
people who are using the tissue from the Department of Justice 
why they have not been coming forward.
    So, Mr. Chairman, I am glad you are having this hearing, 
and regret only that it took an investigative report by ABC to 
get attention brought to it, get the attention of the 
Administration.
    Mr. Bilirakis. I thank the gentlelady.
    Mr. Bryant, the gentleman from Tennessee, for an opening 
statement.
    Mr. Bryant. Thank you, Mr. Chairman.
    I have a written statement that I will submit for the 
record.
    Mr. Bilirakis. Without objection, the written statement of 
all members of the subcommittee are part of the record.
    Mr. Bryant. Thank you, Mr. Chairman.
    I do have just a few comments, and I will not use up all my 
time.
    I do want to thank you for this hearing. I want to thank 
especially, though, people like Congressman Tom Tancredo and 
Congressman Joe Pitts, who is here with us right now, 
Congressman Chris Smith, who have kind of forced this issue 
somewhat and I think have done excellent jobs in bringing this 
information out in this committee.
    Again, I thank you for holding this hearing. I think this 
hearing is good because it will, I believe, bring some 
sunlight, sunshine to this issue that apparently has been 
quietly working out there since this law was enacted some 10 
years ago. I think it is time that we had that kind of 
sunshine.
    I hope we do not find more as this story unfolds. I know 
someone said today from the other side that this bill opened a 
world of opportunities, and I think they were viewing it from 
the standpoint of wonderful opportunities for research and 
those kinds of things, but certainly any time you open 
something like this up you are going to have people out there 
who are going to be dishonest about this and take advantage of 
the situation. Clearly, I do not think there is any question 
about this. Clearly, we have got three examples before this 
committee today. I think that world of opportunity has to be 
explored more.
    Again, coming from a background of law enforcement, there 
is usually more out there, with the idea of where there is 
smoke there is fire.
    I had the same question so many of my colleagues have had, 
which is: where has law enforcement been? I know this Dr. 
Jones--and I use the term ``doctor'' very loosely--has 
addresses in Missouri and Illinois, I believe, and I see both 
of those States have State laws that would, I think, have some 
effect on this, as well as the Federal officials we have talked 
about today--the FBI. As my colleague from Ohio said, one of 
the witnesses attempted to call the FBI. Where is the Justice 
Department? Where has Janet Reno been on this issue?
    This is so much so that on this TV show last night the TV 
reporter made this astonishing revelation in that program. He 
said, ``We cannot find anyone in the Federal Government 
enforcing those laws, which is why tomorrow's hearing is such 
an important first step.''
    Anyone that would attempt to politicize this and talk about 
this is a pro life effort or this is a disguised agenda here I 
think misses the point here.
    When a national investigative show cannot find anybody in 
the Federal Government enforcing these laws, yes, it is time 
for Congress to have this hearing, and I commend our chairman 
for doing that.
    With that said, Mr. Chairman, I will yield back my time.
    Mr. Bilirakis. The gentleman's time has expired.
    I think that all opening statements now have been disposed 
of.
    Mr. Largent is not a member of this subcommittee, but he 
has submitted a statement. I appreciate your understanding, 
Steve.
    [Additional statements submitted for the record follow:]
Prepared Statement of Hon. Steve Largent, a Representative in Congress 
                       from the State of Oklahoma
    Mr. Chairman, thank you for your willingness to bring this issue 
before this subcommittee. I hope that this committee will continue its 
strong commitment to protecting the smallest, most defenseless, most 
innocent Americans.
    One of President Clinton's first acts as president was to lift the 
moratorium on federal funding of fetal tissue transplantation research. 
This act was later codified by Congress. While this legislation lifted 
the federal funding ban, it also purported to establish certain rules 
about the trafficking of baby body parts.
    We are here today to determine the extent to which these rules have 
been breached.
    As the Members of this committee are aware, one company even offers 
a menu, listing prices for body parts such as eyes, livers, brains, and 
even skin, and provides discounts under certain conditions.
    In discussing this issue, many supporters of the abortion lobby 
have claimed that baby body parts are not being sold and that this 
issue should not be examined.
    But, if it is not happening, they would have no reason to be 
concerned about an investigation. If the abortion-industrial complex is 
not profiteering by selling pieces of small humans, they have nothing 
to fear and should welcome the light of honest inquiry. As Shakespeare 
wrote in Hamlet, ``the lady doth protest too much.''
                                 ______
                                 
Prepared Statement of Hon. Vito Fossella, a Representative in Congress 
                       from the State of New York
    Today's hearing exposes the heinous, cruel and vile business of 
selling baby body parts for cash. What we have learned today leaves 
little doubt about the authenticity of this despicable practice. 
Congress has spoken forcefully on the matter of selling aborted baby 
parts before. I helped raise the issue last November, even as some 
questioned whether this practice was occurring. Today we have shined a 
bright light and exposed the corruption and greed of those who sell 
body parts as casually as a pair of sunglasses or pack of gum. I have 
seen with my own eyes documents advertising the sale of whatever part 
of a dead baby may be desired: $50 for ears, $150 for lungs and hearts 
and $325 for a spinal column. It even offered a ``40% discount for 
single eye . . . prices in effect through December 31, 1999.'' It is 
shocking to believe that people are profiting at the expense of human 
life.
                                 ______
                                 
Prepared Statement of Hon. Eliot L. Engel, a Representative in Congress 
                       from the State of New York
    Mr. Chairman, I want to first express outrage concerning the 
alleged sale of fetal tissue for profit. The law Congress passed in 
1993 to permit federal funding of fetal tissue transplantation research 
explicitly prohibits a person from knowingly acquiring, receiving, or 
transferring human fetal tissue for ``valuable consideration.'' The law 
is applicable regardless of whether or not the fetal tissue is used for 
research and regardless of whether the research is federally funded. 
Furthermore, the law specifically details that a woman seeking an 
abortion must not be coerced into having the procedure in order to 
obtain the fetal tissue for research. Also, the law mandates that the 
physician performing the abortion must make a statement that the 
timing, method, or procedure of the abortion was not altered in any way 
for the purposes of obtaining the tissue.
    While I am concerned with violations of this law, Congress enacted 
the measure because of the immense potential for finding cures or 
treatments to a variety of chronic and even deadly diseases. I would 
like to talk about some of these diseases and the need for continuing 
fetal tissue research.
    Fetal tissue research may hold the key to lifesaving treatments for 
diseases such as Alzheimer's, Parkinson's, diabetes, and AIDS. We have 
seen the debilitating affect that Parkinson's and Alzheimer's has had 
on so many people. Just think of how the lives of so many could have 
been changed if there were a cure for these terrible diseases. One of 
our most renowned statesmen, President Ronald Reagan, is suffering the 
late stages of Alzheimer's. Our entire country has felt the pain of 
this affliction as we watched a great man struggle with such a 
debilitating illness. What a different world we would be in if we were 
able to cure this terrible disease. Diabetes afflicts the young, the 
middle aged, and the old. Parents of children with diabetes know that a 
cure means that their child would no longer be burdened with daily 
insulin injections, frequent blood sugar tests, and a future filled 
with the possibility of early blindness, kidney failure, amputations, 
heart attack, or stroke. We owe it to those suffering to continue 
striving to reach a cure for the afflictions that ail them.
    Mr. Chairman, we must not confuse the issue before us today. Fetal 
tissue research must not be compromised because of those who seek to 
abuse the system. We have laws that need to be enforced, and we have 
research that needs to be done. Those in violation of the law must be 
prosecuted, and those conducting research must have access to the tools 
that allow them to combat the illnesses that afflict so many. I want to 
commend this Committee for its investigation into the wrongdoings of 
those seeking to profit from the need for fetal tissue research and 
reiterate the importance that this research be continued.
                                 ______
                                 
    Prepared Statement of Hon. John D. Dingell, a Representative in 
                  Congress from the State of Michigan
    Today, we will hear from several individuals who have been involved 
in the transfer of fetal tissue to the medical community. Based on what 
aired on the ABC News 20/20 story last night, there is credible 
information that at least one person may have profited illegally from 
the sale of fetal tissue. I want to express my personal dismay and 
outrage that anyone would seek to profit from fetal tissue needed for 
research, and thereby undermine that research. That is why I have 
joined my colleagues in referring this matter to the Department of 
Justice and the Federal Bureau of Investigation.
    I do note that most members of Congress, as well as the majority of 
the American public, firmly support fetal tissue research in light of 
its critical importance, including development of breakthrough medical 
treatments involving fetal tissue transplantation. Today, we will hear 
from several medical experts who will tell us that fetal tissue 
research shows great promise in treating very serious diseases such as 
Parkinson's, diabetes, Alzheimer's, and AIDS. So, I hope that we will 
all bear in mind the vital medical research that is at stake here.
    Finally, I urge that this matter be investigated in a manner that 
takes into account the credible threat of violence, including death, to 
fetal tissue researchers, abortion clinic personnel, bystanders, and 
others. These threats emanate from extremists who condone violent 
unlawful behavior as a means of advocating their opposition to elective 
abortions. This has been a matter of considerable discussion in the 
days leading up to this hearing, and I am pleased that the Chairman has 
taken steps to assure the safety of witnesses and other members of the 
public.

    Mr. Bilirakis. That being the case, I will ask all of the 
witnesses to come forward. As they do so, I would enter, with 
unanimous consent, into the record three letters, all of which, 
as I understand it, have been cleared with the minority--a 
January 31 letter from the committee to Dr. Miles Jones, a 
February 8 letter from the committee to Mr. Brent Bardsley, 
executive director of the Anatomic Gift Foundation, and a 
February 16 letter from the committee to Dr. Miles Jones.
    Without objection, those will be a part of the record.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T3102.003
    
    [GRAPHIC] [TIFF OMITTED] T3102.004
    
    [GRAPHIC] [TIFF OMITTED] T3102.005
    
    [GRAPHIC] [TIFF OMITTED] T3102.006
    
    [GRAPHIC] [TIFF OMITTED] T3102.007
    
    [GRAPHIC] [TIFF OMITTED] T3102.008
    
    [GRAPHIC] [TIFF OMITTED] T3102.009
    
    [GRAPHIC] [TIFF OMITTED] T3102.010
    
    [GRAPHIC] [TIFF OMITTED] T3102.011
    
    [GRAPHIC] [TIFF OMITTED] T3102.012
    
    [GRAPHIC] [TIFF OMITTED] T3102.013
    
    [GRAPHIC] [TIFF OMITTED] T3102.014
    
    Mr. Bilirakis. The witnesses are Dr. Miles Jones, Ms. Lynn 
Fredericks, Dr. Samuel L. Cohen, Dr. Hannah C. Kinney, Mr. Dean 
Alberty, Mr. James Bardsley, and Ms. Joan I. Samuelson.
    Is Dr. Jones in the room? Is he coming forward? Mr. 
Bardsley is not here. And the Chair would note that Dr. Jones 
is not here, nor is Mr. Bardsley.
    Chairman Bliley. Mr. Chairman?
    Mr. Bilirakis. The gentleman from Virginia? For what 
purpose does he seek recognition?
    Chairman Bliley. To offer a unanimous consent request, Mr. 
Chairman.
    Mr. Bilirakis. The gentleman will state his request.
    Chairman Bliley. Mr. Chairman, I ask unanimous consent 
that, pursuant to the authority granted by rule 5 of the rules 
of the Committee on Commerce, the subcommittee waive the 
requirements of rule 4(a)(2) regarding the notice requirements 
for subcommittee meetings and proceed immediately to a 
subcommittee meeting to consider a contempt resolution against 
Dr. Miles Jones.
    Mr. Bilirakis. Is there an objection to the request from 
the gentleman?
    [No response.]
    Mr. Bilirakis. There being no objection, the Chair notes 
the presence of a quorum.
    Without objection, the unanimous consent request is agreed 
to and this subcommittee hearing is recessed so that the 
subcommittee may meet to consider a contempt resolution against 
Dr. Miles Jones.
    The Chair again notes the presence of a quorum, and the 
subcommittee hearing stands in recess until the completion of 
the subcommittee hearing.
    [Whereupon, at 4:12 p.m., the subcommittee proceeded in 
Executive Session.]
    [Whereupon, at 4:21 p.m., the subcommittee returned to open 
session.]
    Ms. DeGette. Mr. Chairman?
    Mr. Bilirakis. The gentlelady from Colorado?
    Ms. DeGette. Thank you.
    I have a unanimous consent request. There is one letter we 
did not enter into the record, and it is a letter dated March 
9, 2000, from Robert Michaels to Chairman Bliley that I think 
would shed light, so I would ask unanimous consent----
    Mr. Bilirakis. Any objection to that?
    Mr. Cohen. Reserving the right to object.
    Mr. Bilirakis. The gentleman has reserved right to object.
    Mr. Cohen. I would just like to see it.
    Ms. DeGette. I believe everyone has a copy, Mr. Chairman.
    Mr. Bilirakis. Would the gentleman please take a look at it 
so we can get rolling?
    Mr. Cohen. I withdraw my reservation.
    Mr. Bilirakis. I appreciate that. The letter is entered and 
made a part of the record.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T3102.015
    
    [GRAPHIC] [TIFF OMITTED] T3102.016
    
    [GRAPHIC] [TIFF OMITTED] T3102.017
    
    [GRAPHIC] [TIFF OMITTED] T3102.018
    
    Mr. Bilirakis. Addressing the witnesses, you are aware, I 
think, that this subcommittee is holding an investigative 
hearing, and when doing so has had the practice of taking 
testimony under oath. Do you have any objection, any of you, to 
testifying under oath?
    [No response.]
    Mr. Bilirakis. The Chair then advises each of you that, 
under the rules of the House and the rules of the committee, 
you are entitled to be advised by counsel. Do any of you desire 
to be advised by counsel during your testimony today?
    [Witnesses respond in the negative.]
    Mr. Bilirakis. In that case, if you will please rise and 
raise your right hand, I will swear you in.
    [Witnesses sworn.]
    Mr. Bilirakis. Each of you is now under oath. Your written 
statement has been submitted, and it is a part of the record, 
and, of course, you can give your testimony as you wish, but I 
hope you would supplement and complement your written 
statement.
    Ordinarily, you are asked to take 5 minutes for your 
testimony, but I am going to extend that, use the prerogative 
of the Chair and give you 10 minutes to do so, each of you. 
Please stay within that period of time, though, if you would.
    Dr. Miles Jones, of course, is not here, and Mr. Bardsley 
is not here.
    Ms. Lynn Fredericks, please proceed.

 TESTIMONY OF LYNN FREDERICKS; DEAN ALBERTY; SAMUEL L. COHEN, 
PATHOLOGY/MICROBIOLOGY DEPARTMENT, UNIVERSITY OF NEBRASKA; JOAN 
I. SAMUELSON, PRESIDENT, PARKINSON'S ACTION NETWORK; AND HANNAH 
 C. KINNEY, DIVISION OF NEUROSCIENCE, JOHN F. ENDERS PEDIATRIC 
                     RESEARCH LABORATORIES

    Ms. Fredericks. My name is Lynn Fredericks, and I was 
formerly the manager of a facility from which Anatomic Gift 
Foundation and Opening Lines procured post-voluntary pregnancy 
termination fetal tissue.
    I went to work for the clinic in October 1997. Shortly 
thereafter, I started receiving very rude, inappropriate phone 
calls from staff of Anatomic Gift Foundation demanding that I 
meet with them. I will hereafter refer to them as AGF.
    Because of the nature of our interaction, I became 
suspicious in trying to ascertain what they were doing in the 
clinic and why they were treating me so badly.
    Their employee, Dean Alberty, told me about their operation 
and how the tissue was used in various research projects. I was 
fascinated by the research taking place using this tissue and 
started doing Internet research about the subject.
    The clinic was also experiencing serious financial 
difficulties at that time, so I momentarily explored the 
possibility of the clinic, itself, providing the tissue 
directly to researchers as a source of revenue.
    We rather quickly determined that would be inappropriate, 
and from the guidelines that I had read, for the clinic to 
engage in this practice.
    After studying these guidelines, I wanted to make sure that 
our agreement with AGF was appropriate. I requested a copy of 
any contracts between AGF and the clinic, and I was unable to 
find one in our files, and AGF did not provide one upon my 
request.
    Long-time clinic staff told me that AGF was to pay $600 per 
month plus $10 an hour. I reconstructed the previous months 
payments made by AGF to the clinic from clinic financial 
documents and produced a small spreadsheet, which I think you 
have all seen, in an attempt to figure out how this worked, how 
we were getting paid and where this money was coming from.
    The checks I saw that we received from AGF had no 
supporting documentation with them which would indicate how the 
amount was calculated.
    After I saw how widely the amounts varied, I became 
concerned and I expressed that to the CEO, who is now deceased. 
I was experiencing serious health problems that spring and was 
not able to exert the effort necessary to proceed further with 
my allegations at that time, and, because of the serious 
financial problems the clinic was having, which all management 
was focusing on trying to correct, the time I had to focus on 
this issue was limited.
    Because of the volatile nature of my interaction with AGF, 
the CEO was concerned that they might sue us if we terminated 
the agreement at that time. Meanwhile, some time that spring 
one of the physicians met Dr. Jones and said that he wanted to 
get into procuring fetal tissue for research--that's Dr. 
Jones--and that he was a pathologist with laboratory services 
who could also help us out with a problem we were having with 
getting our pathology analysis done for the various other 
laboratory tests the clinic performed, like pap smears and 
cryotherapies and other type biopsies.
    The AGF employee--who was not Dean--had left that spring 
and, to the best of my recollection, they didn't have an 
employee onsite for over a month.
    During the time that AGF did not have an employee onsite, 
we decided to bring Dr. Jones in, as we felt it was important 
to continue with the program, due to the important research 
being done with the tissue, and we were not satisfied with the 
agreement with AGF. We informed AGF of the decision to 
terminate the agreement, and entered into an agreement with Dr. 
Jones.
    Dr. Jones needed a technician who had the knowledge to 
procure the tissue, and I knew Dean Alberty had been unable to 
find a job, so I gave Dr. Jones Dean's phone number.
    Almost a month after we signed the agreement, to the best 
of my recollection, Dr. Jones came on premises. The agreement 
with Dr. Jones was a flat rent amount of $700 per month. Dr. 
Jones had considerably more space he used in the clinic than 
AGF had. The agreement also spelled out that he would charge us 
to provide pathology reports based on the current volumes of 
the laboratory tests we were ordering. The reference to changes 
in rates due to volume on the agreement applied only to 
laboratory tests.
    Dr. Jones was always pleasant in our interactions and 
responded to any of my concerns I might express to him.
    On September 15 or 16--I'm sorry I don't remember the exact 
date--one of the physicians and I were leaving late one 
afternoon for the day and we caught a former AGF employee 
removing items from the back door of the clinic. We instructed 
her to stop and leave immediately. She appeared to only have 
AGF's property in her possession, which she had packed up and 
stored in our storage area before she had left their employ. We 
did not call the police about this incident.
    In October, I received a letter from AGF's attorney which I 
felt was very threatening to me personally with legal action. I 
immediately turned the letter over to the CEO and to the clinic 
attorney. After they reviewed all of my documentation and 
interrogated me extensively, it was a clinic attorney opinion 
that we were not going to respond to the letter, as the 
agreement with them was in question.
    My relationship with the former CEO deteriorated 
dramatically after we received that October letter from AGF. I 
was terminated from the clinic in late November, 1998, for 
telling my staff of impending lay-offs. Several of the other 
vice presidents had informed their staff of the possible lay-
offs and advised me to do the same. I felt this was just an 
excuse to get rid of me, and it was really because of the AGF 
letter.
    Because of the nature of my interactions with AGF, I have 
been very careful to document all correspondence carefully that 
I had with them, and I was very dismayed to find significant 
items missing from my files when we reviewed the file upon 
receipt of the letter from their attorney.
    We were so concerned about the relationship between AGF and 
the clinic that the CEO reviewed many of the letters I sent to 
AGF prior to sending them. I made copies of the letters in my 
files to keep at home, just in case they ever did bring suit 
against me, after I received the October letter. That's the 
letters that I provided to you all, and that's why I have them.
    I want to thank you for this opportunity for allowing me to 
offer my recollection of the events surrounding this 
investigation, and I wanted to let everybody know I have not 
received any payment in exchange for my appearance here today 
and I paid my own travel expenses to be here.
    [The prepared statement of Lynn Fredericks follows:]
                 Prepared Statement of Lynn Fredericks
    My name is Lynn Fredericks, and I was formerly the manager of a 
facility from which Anatomical Gift Foundation and Opening Lines 
procured post voluntary pregnancy termination fetal tissue.
    I went to work for the clinic in October of 1997. Shortly 
thereafter I started receiving very rude, inappropriate phone calls 
from Anatomical Gift Foundation demanding that I meet with them. (I 
will hereafter refer to them as AGF) Because of the nature of our 
interaction, I became suspicious and started trying to ascertain what 
they were doing in the clinic and why they were treating me so badly. 
Their employee, Dean Alberty, told me about their operation and how the 
tissue was used in various research projects. I was fascinated by the 
research taking place using this tissue, and started reading about it 
on the internet. The clinic was also experiencing serious financial 
difficulties so I also explored the possibilities of the clinic itself 
providing the tissue directly to researchers as a source of revenue. We 
rather quickly determined that it would not be appropriate, from the 
guidelines I had read for the clinic to engage in this practice. After 
studying these guidelines, I wanted to make sure that our agreement 
with AGF was appropriate. I requested a copy of any contracts between 
AGF and the clinic, as I was unable to find one in our files, and AGF 
did not provide one. Long time clinic staff had told me that AGF was to 
pay $600 per month rent and $10 per hour. I reconstructed the previous 
months payments made by AGF to the clinic, from clinic financial 
documents and produced a small spreadsheet in an attempt to figure out 
how this worked. The checks I saw that we received from AGF had no 
supporting documentation with them, which would indicate how the amount 
was calculated. After I saw how widely the amounts varied, I became 
concerned, and expressed that to the CEO. (Who is now deceased.) I was 
experiencing some serious health problems that spring, and was not able 
to exert the effort necessary to proceed further with my allegations at 
that time. The clinic was also experiencing very severe financial 
problems, which all of management was focused on trying to correct, 
therefore, the time I had to focus on this issue was limited. Because 
of the volatile nature of my interaction with AGF, the CEO was 
concerned that they might sue us if we terminated the agreement at that 
time. Meanwhile, sometime that spring, one of the physicians met Dr. 
Jones and said that he wanted to get into procuring fetal tissue for 
researchers, and that he was a pathologist with a laboratory service 
who could also help out with a problem we were having with getting our 
pathology analysis done. The AGF employee left that spring, and to the 
best of my recollection they did not have an employee onsite for over a 
month before we terminated the arrangement. During that time, we 
decided to bring Dr. Jones in as we felt it was important to continue 
with the program due to the important research being done with the 
tissue and we were not satisfied with the agreement with AGF. We 
informed AGF of the decision to terminate the agreement and entered 
into an agreement with Dr. Jones. Dr Jones needed a technician who had 
the knowledge to procure the tissue, and I knew that Dean Alberty had 
been unable to find a job, so I gave Dr. Jones Dean's phone number. It 
was almost a month after we signed the agreement, to the best of my 
recollection, before Dr. Jones came on premises. The agreement with Dr. 
Jones was a flat rent amount of $700. The agreement also spelled out 
what he would charge us to provide pathology reports, based on the 
current volume of those test we were ordering. The reference to changes 
in rates due to volume on the agreement, apply only to the lab tests. 
Dr. Jones was always pleasant in our interactions, and responded to any 
concerns I might express to him. On September 15th or 16th, one of the 
physicians and I were leaving late one afternoon, and we caught the 
former AGF employee removing items from the back door of the clinic. We 
instructed her to stop and leave immediately. She appeared to only have 
in her possession AGF's property, which she had packed up and stored in 
our storage area before she left their employ. We did not call the 
police. In October I received a letter from AGF's attorneys, which I 
felt was threatening me personally with legal action. I immediately 
turned it over to the CEO and the clinic attorney. After they reviewed 
all my documentation and interrogated me extensively, it was the 
clinic's attorney's opinion that we not respond to the letter, as the 
arrangement with them was in question. My relationship with the CEO 
deteriorated dramatically after we received the October letter from 
AGF. I was then terminated from the clinic in late November 1998, for 
telling my staff of impending layoffs. Several of the other vice 
presidents had informed their staffs of the possible layoffs, and 
advised me to do the same. I felt this was just an excuse to get rid of 
me, and that it was really because of the AGF letter. Because of the 
nature of my interaction with AGF, I had been very careful to document 
all correspondence carefully, and was dismayed to find significant 
items missing from my files when we reviewed the file upon receipt of 
the letter from their attorney. We were so concerned about the 
relationship between AGF and the clinic that the CEO reviewed many of 
the letters I sent to AGF prior to my sending them. I made copies of 
the letters in my file to keep at home to in case they ever did bring 
suit against me after I received the October letter.
    Thank you for allowing me this opportunity to offer my recollection 
of the events surrounding this investigation. I have not received any 
payment in exchange for my appearance here today, and have even paid my 
own travel expenses to appear.

    Mr. Bilirakis. Thank you so much, Ms. Fredericks.
    Mr. Alberty, you are on, sir.

                    TESTIMONY OF DEAN ALBERTY

    Mr. Alberty. Can you hear me? Is this good?
    Mr. Bilirakis. Yes.
    Mr. Alberty. Okay.
    My name is Lawrence Dean Alberty, Jr. I started out in the 
medical field with the knowledge that medicine is a wonderful 
tool to help people expand their lives through the use of 
modern technology wonders.
    Upon taking the job as a fetal tissue procurement tech, I 
was under the impression that what I was going to do would make 
life better for Parkinson's patients, Alzheimer's, and cancer 
patients. Never was I led to believe that the tissue would be 
anything but helpful for those in need.
    What changed my mind was watching late-term abortions, 
seeing their eyes looking at me as I cut through their skull to 
extract their brain for Parkinson's and Alzheimer's patients, 
cutting open their chest cavity, only to see a beating heart 
moving ever so slowly until it stopped, all while I was drawing 
blood from their heart, or watching two twins in a metal pan 
covered with blood, moving and breathing, only to find myself 
in a place with no doors, no exits, thinking all the time, ``My 
God, what have I done to see this?''
    Night after night in my sleep, the twins always were there. 
Hearts were beating, the screams of the mothers as the babies 
were pulled out of their bodies.
    These dreams turned into nightmares of the ends of the 
world--nukes, apocalyptic nightmares would wake me in a cold 
sweat. I felt sick every day, never wanting to leave the 
comfort of my home.
    I would eventually leave with only one thought: how would 
God judge me? Will I make it to heaven, when the whole time I 
knew I was in hell?
    As my life was passing me by and my soul was being drained 
each and every day, I looked back to the doctors I once admired 
when I was 14 years old, who some day I wanted to be like. 
Those dreams are dead. The respect for myself was gone. How 
could the heroes of my life understand what I witnessed?
    For months I went on, day in and day out, with no one but 
family to tell what I had seen, but I never fully explained to 
them in details.
    The moment of truth is being tired every day and sick with 
myself, not able to express myself to anyone. I looked for 
redemption of my soul.
    Taking a chance 1 day, I called the FBI, with no help. I 
called a pro life group, never trusting them because I was led 
to believe that all pro life people were bad. I was led to 
believe that they would take your life in a moment or protest 
at your house. When the call finally reached a group, there was 
no hate, there was no death threats, but a soft voice with 
comfort.
    They were a group that supported my new direction, to show 
the world what I had been a witness to, and to help them 
understand, in my own eyes, what it felt like to be involved in 
this.
    I only want the American public to understand that I am not 
against research, I am not against the rights of a woman to 
choose which path they may take, but let the American people 
listen up and hear the truth. The truth is not evil, it's not 
hate, it is not punishing, and it's not a dark tunnel. The 
truth is pure, respectful, and a true bright light which all 
should not be afraid, for the truth shall set you free. So 
please do not use ``pro life,'' ``pro choice,'' but use the 
word ``truth.''
    I pray that the Democrats, the Republicans, and, yes, the 
Independents can work together, for it is the people like me 
and our society that pay your salaries. Please listen to your 
supporters back home. Put down your hatred for one another. You 
are bleeding they very soul of our country. The truth should be 
what you are after. Do not cover up the mistakes, but correct 
them before it is too late.
    Thank you all very much for listening.
    Mr. Bilirakis. Thank you, Mr. Alberty.
    Dr. Samuel Cohen is with the Pathology/Microbiology 
Department of the University of Nebraska Medical Center.
    Welcome, Doctor. Please proceed.

                  TESTIMONY OF SAMUEL L. COHEN

    Mr. Cohen. Thank you, Mr. Chairman and members of the 
subcommittee.
    I am Dr. Samuel Cohen. I am chairman of the Department of 
Pathology and Microbiology at the University of Nebraska 
Medical Center in Omaha, where I have been on the faculty for 
the past nearly 20 years. I am also a professor in the Eppley 
Institute for Research and Cancer at the medical school.
    My own research work is primarily in cancer, especially 
chemical carcinogenesis. However, I am here today to express my 
strong support for fetal tissue research, which is being 
actively pursued in my department, and the potential future 
benefits of this research for treating human disease.
    I speak today concerning the need to ensure the advancement 
of this critical medical research in an environment that 
respects the ethical and moral concerns of the American people. 
Fetal tissue is used in a variety of medical research studies 
and is vital to the biomedical research enterprise. Guidelines 
and laws governing the use of this tissue ensure its safe and 
ethical use. I believe that the great majority of those who use 
fetal tissue in the research are scrupulous in following the 
letter and spirit of the law, among other reasons, because they 
are aware of the great sensitivity around its use.
    Certainly, anyone in willful violation of the law should be 
prosecuted, as allowed by the law. The continuing challenge to 
Congress is to assure the public that new knowledge will not be 
misused, and that the ethics of work enabled by this miraculous 
line of research is carefully considered, while protecting the 
advancement of science.
    I am concerned that, in attempting to enforce the laws 
governing fetal tissue research and the distribution of such 
tissue, Congress may unnecessarily over-restrict fetal tissue 
research. This would be a grave mistake.
    In my home State of Nebraska, such an effort is underway, 
but, as many of our State legislators have come to understand 
the remarkable potential of this work, they have come to 
support it.
    Why do I and other researchers like me believe fetal tissue 
research is important and necessary? The study of fetal tissue 
has already led to major discoveries in human health and has 
the potential to continue to benefit mankind. For example, the 
vaccines for rubella and varicella were made from human cell-
line cultures. These vaccines have effectively eradicated a 
major source of child mortality and mental retardation in the 
United States.
    Research utilizing fetal cells was critical to the ultimate 
development of the polio vaccine, a scourge that is about to be 
eliminated from the face of the earth.
    Researchers use fetal tissue to investigate questions of 
normal fetal development, as you'll hear shortly. Fetal tissue 
has become a mainstay in the human genome project and in the 
revolutionary developments in molecular genetics that offer 
promise for the development of new therapies.
    Due to their capacity to rapidly divide, grow, and adapt to 
new environments, fetal cells hold unique promise for medical 
research into a variety of diseases and medical conditions. In 
particular, there is exciting potential to use fetal tissue to 
transplant into other humans to treat disease. There is hope 
that fetal tissue transplanted into patients with illnesses 
such as Parkinson's disease, diabetes, or heart disease may be 
effective in mitigating or even treating these diseases.
    Fetal cells elicit less of an immune response than adult 
cells and are, therefore, less susceptible to rejection to the 
human body. Fetal cells are not as developed as adult cells, 
and are, therefore, more able to accommodate to the donor. In 
experiments with fetal cell transplantation in Parkinson's 
patients, we are seeing great promise that such treatments will 
be effective.
    Research using fetal cells at the University of Nebraska 
Medical Center involves basic laboratory investigations into 
the development of a variety of neurodegenerative diseases such 
as Alzheimer's disease and AIDS dementia. Our hope is to better 
understand these disease processes, with the ultimate goal of 
developing new therapeutic interventions and even prevention 
strategies.
    Recently, some of my colleagues working in this area at the 
UNMC discovered a new gene which may be involved in the process 
of the development of Alzheimer's disease, and it has been 
named NEBR 1.
    This and other research projects using fetal cells will be 
essential to ultimately conquer many terrible diseases.
    Research provides the opportunity to develop new models 
that have the potential to ultimately substitute for fetal 
tissue for study of basic neuronal function. Only additional 
time and research will be able to determine if alternative 
models will be viable replacements for the use of fetal tissue 
as a source of cells for this research. Right now, we must use 
fetal cells.
    A cell line derived from an aborted fetus more than 30 
years ago is right now routinely used worldwide in clinical 
practice for viral cultures, particularly for viruses such as 
cytomegalo virus and herpes viruses.
    Fetal tissue studies play a vital role in many areas of 
biomedical research. It is critical that Congress protect the 
ability of scientists to use this valuable research as a means 
for studying human disease. We in the scientific community are 
aware of the ethical sensitivities that have been expressed 
regarding the use of fetal tissue, but surely obtaining cells 
from legally obtained abortions for potentially life-saving 
purposes is ethically permissible and, indeed, ethically 
necessary.
    I am confident that we can protect against abuses in the 
fetal tissue supply arena, while also protecting promising, 
life-saving research.
    Mr. Chairman, thank you for the opportunity to present my 
thoughts today. I would be happy to answer any questions.
    [The prepared statement of Samuel M. Cohen follows:]
  Prepared Statement of Samuel Cohen, University of Nebraska Medical 
                                 Center
    Mr. Chairman and members of the Subcommittee: I am Dr. Samuel 
Cohen. I am Chairman of the Department of Pathology and Microbiology at 
the University of Nebraska Medical Center in Omaha where I have been on 
the faculty for the past nearly 20 years. I am also a professor in the 
Eppley Institute for Research in Cancer at the Medical School. My own 
research work is in cancer, especially chemical carcinogenesis. 
However, I am here today to express my strong support for fetal tissue 
research, which is being actively pursued in my department, and the 
potential future benefits of this research for treating human disease.
    I speak today concerning the need to ensure the advancement of 
critical medical research while protecting the ethical and moral 
concerns of the American people. Fetal tissue is used in a variety of 
medical researchstudies and is vital to the biomedical research 
enterprise. Guidelines and laws governing the use of this tissue ensure 
its safe and ethical use. I believe that the great majority of those 
who use fetal tissue in their research are scrupulous in following the 
letter and spirit of the law, among other reasons because they are 
aware of the great sensitivity around its use. Certainly anyone in 
willful violation of the law should be prosecuted as allowed by law. 
The continuing challenge to Congress is to assure the public that new 
knowledge will not be misused and that the ethics of work enabled by 
this miraculous line of research is carefully considered while 
protecting the advancement of science.
    I am concerned that in attempting to enforce the laws governing 
fetal tissue research and the distribution of such tissue, Congress may 
unnecessarily over-restrict fetal tissue research. This would be a 
grave mistake. In my home state of Nebraska, such an effort is 
underway, but as our state legislators have come to understand the 
remarkable potential of this work, they have come to defend it.
    Why do I, and other researchers like me, believe fetal tissue 
research is important?

<bullet> The study of fetal tissue has already led to major discoveries 
        in human health and has the potential to continue to benefit 
        mankind. For example, the vaccines for rubella and varicella 
        were made from human cell-line cultures. These vaccines have 
        effectively eradicated a major source of child mortality and 
        mental retardation in the U.S. Research utilizing fetal cells 
        was critical to the ultimate development of the polio vaccine, 
        a scourge that is about to be eliminated from the face of the 
        earth.
<bullet> Researchers use fetal tissue to investigate questions of 
        normal fetal development.
<bullet> Fetal tissue has become a mainstay in the human genome project 
        and in the revolutionary developments in molecular genetics 
        that offer promise for the development of new therapies.
<bullet> Due to their capacity to rapidly divide, grow and adapt to new 
        environments, fetal cells hold unique promise for medical 
        research into a variety of diseases and medical conditions. In 
        particular, there is exciting potential to use fetal tissue to 
        transplant into other humans to treat disease. There is hope 
        that fetal tissue transplanted into patients with illnesses 
        such as Parkinson's, diabetes or heart disease may be effective 
        in mitigating or even treating these diseases. Fetal cells 
        elicit less of an immune response than adult cells and are 
        therefore less susceptible to rejection by the human body. 
        Fetal cells are not as developed as adult cells and are 
        therefore more able to accommodate to the donor. In experiments 
        with fetal cell transplantation in Parkinson's patients, we are 
        seeing great promise that such treatments will be effective.
<bullet> Research using fetal cells at UNMC involves basic laboratory 
        investigations into the development of a variety of 
        neurodegenerative diseases, such as Alzheimer's disease and 
        AIDS dementia. Our hope is to better understand these disease 
        processes, with the ultimate goal of developing new therapeutic 
        interventions and even prevention strategies.
<bullet> Research provides the opportunity to develop new models that 
        have the potential to ultimately substitute for fetal tissue 
        for study of basic neuronal function. Only additional time and 
        research will be able to determine if alternative models will 
        be viable replacements for the use of fetal tissue as a source 
        of cells for this research. Recently some of my colleagues 
        working in this area at the University of Nebraska Medical 
        Center discovered a new gene which may be involved in the 
        process of the development of Alzheimer's disease--NEBR 1. This 
        and other research projects using fetal cells will be essential 
        to ultimately conquer many terrible diseases.
<bullet> A cell line (MRC-5) derived from an aborted fetus is routinely 
        used worldwide in clinical practice for viral cultures.
    Fetal tissue studies play a vital role in many areas of biomedical 
research. It is critical that Congress protect the ability of 
scientists to use this valuable resource as a means for studying human 
disease. We in thescientific community are aware of the ethical 
sensitivities that have been expressed regarding the use of fetal 
tissue. But, surely, obtaining cells from legally obtained abortions 
for potentially life-saving purposes isethically permissible and indeed 
ethically necessary. I am confident that we can protect against abuses 
in the fetal tissue supply arena while also protecting promising life-
saving research.
    Mr. Chairman, thank you for the opportunity to present my thoughts 
today. I would be pleased to answer any questions.

    Mr. Bilirakis. Thank you so much, Dr. Cohen.
    Ms. Joan Samuelson is the president of the Parkinson's 
Action Network.
    Ms. Samuelson, please proceed.

                 TESTIMONY OF JOAN I. SAMUELSON

    Ms. Samuelson. Thank you, Chairman Bliley--excuse me, 
Chairman Bilirakis.
    Mr. Bilirakis. Starts with the same letter. That is 
probably the only similarity.
    Ms. Samuelson. It has been a long time.
    I am the president of the Parkinson's Action Network, which 
is a nationwide organization to educate the country and do 
advocacy in search of the swiftest possible effective therapies 
and cure of Parkinson's disease.
    My statement is submitted, and I will be pretty brief and 
make just a few comments, because I see us as--my community and 
I, who have had Parkinson's for 14 years, as bystanders in this 
discussion that is at issue today, in many respects, but I do 
think it's important that I was here to represent us, because, 
of course, this has an enormous impact on us.
    First of all, let me just say how gratified I am to hear 
from so very many members of this committee on both sides, and 
especially the leadership--Chairman Bilirakis and Chairman 
Bliley--to describe what this hearing is about and what it is 
not about. It is so very important that this issue not be 
confused for the American public and that it focus very 
precisely and aggressively on this apparent wrongdoing and not 
get into the issue of the merits and ethics of this important 
research, and I greatly appreciate that.
    This issue and the questions that were raised in the ``20/
20'' piece last night, which I saw and I found abhorrent, 
should be investigated swiftly and aggressively, and anyone who 
did any wrongdoing should be prosecuted and punished to the 
fullest extent of the law.
    The reason I say that, aside from just as a citizen I found 
it repellant, is that I feel that the real victims are the 
scientists and the patients like myself and the million people 
with Parkinson's disease.
    The scientists that I know--and I know many of them, 
because we've gotten to know Parkinson's researchers very well 
in watching what they're doing and watching their tremendous 
progress--they are true heroes. And I must say there are 
several avenues that are being looked at for Parkinson's 
disease to develop therapies and a cure, and they're all 
important, but fetal tissue transplantation research appears to 
be the first true rescue, and so this is terribly important.
    The research is showing--which Dr. Cohen referred to 
briefly--that it is quite likely that those implanted cells, 
when they can finally develop the remaining--get over the 
remaining hurdles and develop a full source of supply so they 
don't have to rely on aborted fetal tissue, when they solve 
those problems--and they believe absolutely that they will do 
so--this is going to be a therapy that will allow people like 
me to not look forward, as we do, to this future, which is to 
spend every day to the day of our death frozen stiff, unable to 
participate in society.
    Many of you served with Congressman Mo Udall and watched 
his decline. He retired reluctantly from the Congress at about 
the same time post-diagnosis that I am now, and I met him after 
he left the Congress for the first time and I watched his 
deterioration at the veteran's center.
    So I have to speak personally, because I appreciate exactly 
what he went through and have to convey that to you and convey 
the urgency of prosecuting these people, if they have done 
anything wrong, and then allowing the scientists to continue to 
work on their research, which is so essential to us.
    I must tell you something which I think probably all of you 
know. This controversy has slowed the research terribly. The 6-
year ban on support of fetal tissue transplantation research 
without question slowed the progress in developing that as a 
therapy for Parkinson's disease.
    This hearing is somewhat surreal, and I think that is, in 
part, why I misnamed you, Mr. Chairman, at the beginning. I 
felt a sense of surrealness from the first moment, because it 
happens that I first became involved 10 years ago when the 
question of lifting the ban on Federal support of the research 
was raised in this committee, and at that time, obviously, I 
was doing much better physically than I am now. Today is a good 
day for me, but I have to tell you that yesterday I spent 6 
hours in my hotel room when I needed to finish my testimony in 
what I call my ``tremor attacks,'' where I was stiff and shaky, 
and it was next to impossible to leave the room, much less 
really work and focus my attention on what I had to do to get 
my testimony done.
    Those are the moments when I know that, as much as I can be 
in denial, and as much as I cling to the hope and the strong 
belief that this therapy is going to be available for me, that 
there is a strong possibility it won't.
    If this apparent wrongdoing leads to another ban of the 
research being done by legitimate scientists, true heroes, it 
is most likely that I will be out of luck, and I have to tell 
you that, because it is essential that this investigation and 
then prosecution, if necessary, be swift and aggressive and 
focused.
    We have no time to waste. I'm sure that's true of people 
with many other disorders who also will benefit from this 
research.
    And so I thank you for your determination to focus and 
pursue this aggressively, and I beg you to do that.
    Thank you.
    [The prepared statement of Joan I. Samuelson follows:]
Prepared Statement of Joan I. Samuelson, President, Parkinson's Action 
                                Network
    The Parkinson's Action Network was created in 1991 to give voice to 
a community that has been largely invisible, and to increase funding 
for Parkinson's research in an effort to speed research, deliver 
breakthroughs and cure this dreadful disease.
    I want to express my profound concern about the potential impact of 
today's hearing on medical research. Research using fetal tissue has 
produced lifesaving results. Medical science has used fetal tissue for 
decades, producing such breakthroughs as the polio vaccine. I am 
concerned that today's hearing will have a chilling effect that will 
slow, if not stop, vital medical research.
    I worry that the real impact of today's hearing will be to deter 
medical research using fetal tissue --research that can increase our 
understanding, improve treatments and help identify cures for diseases 
such as Parkinson's, Alzheimer's, cancer, HIV, diabetes, SIDS, and 
other life threatening and disabling diseases.
    Why should I care? I care because research--and in particular, 
research that uses tissue from elective abortions-- is my best hope for 
the future. I have Parkinson's disease and, at 15 years post-diagnosis, 
time is running out for me. When I wake up in the morning, I must wait 
an hour or more for my medication to work. Until it does--if it does--I 
am unable to get out of bed, get dressed, or do any of the myriad 
things required to allow me to be an active, productive, and 
independent citizen. Some days it takes hours. Some day--perhaps very 
soon--it will not work at all.
    I know I've already given up so much already--my law practice, 
running, hiking, and dreams too difficult to talk about. I know what 
waits for me if medical science doesn't find a cure--the same slow 
death that robbed your colleague Mo Udall of his life.
    Let me be clear. If laws are being violated, then the full weight 
of the law should be brought to bear on those individuals or companies. 
But the history suggests that effective safeguards are in place and 
working.
    In lifting the ban on fetal tissue transplantation research in 
1993, Congress adopted stringent safeguards to separate a woman's 
decision to have an abortion from the decision to donate the resulting 
tissue for medical research. This was done to protect against any 
potential inducement of women to have abortions. The law also 
established safeguards governing the sale of fetal tissue, and the 
solicitation or acceptance of fetal tissue for use in transplantation.
    The NIH Revitalization Act of 1993 (42 U.S.C. Sec. Sec. 289g-1 and 
289g-2) (hereafter known as ``the Act'') states clearly that it is:
        ``unlawful for a person to ``knowingly acquire, receive, or 
        otherwise transfer any human fetal tissue for valuable 
        consideration if the transfer affects interstate commerce.''
    The Act also prohibits a person from soliciting or accepting a 
donation of fetal tissue for transplantation under certain 
circumstances--specifically, it is prohibited if a person who solicits 
or acquires the tissue pays ``valuable consideration'' for the costs 
associated with the abortion.
    Violation of the Act is a federal crime, punishable by fines, 
imprisonment up to 10 years, or both. The law does permit reimbursement 
for ``reasonable payments associated with the transportation, 
implantation, processing, preservation, quality control, or storage of 
human fetal tissue.''
    As a way to ensure oversight, the Act also required the General 
Accounting Office (GAO) to carry out a review of the research on fetal 
tissue transplantation conducted or supported by NIH to ``(1) determine 
compliance with informed consent and other documentation and (2) report 
on any violations occurring in the acquisition of human fetal tissue 
for use in transplantation.''
    In 1997, the GAO reported to this Committee that ``the requirements 
of the act were being complied with.'' The GAO found that the ongoing 
fetal tissue transplantation research projects met the eight 
requirements in the Act, including informed consent of the donor, 
requiring statements from the attending physician and from the 
principal researcher, informed consent of the recipient, availability 
of statements for audit, compliance with state law, annual HHS review, 
and tissue purchase and donation restrictions.
    With regard to the sale of human tissue, the report concluded 
unequivocally that ``there have been no reported violations in the 
acquisition of human fetal tissue for use in transplantation,''
    But I worry that the discussion of unproven allegations that have 
not been properly investigated will imperil one of my best hopes for a 
cure. In the case of Parkinson's, fetal tissue transplantation research 
is beginning to show positive results and scientists are confident an 
effective treatment using transplanted cells will emerge.
    I strongly support the safeguards in the Act that prohibit payments 
associated with the receipt of fetal tissue from elective abortion 
except for reasonable expenses occasioned by the transportation, 
implantation, processing, preservation, quality control, or storage of 
the tissue.
    If the laws governing fetal tissue research are being violated, the 
individuals or companies involved should and must be properly 
investigated and charged.
    Cell implantation is one of the most promising approaches to brain 
repair for people like me who have Parkinson's disease. Early results 
from trials of tissue transplantation have shown this to be a 
therapeutic strategy with great promise. Two NIH-funded, placebo-
controlled, surgical trials on fetal tissue transplants in patients 
with advanced Parkinson's are now underway. One of these studies has 
completed its double-blind phase, and results will be submitted for 
publication soon. The other should be completed in a year. More 
research in this area, not less, needs to be done.
    Congress has already debated and decided--overwhelmingly--to allow 
the use of fetal tissue for transplantation and medical research. Each 
time it has done so with a greater and greater majority of members--
voting to lift the ban on fetal tissue transplantation research and 
establish clear safeguards for the use of fetal tissue for research in 
1991, 1992, and in 1993 when the Congress finally adopted the 
provisions. In 1997, the Senate successfully defeated another effort to 
reimpose a ban on fetal tissue transplantation.
    I think it is important to remember what the debate was really 
about. It was not a debate to settle the issue of abortion. What 
Congress had to decide was whether it was acceptable public policy to 
use tissue obtained from legal abortion that would otherwise be 
discarded to achieve significant medical goals. That is exactly what 
the 102nd and the 103rd Congress decided. Members like Majority Leader 
Bob Dole put it most memorably: supporting fetal tissue transplantation 
research was the ``true `pro-life' position.''
    It is the responsibility of this Subcommittee to carry out the will 
of Congress which has repeatedly demonstrated its support for fetal 
tissue research. The legislative history is clear on this point. 
Congress supports the collection of fetal tissue under strict 
guidelines for medical research.
    I am here today to plead with you to be cautious about the use of 
inflammatory rhetoric that may confuse or distort the issues involved. 
The consequences could be devastating to the million of Americans who 
suffer with Parkinson's. Please do not deprive us of our hope for a 
healthy future.

    Mr. Bilirakis. Thank you, Ms. Samuelson.
    Dr. Hannah C. Kinney is with the Division of Neuroscience 
with John F. Enders Pediatric Research Laboratories, Boston, 
Massachusetts.
    Dr. Kinney, please proceed.

                  TESTIMONY OF HANNAH C. KINNEY

    Ms. Kinney. Thank you, Mr. Chairman.
    My name is Dr. Hannah Kinney. I am a pediatric neuro-
pathologist at the Children's Hospital in Boston and associate 
professor of neuropathology at Harvard Medical School. I am a 
committed investigator of diseases that affect human fetuses, 
premature babies, and infants. I am here today on behalf of the 
American Society for Cell Biology, which represents 10,000 
basic biomedical researchers.
    Thank you for this opportunity to testify in support of the 
use of human fetal tissue in research.
    For 10 years, I have used human fetal tissue in my research 
to help decipher disease mechanisms in various perinatal brain 
disorders. This research is both funded by the National 
Institutes of Health and approved by the Children's Hospital's 
Human Protection Committee. I and the researchers I work with 
strictly follow Federal guidelines and laws governing fetal 
tissue research.
    If there are those who are violating the law with regard to 
supplying fetal tissue, I support their prosecution, as 
provided by law. At the same time, I hope my testimony shows 
that human fetal tissue research conducted within Federal 
guidelines can benefit public health.
    The main focus of my research is the sudden infant death 
syndrome, or SIDS. I would like to use the story of SIDS brain 
research in my laboratory to illustrate the importance of human 
fetal tissue research.
    SIDS is a major public health problem. It is the leading 
cause of death of infants between 1 and 12 months of age in the 
United States today, with an incidence of nearly one out of 
nearly every thousand births.
    A seemingly healthy baby is found dead after sleep period, 
an almost inexplicable tragedy for parents and families, yet 
the autopsy reveals no answers.
    While 90 percent of SIDS deaths occur in the first 6 months 
after birth, the origins of SIDS are thought to begin in fetal 
life, and thus, the study of the fetal period becomes critical 
in determining the abnormal pathway that begins in the fetus 
and results in sudden death in the infant.
    Evidence that SIDS begins in fetal life includes the 
association of SIDS with maternal risk factors during 
pregnancy, such as anemia, cigarette smoking, late prenatal 
care, and short inter-pregnancy interval. All these factors 
suggest a suboptimal interuterine environment may contribute to 
the development of SIDS.
    In my laboratory, we are testing the hypothesis that SIDS 
is due to developmental abnormality in brain stem regions that 
control breathing and/or cardiac function during sleep.
    We have learned in our laboratory that, at least in a 
portion of SIDS victims, there are neurotransmitter 
deficiencies in regions of the brain stem related to breathing, 
blood pressure, and sensing carbon dioxide. Neurotransmitters 
are the chemical messengers that send signals between brain 
cells within--between nerve cells within the brain.
    We have also learned that some of these regions may share a 
common developmental origin in fetal life.
    Now we need to know how do these brain regions develop 
abnormality in SIDS victims--develop abnormally in SIDS 
victims. The answer is critical so that we can find ways to 
prevent these regions from developing abnormally and we can, 
therefore, prevent SIDS, and it is here that we turn to 
research in human fetal tissue.
    We have now studied in human fetal tissue, one, how 
different regions of the brain stem that we think are involved 
in SIDS are inter-connected with one another in a network to 
transmit information; two, the time table over which synapses, 
the site of communication between nerve cells, form in fetal 
life; three, the time table over which different 
neurotransmitter systems develop in fetal brain stems related 
to networks at risk in SIDS; and, four, where the relevant 
regions for SIDS originate in the fetal brain stem.
    These developmental studies are relevant not only to 
understanding how brain cell development may go awry in SIDS, 
but also to understanding multiple other brain disorders, such 
as cerebral palsy.
    Recently, we have seen a decline in the incidence of SIDS 
due to the back-to-sleep campaign with a reduction in SIDS 
deaths by 38 percent since 1994, the onset of the campaign in 
the United States. My research in SIDS brain stems and in 
relevant human fetal brain stem development was cited as a 
major contributing factor to the medical and scientific 
consensus that led to this campaign, as it provided solid 
biological evidence to support the theory that babies are safer 
sleeping on their back.
    The relevant human fetal research gave further insight into 
possible ways in which brain stem abnormalities could form 
during fetal development in future SIDS victims and provided 
further validity of the abnormality in SIDS victims.
    The SIDS story I have told you today illustrates how human 
fetal research can have an impact on public health policy and 
saving lives.
    As you delve into the issue of how fetal tissue is 
supplied, I urge you to proceed in such a way that you do no 
harm to the vital biomedical research that is enabled by this 
precious tissue.
    Thank you for inviting my testimony. I will be glad to 
answer questions. Thank you.
    [The prepared statement of Hannah C. Kinney follows:]
Prepared Statement of Hannah C. Kinney, Children's Hospital of Boston, 
           on Behalf of the American Society for Cell Biology
    My name is Dr. Hannah Kinney. I am a pediatric neuropathologist at 
the Children's Hospital in Boston, and an Associate Professor of 
Neuropathology, at the Harvard Medical School. I am a committed 
investigator of diseases that affect human fetuses, premature babies 
and infants. I am here today on behalf of the American Society for Cell 
Biology, which represents 10,000 basic biomedical researchers. Thank 
you for this opportunity to testify in support of the use of human 
fetal tissue in research.
    For 10 years I have used human fetal tissue in my research to help 
decipher disease mechanisms in various perinatal brain disorders. This 
research is both funded by the National Institutes of Health and 
approved by the Children's Hospital Human Protection Committee. I, and 
the researchers I work with strictly follow federal guidelines and laws 
governing fetal tissue research. If there are those who are violating 
the law with regard to supplying fetal tissue, I support their 
prosecution as provided by law. At the same time, I hope my testimony 
shows that human fetal tissue research conducted within federal 
guidelines can benefit public health.
    The main focus of my research is Sudden Infant Death Syndrome, or 
SIDS. I would like to use the story of SIDS brain research in my 
laboratory to illustrate the importance of human fetal tissue research.
    SIDS is a major public health problem; it is the leading cause of 
death of infants between one and twelve months of age in the United 
States today, with an incidence of nearly one out of every 1000 births. 
A seemingly healthy baby is found dead after a period of sleep, an 
almost unspeakable tragedy for parents and families. Yet the autopsy 
reveals no answers. While 90% of SIDS deaths occur in the first six 
months after birth, the origins of SIDS are thought to begin in fetal 
life, and thus the study of the fetal period becomes critical to 
determining the abnormal pathway that begins in the fetus and results 
in sudden death after birth. Evidence that SIDS begins in fetal life 
includes the association of SIDS with maternal risk factors during 
pregnancy, such as anemia, cigarette smoking, late prenatal care, and 
short interpregnancy interval. All these factors suggest a suboptimal 
intrauterine environment may contribute to the development of SIDS.
    In my laboratory, we are testing the hypothesis that SIDS, or a 
subset of SIDS, is due to a developmental abnormality in brainstem 
regions that control breathing and/or cardiac function during sleep. We 
have learned that in at least a portion of SIDS victims, there are 
neurotransmitter deficiencies in regions of the brainstem related to 
breathing, blood pressure control, and sensing carbon dioxide. 
Neurotransmitters are the chemical messengers that send signals between 
nerve cells within the brain. We also learned that some of these 
regions may share a common developmental origin in fetal life.
    Now we need to know: How do these brain regions develop abnormally 
in SIDS victims? The answer is critical so that we can find ways to 
prevent these regions from developing abnormally, and we can therefore 
prevent SIDS. And it is here that we turn to research in human fetal 
tissue. We have now studied in human fetal tissue: 1) how different 
regions of the brainstem that we think are involved in SIDS are 
interconnected with one another in a network to transmit information; 
2) the time-table over which synapses, the site of communication 
between nerve cells, form in fetal life; 3) the time-table over which 
different neurotransmitter systems develop in fetal brainstems related 
to networks at risk in SIDS; and 4) where the relevant regions for SIDS 
originate in the fetal brainstem. These developmental studies are 
relevant not only to understanding how brainstem development may go 
awry in SIDS, but also to understanding multiple other fetal brain 
disorders, such as cerebral palsy.
    Recently we have seen a decline in the incidence of SIDS due to the 
Back to Sleep campaign, with a reduction in infant deaths by 38% since 
1994, the onset of the campaign in the United States. My research in 
SIDS brainstems and relevant human fetal brainstem development was 
cited as a major contributing factor to the medical and scientific 
consensus that led to this campaign as it provided solid biologic 
evidence to support the theory that babies are safer sleeping on their 
back. The relevant human fetal research gave further insight into 
possible ways in which brainstem abnormalities could form during fetal 
development in future SIDS victims, and provided further validity of 
the abnormality in SIDS victims. The SIDS story I have told you today 
illustrates how human fetal research can have an impact on public 
health policy and saving lives.
    As you delve into the issue of how fetal tissue is supplied, I urge 
you to proceed in such a way that you do not harm the vital biomedical 
research that is enabled by this precious tissue.
    Thank you for inviting my testimony. I will be glad to answer 
questions.

    Mr. Bilirakis. Thank you, Dr. Kinney.
    I will start the questioning. The rules provide for 5 
minutes of inquiries on the part of the members of this 
subcommittee, and we are going to follow that rule. After we 
have gone through once, I am amenable to a second round. I 
think it is probably very significant that we do that, because 
5 minutes goes by pretty fast. But I would ask the members to 
please try to adhere to that 5-minute rule.
    Dr. Cohen, Ms. Samuelson, Dr. Kinney, you have basically 
focused all of your comments on research, and we cannot 
belittle that. There is no question about it, and we appreciate 
those comments.
    I might add, Ms. Samuelson, that you are right. There is no 
question that what has been happening here, whether it be just 
a single instance, which I think all of us doubt, or more, will 
hurt research. But I would like to suggest that, along with the 
research, that the unborn little babies are also victims, and I 
think you would agree with that.
    Ms. Samuelson, I also am not sure whether you are aware of 
it. I know you are from California, but my youngest brother 
died with Parkinson's, so I have lived with it, too, and I have 
seen what it can do. I guess he lived for the cure, and he was 
convinced that fetal tissue was very significant in that cure.
    But I would ask you, do you any of you have any knowledge 
about whether fetal tissue is being bought and sold in 
violation of the law? Because, you know, that is the focus--not 
to belittle your remarks. Please do not take it that way, but 
the focus of this hearing is whether it is being bought and 
sold in violation of Federal law.
    In addition to what you have shared with us, you're in a 
position to give us your opinions in that regard.
    Dr. Cohen?
    Mr. Cohen. Certainly, with regard to the experience at 
Nebraska, we do not pay for any of the tissue that we obtained. 
Also, I can only speak for those that I have spoken with 
directly that are involved with such research at other 
institutions, and I'm not aware of any examples where they are 
buying tissue, or, if they are, they are paying a minimal 
processing fee. So I'm not aware of any examples such as have 
been talked about today.
    Mr. Bilirakis. Did you see the ``20/20'' report last night?
    Mr. Cohen. Yes, I did.
    Mr. Bilirakis. Were you shocked?
    Mr. Cohen. Yes.
    Mr. Bilirakis. Was that something that you----
    Mr. Cohen. I would not support that and I can't imagine any 
scientist supporting that kind of behavior.
    Mr. Bilirakis. But you haven't experienced it or know of 
any other scientists or researchers who----
    Mr. Cohen. No.
    Mr. Bilirakis. [continuing] have talked about it or 
experienced it?
    Mr. Cohen. Not at all.
    Mr. Bilirakis. Ms. Samuelson?
    Ms. Samuelson. Obviously, I'm not a scientist, and so my 
understanding is, necessarily, second-hand, but--and I'm glad 
I'm under oath, frankly.
    I spend a lot of time talking to scientists, and I have 
never heard of anything that sounded like anything that would 
ever have violated any of the restrictions of any of the laws, 
and I can't imagine that going on among the scientists that I 
have had any acquaintance with.
    Mr. Bilirakis. So you saw the ``20/20''----
    Ms. Samuelson. Yes.
    Mr. Bilirakis. [continuing] piece last night. But you don't 
believe it?
    Ms. Samuelson. I can't imagine the scientists that I have 
come to know engaging in anything like that. It seems light 
years away from anything that is--that they would be able to 
imagine participating in. It seemed like it was just a totally 
different sort of person.
    The scientists I know would not do that.
    Mr. Bilirakis. Dr. Kinney?
    Ms. Kinney. I have no knowledge of any scientists that I am 
involved with that have ever participated in this kind of 
thing, never seen brochures for this kind of selling of tissue.
    Mr. Bilirakis. You haven't seen any brochures that were 
featured in the report on ``20/20'' last night?
    Ms. Kinney. No.
    Mr. Bilirakis. You haven't seen them?
    Ms. Kinney. I saw the ``20/20'' expose. I thought it was 
despicable. And I've never seen anything of that nature or know 
of any colleagues who have been involved in this.
    Mr. Bilirakis. Now, in just the few minutes, few seconds 
that I have left, Mr. Alberty, any reaction to their comments 
regarding the fact that they're not aware that any of this has 
taken place?
    Mr. Alberty. No comments, sir.
    Mr. Bilirakis. No comments. But you reiterate that it does 
take place. You reiterate that there is a market out there, 
because you have seen it, and so somebody is paying for this 
tissue above and beyond what the law allows.
    Mr. Alberty. That is totally correct, sir.
    Mr. Bilirakis. Okay. My time has expired.
    Mr. Brown, for those of you who are not aware, he was in a 
pretty bad accident driving in the snow of Cleveland. For that 
to happen to me, it could be understandable, because I'm a 
Floridian, but for that to happen to him, being a Clevelander--
but, in any case, he has been out for quite a while and showing 
a whole lot of courage to be here today.
    Mr. Brown. Thanks, Mr. Chairman. Thank you.
    Mr. Bilirakis. Thank you. You are recognized sir.
    Mr. Brown. Thank you for all those condolences, both on my 
father and on my injury, from so many of you, and your kind 
words and thoughts. It meant an awful lot to my whole family. 
Thank you for that.
    I would like to yield my 5 minutes to Ms. DeGette, my 
friend.
    Mr. Bilirakis. Thank you very much.
    Mr. Brown. Thank you.
    Ms. DeGette. Thank you, Mr. Chairman. Thank you, Mr. Brown. 
It is good to have you back, really good.
    Let me ask a couple of questions.
    First of all, Ms. Fredericks, are you personally familiar 
with the buying or selling--the illegal buying or selling of 
fetal tissue?
    Ms. Fredericks. I have seen the price list. I don't know 
what--what do you mean by----
    Ms. DeGette. You mean you've seen the price list that was 
on ``20/20'' last night?
    Ms. Fredericks. Yes.
    Ms. DeGette. Are you familiar with anybody who has actually 
bought fetal tissue at those prices, or what the extent would 
be?
    Ms. Fredericks. No.
    Ms. DeGette. Okay. Thank you. I'm trying to figure out what 
the scope of this is, because, as I say, you know, if that is 
happening, we've got to put a stop to it. We've got to put a 
stop to it right now. I'm just trying to figure out the scope.
    Now, Ms. Fredericks, to also get this chronology a little 
clearer, as far as I have been told, Dr. Jones, who is not here 
today, he worked for the Anatomical Gift Foundation for a 
period of time; is that correct?
    Ms. Fredericks. Not to my knowledge. He is a separate 
business.
    Ms. DeGette. Okay. But before he started his own business, 
were you aware he worked for them?
    Ms. Fredericks. No.
    Ms. DeGette. Mr. Alberty, did you know that?
    Mr. Alberty. No, ma'am. I was not aware of that. As far as 
I know, he never did work for AGF.
    Ms. DeGette. They were--in your view, they were totally 
separate?
    Mr. Alberty. They were totally separate, ma'am.
    Ms. DeGette. I see. Okay.
    Mr. Alberty, I'd like to ask you just a couple of things.
    First of all, Mr. Chairman, I know we have the affidavit 
that Mr. Alberty signed on January 20, 2000. To complete the 
record, I'd ask unanimous consent to also put in for the record 
the videotape, the Life Dynamics videotape which this affidavit 
was a response to. I'd also like unanimous consent to put into 
the record Mr. Alberty's deposition of January 5, 2000. As I've 
said, we've already got----
    Mr. Bilirakis. Any objection to that?
    Mr. Bilbray. Reserving the right to object, Mr. Chairman.
    Mr. Bilirakis. The gentleman is recognized.
    Mr. Bilbray. Mr. Chairman, I don't believe the deposition 
has been made available fully to this side, and I would reserve 
the right to object until I had an opportunity to see the 
deposition.
    Ms. DeGette. Well, we----
    Mr. Bilirakis. Could we maybe circulate the affidavit and 
the deposition and possibly you may withhold your motion.
    Ms. DeGette. Sure. I intend to refer to them in the 
questions.
    Mr. Bilbray. Mr. Chairman, can I ask questions of the 
minority on this request?
    Mr. Bilirakis. No. I don't know----
    Ms. DeGette. On his own time, I'd be happy to----
    Mr. Bilbray. I'd be happy to do it on my own time.
    Mr. Bilirakis. I don't know that we should do that at this 
point in time. I should think you can refer to the affidavit, 
even though it is not a part of it.
    Ms. DeGette. But the affidavit has been accepted, Mr. 
Chairman.
    Mr. Bilirakis. That has been accepted. All right. It's the 
deposition that we're trying to get in?
    Ms. DeGette. That's correct. Yes.
    Mr. Bilbray. Mr. Chairman----
    Mr. Bilirakis. Have you withdrawn, then, your motion?
    Ms. DeGette. I'll reserve mine.
    Mr. Bilirakis. You'll reserve your motion. All right.
    Ms. DeGette. All right.
    Mr. Bilirakis. So you'll withdraw your reservations at this 
point?
    Ms. DeGette. Mr. Alberty, just a couple of things. Let me 
ask you the same thing I asked Ms. Fredericks. I know you've 
seen that price list. I know you have been involved with fetal 
tissue retrieval for some number of years. I understand you're 
not doing that now; is that right?
    Mr. Alberty. That is correct, ma'am.
    Ms. DeGette. And my question to you is: are you aware of 
people buying this fetal tissue for profit, or paying profit-
type prices for it?
    Mr. Alberty. Am I aware that people were buying the tissue?
    Ms. DeGette. Yes.
    Mr. Alberty. I'm not sure if this is in your question, but 
I was----
    Ms. DeGette. Well, please try to answer my question. I only 
have 5 minutes.
    Mr. Alberty. Okay. Yes. I'll try.
    Ms. DeGette. Thanks.
    Mr. Alberty. I was not--I do not know the people that were 
buying it, on a personal level. When I was a technician, 
researchers would call me and ask me what type of tissue was 
available for the day. They wouldn't go through the Bardsleys, 
because sometimes they couldn't be reached, so they would call 
me and I would talk to them and tell them what we had.
    Ms. DeGette. Did you discuss prices with them?
    Mr. Alberty. No, ma'am.
    Ms. DeGette. Thank you. Now, let me ask you a couple of 
questions. Do you have a copy of your affidavit there, sir?
    Mr. Alberty. No, ma'am, I sure do not.
    Ms. DeGette. Okay. If we can have that given to him--now, 
you are under oath today. You understand that.
    Mr. Alberty. Yes, ma'am.
    Ms. DeGette. And this affidavit, it was signed January 
20th. Was that your affidavit that you signed?
    Mr. Alberty. Yes, ma'am.
    Ms. DeGette. And you were under oath when you signed that 
affidavit; is that correct?
    Mr. Alberty. Yes, ma'am.
    Ms. DeGette. Okay. Thanks. Let me just ask you--and is 
everything in this affidavit truthful?
    Mr. Alberty. Can I have a moment to look over?
    Ms. DeGette. Sure.
    Mr. Chairman, I see my time has officially expired, even 
though some was taken up by the majority. I ask unanimous 
consent he be allowed to read this affidavit, then I'll ask him 
my questions on----
    Mr. Bilirakis. On your own time. All right. That being the 
case, we'll switch back over to this side, then.
    Mr. Upton, I believe?
    Mr. Upton. Thank you, Mr. Chairman.
    I don't know. I've not seen this affidavit until just now. 
I don't know that anybody on our side has seen it. I don't know 
if I'm taking your time, but I just see one statement, Mr. 
Alberty, that you write, ``I have no personal knowledge of any 
instances in which an employer of mine charged any fees or 
received compensation for retrieving fetal tissue in violation 
of any of these laws.'' Does that not contradict what you just 
said a few minutes ago?
    Mr. Alberty. I don't believe it does. What number are you 
reading?
    Mr. Upton. Point No. 4.
    Mr. Alberty. ``I am generally familiar with the State and 
Federal laws. I have no personal knowledge of any instance in 
which an employer of mine charged any fees or received 
compensation.''
    When I--I don't know the laws.
    Mr. Upton. But you called the FBI, though, right? Is that 
not right?
    Mr. Alberty. I called the FBI in because I could not call 
the local law enforcement because the local law enforcement at 
that time and the city works very closely with the clinic. And 
if you have the whole thing about what really happened in this 
situation, the reason why I called the FBI, it wasn't that I 
knew that there was any laws governing the for-sale or not-for-
sale of tissue. It dealt with a different matter.
    Mr. Upton. I had the sense when you testified, when you 
called the FBI that you were aware of the illegality of selling 
fetal tissue for profit, which is what this hearing was 
designed to focus on, and that you were called--I had the 
impression, maybe a mistaken impression, that you were, in 
essence, reporting the sale of tissue, as you did last night on 
``20/20,'' and you wanted some involvement. Is that not--was 
that not----
    Mr. Alberty. That wasn't the case, the reason why I called 
the FBI.
    Mr. Upton. Why--can you tell us why you called the FBI?
    Mr. Alberty. Chairman, may I speak freely?
    Mr. Bilirakis. He has the time. Yes, you can certainly.
    Mr. Alberty. The reason why I called the FBI was 1 day that 
I did see two twin fetuses at 24-plus gestational weeks born 
out alive and brought back to me in a metal pan. Upon the 
person removing the drape and showed me what it was, it very 
much disturbed me to the point where I did not know what to do.
    In my eyes, seeing two twin fetuses moving and kicking and 
breathing in a pan really upset me. I'm not a doctor. I've 
never, ever claimed to be a doctor, and I couldn't tell you if 
these twins had any genetic problems. All I saw was they were 
untouched, meaning there was no clamp marks on them, they 
weren't bleeding, they were two twins cuddling each other in 
front of me. And I walked out the door.
    Mr. Upton. I appreciate your answer.
    Mr. Alberty. And that's the reason why I contacted the FBI. 
I'm sorry if the things weren't too clear.
    Mr. Upton. So did you know at any point during your 
practice that, in fact, it was illegal to sell the tissue for 
profit?
    Mr. Alberty. No, sir. I was led to believe everything was 
on the up and up. If I would have known that there was anything 
illegal, I would not have worked this job. And, frankly, I wish 
to God I never would have.
    Mr. Upton. I understand.
    Dr. Cohen, you said a little bit earlier, in questioning 
from Chairman Bilirakis, that you are not aware of any other 
institution or scientist that purchased the material or paid a 
profit for this material; is that right?
    Mr. Cohen. Correct.
    Mr. Upton. I was--I know all of us that watched the report 
last night were deeply shocked and that's one of the reasons we 
voted unanimously to subpoena and hold in contempt Dr. Jones. 
Do you think that there is--as you deal with the University of 
Nebraska, that is, obviously, a public institution. Do you 
think that there is a difference, perhaps, in the scientific 
community between public and private institutions, in terms of 
the way that they might deal with this issue?
    Mr. Cohen. Not that I'm aware of. Obviously, I don't know 
all of the institutions, but, as an example, Dr. Kinney here is 
from a private institution.
    Mr. Upton. And, Dr. Kinney, you had the same answer as Dr. 
Cohen, that you were not aware?
    Ms. Kinney. That's right.
    Mr. Upton. I see my time is up.
    Mr. Bilirakis. I thank the gentleman.
    Mr. Waxman to inquire?
    Mr. Waxman. Thank you very much, Mr. Chairman.
    Nobody on this panel would support in any way the idea of 
profiting from the sale of fetal tissue. Let's just make that 
very, very clear. But three witnesses, or at least the two 
researchers, don't know of any evidence of it. The General 
Accounting Office reported to Congress in 1997 that there had 
been no reported violations in the acquisition of human fetal 
tissue for use in transplantation.
    So the evidence that we have is from Mr. Alberty and Dr. 
Jones. Dr. Jones is not here. If Dr. Jones' statements were 
correct, then I hope that he will be prosecuted.
    Mr. Alberty, you seem so disturbed at this whole process. 
Do you feel that we ought to stop fetal tissue transplant 
research completely? Do you think it is immoral?
    Mr. Alberty. I do not think it is immoral, but you need to 
understand that people who own companies like this need to be 
held accountable for it. You need to locate the consent. You 
need to control the consent. You need to control the 
surrounding environment that you are working in.
    Mr. Waxman. If we make sure that everybody is following the 
law, which means they cannot sell fetal tissue and they cannot 
have an abortion for the purpose of directing fetal tissue for 
a transplant, and if they do all the consents that are required 
by the law, do you have a moral objection? Do you feel it is 
improper?
    Mr. Alberty. I have a moral objection when you deliver 
late-term abortion fetuses out alive and you destroy them, 
outright alive, for the sole purpose of research.
    Mr. Waxman. Let me ask Dr. Cohen, because NIH has told us 
that the research involves early tissue, not late-term tissue, 
because that's the best tissue for transplantation. Is that 
your understanding?
    Mr. Cohen. That's my understanding also. In fact, the 
research at our institution is in first or second trimester 
abortions only, does not include anything beyond 20 weeks.
    Mr. Waxman. Mr. Alberty, you did a videotape, as I 
understand it, and you were paid by an anti-abortion 
organization. Is that true?
    Mr. Alberty. Yes.
    Mr. Waxman. And you stated in that videotape your belief 
that fetal research groups are engaging in illegal 
profiteering. But then in your sworn affidavit you stated, 
``I'm generally familiar with the State and Federal laws that 
limit the ability to charge fees for tissue procurement. I have 
no personal knowledge of any instances in which an employer of 
mine charged any fees or received compensation for retrieving 
fetal tissue in violation of any of these laws.'' That was your 
statement under oath.
    Mr. Alberty. Right.
    Mr. Waxman. But your statement on the tape was different. 
Your statement for which you received compensation to do this 
video was, ``Clinic doctors would alter the types of abortion 
procedures that they performed in order to deliver certain 
types of fetal tissue.'' But then, when you were under oath in 
your deposition and your sworn affadavit, you told a different 
story. You said, ``I know of no instances in which a doctor was 
asked or otherwise decided to perform a different type of 
abortion procedure solely for the purposes of obtaining fetal 
tissue.''
    On this videotape, you alleged you witnessed several 
incidents in which women changed their minds about whether to 
have an abortion and then were pressured by the clinic staff to 
go through with the abortion. Yet in your sworn affidavit you 
stated you only knew of one such incident in which a woman 
changed her mind, and with regard to that incident, you had 
``No knowledge of whether she had changed her mind after the 
point at which the procedure could not be reversed for medical 
or other reasons.''
    And then in the videotape you said that you were 
knowledgeable about how abortion procedures are performed, but 
in your sworn deposition you conceded you've never even seen an 
abortion being performed.
    These are a lot of contradictory statements.
    Mr. Alberty. Right.
    Mr. Waxman. You said in your opening----
    Mr. Alberty. I would go by my----
    Mr. Waxman. We want to go by truth. What is the truth?
    Mr. Alberty. I would go by my deposition.
    Mr. Waxman. So your statements under oath seem to 
contradict your statements that you gave for purposes of a 
propaganda piece in which you appeared and were paid for 
appearing by an anti-abortion organization. Is that an accurate 
statement?
    Mr. Alberty. That is an accurate statement. When I was 
under oath I told the truth. Anything I said on the video when 
I'm not under oath, that is a different story.
    Mr. Waxman. Thank you.
    Mr. Bilirakis. The gentleman's time has expired. I think we 
could probably get some clarification later.
    Mr. Greenwood to inquire?
    Mr. Greenwood. Thank you, Mr. Chairman. Let me try to 
follow up on that line of--I watched--my staff provided me with 
the videotape by Life Dynamics yesterday. I witnessed what I 
thought--appeared to be a woman in a green dress with long 
brown hair. Was that you?
    Mr. Alberty. I had the hair. I don't remember having a 
dress.
    Mr. Greenwood. I think I would remember.
    Mr. Alberty. I was a little under stress for the first time 
of going----
    Mr. Greenwood. So you're not sure whether you were wearing 
a dress or not during this tape?
    Mr. Alberty. No. But I did wear a wig.
    Mr. Greenwood. You did wear a wig.
    Mr. Alberty. I did wear a wig, and it was a red wig.
    Mr. Greenwood. Okay. In your affidavit you say, ``Life 
Dynamics may have changed some of my answers, and it is 
possible that Life Dynamics substituted another person in my 
place during portions of the videotape, as it has been 
circulated.''
    I don't--you say, ``I do not know if the videotape is 
reliable or correct.'' Why did you feel compelled to make that 
statement in your affidavit? Do you have reason to believe 
that, in fact, Life Dynamics changed your answers and 
substituted another person in your place? And do you have 
reason to believe that the videotape is not reliable or 
correct?
    Mr. Alberty. I have never seen the videotape until today. 
When I was sworn in to give my testimony, they only showed me 
basically 14 minutes of it, and they asked me, under oath, ``Is 
that you?'' And I said, ``Well, I don't know.'' And they said, 
``Well, can you prove that you don't know that it's not you?'' 
Basically, my response is that Life Dynamics was trying to keep 
me so well-hidden from everybody, my identity, that they may 
have gone back and put someone else in their spot and dubbed my 
voice. So I could not be 100 percent sure. Was that me? Was 
that my voice? But the thing I saw today was me.
    Mr. Greenwood. Was you?
    Mr. Alberty. Yes.
    Mr. Greenwood. There's a portion of the videotape that says 
that you witnessed 30 to 40 third trimester abortions a week; 
is that true or false?
    Mr. Alberty. Sir, that is based on--it's true, but that's 
not every single week. Weeks differ. I mean, that would be the 
high end. Low end could be 12.
    Mr. Greenwood. I'm sorry. I thought you just testified to 
the fact that you had not witnessed any abortions.
    Mr. Alberty. No. I'm going by what--the specimens come back 
into the room.
    Mr. Greenwood. The question I asked you is: in the portion 
of the videotape, is the portion of the videotape false that 
says that the doctors--excuse me, is the portion of the 
videotape false that says you witnessed 30 to 40 third 
trimester abortions a week.
    Mr. Alberty. Yes, sir. I'm sorry. I misunderstood.
    Mr. Greenwood. That's false?
    Mr. Alberty. Yes. That's false.
    Mr. Greenwood. Is the portion of the videotape false that 
says that doctors would either break the necks of a fetus of 
gestational age from 16 to 30 weeks or beat it with a pair of 
tongs? Is that true or false?
    Mr. Alberty. I did not witness that, so that would be 
false. I only heard of that.
    Mr. Greenwood. Did you say that on the videotape?
    Mr. Alberty. I believe so. Yes.
    Mr. Greenwood. How much were you paid to make this 
videotape?
    Mr. Alberty. I believe $400.
    Mr. Greenwood. Four hundred dollars?
    Mr. Alberty. I believe.
    Mr. Greenwood. Why did you take a payment to make the 
videotape?
    Mr. Alberty. I didn't know how long I would be around to 
even bring this to a committee or how it would turn out. When I 
went down there, that was the sole purpose. It was, like, you 
know, they would promise to disguise me. I was disguised. I 
would go down there, and payment----
    Mr. Greenwood. I'm asking you why--did you ask for $400? 
Did you ask for payment in order to make this video, or was it 
offered to you by the makers of the video? How did that happen?
    Mr. Alberty. It was offered.
    Mr. Greenwood. Okay. And why did you accept payment to make 
this video?
    Mr. Alberty. I needed the money.
    Mr. Greenwood. You needed the money.
    Is it false when the videotape alleges that doctors 
modified abortion procedures solely for the purpose of 
obtaining fetal tissue?
    Mr. Alberty. No, that is not false.
    Mr. Greenwood. That's a true statement?
    Mr. Alberty. That is a true statement.
    Mr. Greenwood. How do you know that?
    Mr. Alberty. How I know that that is true is that AGF 
supplied syringes to the clinic. You normally have a jar which 
is used, or, as in the ``20/20'' thing, where Ross Capps 
clarifies a syringe, is that the syringe is used in the more 
lengthy procedure to draw out the fetus at an early trimester, 
and that way you get more of an intact fetus. It is a better 
specimen for the researchers.
    Mr. Greenwood. You said in your statement that you were a 
fetal tissue procurement tech.
    Mr. Alberty. That's correct.
    Mr. Greenwood. Were you ever trained to do that?
    Mr. Alberty. I was trained by Ross Capps.
    Mr. Greenwood. And what did that training consist of? Did 
it consist of any training in the law?
    Mr. Alberty. No. Nothing in the law.
    Mr. Greenwood. What did the training consist of?
    Mr. Alberty. The training consisted of----
    Mr. Bilirakis. The gentleman may respond, and then the time 
is up.
    Mr. Alberty. I'm sorry.
    Mr. Bilirakis. Go ahead. No, please respond to that 
question.
    Mr. Alberty. The training consisted of on the job, when I 
was there, of them bringing back a huge plate--a placenta, 
blood clot--and showing me how to shift through all the stuff 
that was in there in order to find limbs, liver, pancreas, 
kidneys--what to look for, what the identification markers were 
in all that mess.
    Mr. Greenwood. Thank you.
    Mr. Bilirakis. Ms. Eshoo to inquire.
    Ms. Eshoo. Thank you, Mr. Chairman.
    How long did you spend making this tape?
    Mr. Alberty. I don't really realize the timeframe that it 
took to make the tape. From the time I got in the car to go to 
the airport to the time that we were there, I----
    Ms. Eshoo. Actual taping of the tape.
    Mr. Alberty. I'm not totally sure, ma'am.
    Ms. Eshoo. You're not totally sure.
    Mr. Alberty. I didn't look at my watch.
    Ms. Eshoo. Approximately? Do you know approximately?
    Mr. Alberty. Approximately----
    Ms. Eshoo. Was it 45 minutes? Was it 2 hours? What was it 
around? You don't know?
    Mr. Alberty. I'm sorry, ma'am. I don't.
    Ms. Eshoo. And the only amount of money that you earned was 
$400?
    Mr. Alberty. I believe that is correct, ma'am.
    Ms. Eshoo. And you are the Kelly on the tape?
    Mr. Alberty. That is correct, ma'am.
    Ms. Eshoo. Even though you don't remember what you wore?
    Mr. Alberty. That is correct.
    Ms. Eshoo. Does that tape that you listened to contain any 
false information?
    Mr. Alberty. That is correct.
    Ms. Eshoo. What is correct?
    Mr. Alberty. That the tape----
    Ms. Eshoo. It does?
    Mr. Alberty. That your other people discussed, it did 
contain false information.
    Ms. Eshoo. It does contain false information--and have you 
notified Life Dynamics of the inconsistencies?
    Mr. Alberty. No, ma'am, I did not.
    Ms. Eshoo. You have not. Are you willing to contact ``20/
20'' to tell them that there are inconsistencies in the story 
that tore across the country?
    Mr. Alberty. The ``20/20'' episode did not take anything 
from the Kelly interview, so there was no inconsistencies with 
that.
    Ms. Eshoo. What's your relationship with Life Dynamics 
today?
    Mr. Alberty. There is no relationship with Life Dynamics 
today. They were people that helped me through this process. I 
was never in this for the money, but the money was offered for 
compensation to help bring this story forward. I mean, it 
wasn't a great amount of money. I'm not rich. I'm so poor it's 
pathetic.
    Ms. Eshoo. Do you know anything about the organization? Did 
you research anything about the organization----
    Mr. Alberty. No, ma'am, I did not----
    Ms. Eshoo. [continuing] before accepting their invitation 
to tape for $400?
    Mr. Alberty. I did not research their corporation.
    Ms. Eshoo. Are you aware of anything about the organization 
whatsoever?
    Mr. Alberty. No, ma'am. All I know is they are pro life.
    Ms. Eshoo. May I ask you what your occupation is today?
    Mr. Alberty. My occupation today is I work for an 
organization that procures organ and tissue retrieval for 
transplants.
    Ms. Eshoo. Mr. Chairman, I don't think the committee is in 
order. I think that this is a very important point.
    The gentleman testified earlier that he was so repulsed by 
what he experienced, and I just asked him what his occupation 
is today.
    Would you restate that, please?
    Mr. Alberty. My occupation today is I work for a tissue 
transplant service. That is not fetal tissue. It is adult 
tissue. If you died and you donated your organs for transplant, 
we----
    Ms. Eshoo. How long did you work in the setting that you 
have spoken of previous to this position?
    Mr. Alberty. The fetal tissue?
    Ms. Eshoo. Yes. How many years?
    Mr. Alberty. I would guess probably about 3 years.
    Ms. Eshoo. Three years?
    Mr. Alberty. I'm guessing.
    Ms. Eshoo. I thought there was one that said from 1995 to 
1999.
    Mr. Alberty. That is not a total consistency, like, where I 
worked.
    Ms. Eshoo. Do you have, Mr. Alberty, any knowledge or 
recollection of a check made out to you, Dean Alberty, for 
$1,250 from Life Dynamics dated January 11, 2000? Do you have 
any recollection of that?
    Mr. Alberty. Ma'am, there were checks that were written out 
to me. If there is a check, then yes, I do recollect that, but 
I don't----
    Ms. Eshoo. You do recollect it?
    Mr. Alberty. I don't know exactly what all the checks right 
now were for.
    Ms. Eshoo. Mr. Alberty, you're under oath.
    Mr. Alberty. Yes, ma'am. I realize that.
    Ms. Eshoo. All right. Now, you said under oath that you had 
received $400 to do this so-called ``Kelly tape.'' There is a 
check here from December 23, 1999, from Life Dynamics, 
Incorporated, in the amount of $600 made out to you, another 
one, as I said, January 11 of this year. Do you have any 
recollection, or you just get checks and you don't remember the 
amounts?
    Mr. Alberty. I don't remember the amounts, what the checks 
were for.
    Ms. Eshoo. Another check from Life Dynamics, Incorporated, 
for $300, November 8, 1999. Do you have any recollection of 
that?
    Mr. Alberty. I don't have a recollection of what the check 
was for.
    Ms. Eshoo. Do you have any recollection of a check dated 
December 15, 1999, for $500 made out to Dean Alberty?
    Mr. Alberty. I do not. I mean, I know that these checks 
were made to me----
    Ms. Eshoo. Do you have any recollection of a check from 
December 16 for $500 from the same organization made out to 
you?
    Mr. Alberty. No, ma'am, I do not have recollection.
    Ms. Eshoo. May 3, $2,607.83 from Life Dynamics, 
Incorporated, made out to you. It seems to me that you've been 
doing an awful lot of work for Life Dynamics.
    Another check from Life Dynamics for $250, July 28, 1999, 
made out to you. Do you recollect that check?
    Mr. Alberty. I do not.
    Ms. Eshoo. Well----
    Mr. Alberty. I know all these checks--if you have them 
there----
    Ms. Eshoo. These are all copies.
    Mr. Alberty. Right. I believe that you are right.
    Mr. Bilirakis. The gentlelady's time has expired. Are we at 
the point where maybe you can yield back, and we'll go back 
another round.
    Ms. Eshoo. Well, if my time has expired, I'll wait for----
    Mr. Bilirakis. All right. That being the case----
    Ms. Eshoo. What were these for?
    Just one more question, Mr. Chairman.
    What are all these checks for?
    Mr. Alberty. Those checks could be for numerous things.
    Ms. Eshoo. What have you done for----
    Mr. Bilirakis. Brief response, please.
    Mr. Alberty. Response?
    Mr. Bilirakis. Brief response. Yes.
    Mr. Alberty. The checks could be for numerous things. It 
could be either for me going to conventions, it could be for--
--
    Ms. Eshoo. Are you on their payroll?
    Mr. Alberty. You have the checks there. I was--I didn't 
have taxes taken out.
    Ms. Eshoo. I'm the Member of the Congress.
    Mr. Alberty. Right.
    Ms. Eshoo. And you're supposed to answer my questions.
    Mr. Alberty. Right. I'm sorry.
    Ms. Eshoo. So it's not the other way around.
    Mr. Alberty. I'm sorry.
    Ms. Eshoo. All right. You have no recollection why you 
received all of these checks?
    Mr. Alberty. For work that I did for them.
    Ms. Eshoo. Work that you have done for them?
    Mr. Bilirakis. The gentlelady's time has expired.
    Ms. Eshoo. Thank you.
    Mr. Bilirakis. Mr. Deal?
    Mr. Deal. Thank you, Mr. Chairman.
    I would, first of all, like to ask that the Opening Lines' 
fee schedule of services and two brochures, the advertisement 
in ``Science Magazine'' by Opening Lines, and the draft 
promotional material from Opening Lines be made a part of the 
record. I ask unanimous consent.
    Mr. Bilirakis. Is there objection?
    Ms. DeGette. I certainly want a complete record, and, 
therefore, I will not object.
    Mr. Bilirakis. That being the case, then so be it.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T3102.019
    
    [GRAPHIC] [TIFF OMITTED] T3102.020
    
    [GRAPHIC] [TIFF OMITTED] T3102.021
    
    [GRAPHIC] [TIFF OMITTED] T3102.022
    
    [GRAPHIC] [TIFF OMITTED] T3102.023
    
    [GRAPHIC] [TIFF OMITTED] T3102.024
    
    [GRAPHIC] [TIFF OMITTED] T3102.025
    
    [GRAPHIC] [TIFF OMITTED] T3102.026
    
    Mr. Deal. Thank you.
    Dr. Kinney and Dr. Cohen, have you had an opportunity to 
examine the fee schedules that were in this published material 
from Opening Lines?
    Mr. Cohen. I'm not aware of them.
    Ms. Kinney. No, I have not.
    Mr. Deal. Do either of you hold positions in your 
institutions that are in charge and responsible for procuring 
fetal tissue? Do either of you, in effect, have hands-on, 
personal responsibility for or knowledge of the procurement 
process?
    Mr. Cohen. I do not.
    Ms. Kinney. No.
    Mr. Deal. So when you answered before the questions about 
whether or not institutes or abortion clinics or others would 
pay for this material, you have no personal knowledge because 
you're not involved in that; is that correct?
    Mr. Cohen. I'm certainly familiar with the documentation 
from the university, and I've spoken with all of the 
individuals involved, including the investigators and those in 
administration.
    Mr. Deal. Okay. And you've spoken to them about what?
    Mr. Cohen. About the issue of the--whether anything has 
been paid to the clinic for these tissues. They've also made 
public statements about this, as well, those that are involved 
with us.
    Mr. Deal. Is anything being paid?
    Mr. Cohen. No.
    Mr. Deal. So all of the material that you get is donated 
material?
    Mr. Cohen. Yes.
    Mr. Deal. No fees, whatsoever?
    Mr. Cohen. Correct.
    Mr. Deal. How about that, Dr. Kinney?
    Ms. Kinney. That's the same in my situation. I mean, I'm a 
researcher that uses fetal research--I mean, fetal tissue, so I 
get the fetal tissue through the pathology department from 
tissues that come through the obstetrical department, and I do 
not pay for it, and it has been approved by the Human 
Protection Committee.
    Mr. Deal. Does your institution pay for it, though?
    Ms. Kinney. No, it does not.
    Mr. Deal. And it does not receive any from outside sources; 
is that correct?
    Ms. Kinney. That's my understanding. Yes, that's correct.
    Mr. Deal. Dr. Cohen, yours does receive from outside 
sources, but no payment is made; is that correct?
    Mr. Cohen. Correct.
    Ms. Kinney. And let me just make one clarification. I also 
get fetal tissue from the University of Washington, which has a 
fetal tissue source that's funded by the NICHD and has a fee 
for procurement, which is $100.
    Mr. Deal. A set fee in every instance?
    Ms. Kinney. A set fee in every instance.
    Mr. Deal. All right. So when we see a fee schedule that 
delineates different fees for different body parts, you are not 
familiar with that approach to the----
    Ms. Kinney. No.
    Mr. Deal. [continuing] collection of fetal tissue? Is that 
what you're saying?
    Ms. Kinney. Yes.
    Mr. Deal. Yes.
    Ms. Kinney. Not at all.
    Mr. Deal. Have you ever been aware that, within the 
research community, that these kind of fee schedules are being 
used by people providing fetal tissue?
    Ms. Kinney. No.
    Mr. Cohen. No. The only awareness that I have is situations 
like Dr. Kinney just spoke of with the University of 
Washington, where there is a set fee for processing and 
procurement. We don't happen to take advantage of that, but 
that's the only fee schedule that I've ever seen.
    Mr. Deal. So neither of you are familiar with any fetal 
tissue that is coming from abortion clinics? Is that what I 
understand?
    Ms. Kinney. That's right.
    Mr. Cohen. Not being paid for, at least.
    Ms. Kinney. Not being paid for in this way.
    Mr. Deal. So--well, are you aware if any are coming from 
abortion clinics?
    Mr. Cohen. Our tissue comes from an abortion clinic.
    Mr. Deal. Okay. Let me ask Mr. Alberty, you have been asked 
about this affidavit. As I understand, you were sued by your 
employer--what was the name of the employer?
    Mr. Alberty. Anatomic Gift Foundation.
    Mr. Deal. Yes. They sued you after you left their 
employment; is that correct?
    Mr. Alberty. Yes. Months after I left.
    Mr. Deal. They sued you for breach of contract, which I 
assume related to a contract of employment not to divulge 
information relating to your employment with them; is that 
correct?
    Mr. Alberty. That is correct, and the other part was that I 
would not operate my own business----
    Mr. Deal. In competition with them.
    Mr. Alberty. [continuing] in competition. We were doing 
umbilical cord and foreskins and they had found out, and plus 
they had leaked that information knowing that I was working 
with Life Dynamics, and that's when they put a lawsuit over on 
me.
    Mr. Deal. And the affidavit that has been introduced here 
and that you've been questioned about and the deposition that 
has been alluded to were all a product of the settlement of 
that civil action; is that correct?
    Mr. Alberty. That is correct, sir.
    Mr. Deal. And was this affidavit prepared by your attorney 
or by their attorney?
    Mr. Alberty. I believe it was put together by their 
attorney.
    Mr. Deal. Thank you.
    Mr. Alberty. The gentleman's time has expired.
    Mr. Stupak?
    Mr. Stupak. Thank you, Mr. Chairman.
    We're here, the issue being fetal tissue being bought and 
sold for profit in violation of Federal law, so I'd like to try 
to put my questions along those lines to the witnesses here.
    As a technician, Mr. Alberty, for Opening Lines or AGF, did 
you set prices?
    Mr. Alberty. Not for AGF. When I was with Dr. Miles Jones, 
we sat down for dinner and he asked me did I have any 
recollection of prices that AGF had, and I explained to him 
what I saw on a fax that came over to me, and I could not quote 
him honestly on the fax, so over dinner, over Mexican food, he 
set the prices.
    Mr. Stupak. Did he set the prices based upon what AGF had 
under----
    Mr. Alberty. No. He set the prices on his own standard. He 
said that----
    Mr. Stupak. Is it fair to say his prices were higher than 
AGF's?
    Mr. Alberty. I never saw AGF's. All I saw was that fax, and 
I couldn't actually tell you what all was on that fax.
    Mr. Stupak. All right. But you helped to set the price 
schedule for Opening Lines?
    Mr. Alberty. I helped Dr. Jones--make him understand how 
hard it is to achieve these tissues, and he set the prices.
    Mr. Stupak. Is it your understanding--is there a common fee 
charged throughout the industry for certain parts of fetal 
tissue or certain specimens of it?
    Mr. Alberty. I'm not sure.
    Mr. Stupak. Well, is there a fee for service, a schedule 
that is used throughout fetal tissue research? Do you have any 
idea?
    Mr. Alberty. I have no idea, sir.
    Mr. Stupak. Dr. Cohen, would you have any idea, or Dr. 
Kinney? Is there a set fee--$50, $100--depending on what we're 
talking about?
    Mr. Cohen. I'm not aware of these kinds of fee schedules, 
since we don't deal with them.
    Ms. Kinney. We don't either.
    Mr. Stupak. The reason why I'm asking, we had the part that 
was shown on ``20/20'' last night that had some very high 
prices, then we had some other documents here from AGF which 
has other prices. I guess I'm trying to establish what is the 
basis, what is the--if I can use the word, what's the going 
rate? If we establish a going rate, then it if someone is 
charging much more than there's assumed there is a profit. I 
mean, NIH gives, what, $20 million a year for this research. 
Someone has to have some kind of a price as to a basis of what 
we go from. Is that fair to say?
    Mr. Cohen. There should be a set price that is standard 
throughout the whole United States.
    Mr. Stupak. And no one knows what that set price is?
    Mr. Cohen. No. I mean, there should be. I don't think there 
is a set price.
    Mr. Stupak. Okay. All right. When did you work, exactly, at 
AGF? Do you know what timeframe?
    Mr. Alberty. No, I sure don't, sir. I don't have the 
exact----
    Mr. Stupak. Was it 1995, 1996, 1997?
    Mr. Alberty. Let me look right here. It says 1993 I worked 
for AGF.
    Mr. Stupak. Okay.
    Mr. Alberty. I started my employment with them.
    Mr. Stupak. How long did you work there?
    Mr. Alberty. Looks like 1995.
    Mr. Stupak. Two years?
    Mr. Alberty. Basically, yes.
    Mr. Stupak. And then you were out of the business, and then 
you went with Opening Lines?
    Mr. Alberty. I was gone for about 6 months.
    Mr. Stupak. Okay.
    Mr. Alberty. And that's when Dr. Miles--sorry.
    Mr. Stupak. Dr. Miles?
    Mr. Alberty. Dr. Miles Jones----
    Mr. Stupak. Right.
    Mr. Alberty. [continuing] met with a doctor on an airplane, 
and those two discussed the possibility of re-establishing 
the----
    Mr. Stupak. Did they hire you then after you were out for 
about 6 months, and you went to work for Opening Lines?
    Mr. Alberty. Right.
    Mr. Stupak. Okay.
    Mr. Alberty. He called me up on the phone, talked to me 
about it, said, ``Would you be willing to come back?'' Mr. 
Stupak. Okay.
    Mr. Alberty. And at that time I was basically unemployed.
    Mr. Stupak. This piece I think most of us saw last night on 
``20/20,'' where there was an individual who was supposedly a 
vendor talking to Dr. Jones, did you help set up that meeting?
    Mr. Alberty. The vendor?
    Mr. Stupak. Yes.
    Mr. Alberty. You mean like the investment people?
    Mr. Stupak. Right.
    Mr. Alberty. I did not help set up that meeting. I talked 
to Dr. Jones. Well, let me re-clarify. I'm sorry.
    Yes, I did. I told Dr. Jones there would be someone that 
would give him a call, would he accept the phone call. He said, 
``Why not?'' And then I backed out after that.
    Mr. Stupak. You weren't at that dinner or anything?
    Mr. Alberty. No, sir.
    Mr. Stupak. Okay.
    Mr. Alberty. I was totally out of the picture then.
    Mr. Stupak. All right. And this vendor that we saw last 
night, that was, obviously, investigators from ``20/20''?
    Mr. Alberty. I believe so.
    Mr. Stupak. You knew that they were going to call the 
doctor, you helped them sort of set this up, to get a hold of 
Dr. Jones?
    Mr. Alberty. I did not know when they were going to call 
him.
    Mr. Stupak. I know you didn't know exactly, but you were 
the go-between, you were the one to help set that up, if you 
will? Without your information, ``20/20'' never would have 
called Dr. Jones, right?
    Mr. Alberty. No. They were looking for him. They didn't 
have a way to contact him. They were going to do different 
routes, and they asked me, ``How can we get in contact with 
him?'' I said----
    Mr. Stupak. If they couldn't find Dr. Jones, how did they 
get a hold of you?
    Mr. Alberty. Right.
    Mr. Stupak. How did ``20/20'' get a hold of you, then, if 
they couldn't find Dr. Jones?
    Mr. Alberty. Because ``20/20'' did the story with me first.
    Mr. Stupak. All right.
    Mr. Alberty. And we sat down at Life Dynamics, and I talked 
to ``20/20''----
    Mr. Stupak. Sure.
    Mr. Alberty. [continuing] about the whole thing, about all 
the people that were involved, from----
    Mr. Stupak. And after you did that at Life Dynamics, then 
is it your understanding ``20/20'' tried to get a hold of Dr. 
Jones but could not, and asked you to maybe the intermediary 
here to get this set up?
    Mr. Alberty. That is correct, sir.
    Mr. Coburn [presiding]. The gentleman's time has expired.
    Mr. Stupak. Thank you.
    Mr. Coburn. The gentleman from North Carolina, Mr. Burr.
    Mr. Burr. Thank you, Mr. Chairman.
    Mr. Alberty, let me say at the beginning, the reason that 
you are included in this panel is because your participation in 
videotapes, your affidavits, even your deposition--and I will 
say that the deposition was shared with the majority at 9:30 
this morning, after weeks of trying to access that so that we 
could figure out the credibility of your story or which one was 
correct----
    Mr. Alberty. Right.
    Mr. Burr. I found there to be so many inconsistencies in 
your testimony between that and tapes and testimonies prior to 
this, whether they were under oath or not under oath, your 
credibility, as far as this member is concerned, is shot.
    Let me turn to Ms. Fredericks.
    As the head of a clinic, were you ever aware of any fee 
schedule?
    Ms. Fredericks. I saw Dr. Miles Jones' fee schedule. He did 
mail me a copy of his marketing brochure.
    Mr. Burr. And did that fee schedule, from a standpoint of a 
clinic director, reflect what you thought to be the cost of 
their procurement of these tissues?
    Ms. Fredericks. I am not a medical person. I did not know 
what was involved in the process.
    Mr. Burr. Did your clinic at any point ever consider the 
possibility of procuring these tissues, themselves?
    Ms. Fredericks. Yes, sir.
    Mr. Burr. What was the reason?
    Ms. Fredericks. We needed the revenue, additional revenue.
    Mr. Burr. And you saw an unbelievable amount of revenue 
collected in this process?
    Ms. Fredericks. I saw a lot. I don't know ``unbelievable.'' 
I don't have a recollection for an exact amount.
    Mr. Burr. Dr. Cohen, let me go to your testimony real 
quick. I just want you to clarify one thing.
    In your testimony, you said, ``I'm concerned that, in 
attempting to enforce the laws governing fetal tissue research 
and the distribution of such tissue, Congress may unnecessarily 
over-restrict fetal tissue research.''
    What do you mean there?
    Mr. Cohen. I think that's related to the point that was 
mentioned by virtually everyone during their preliminary 
address here, is that this research is very important, and we 
are just worried, especially given our recent experience in 
Nebraska, where there is an active attempt to try to ban this 
research----
    Mr. Burr. But you're not suggesting----
    Mr. Cohen. [continuing] that Congress will do that also.
    Mr. Burr. You're not suggesting to the committee that we 
shouldn't enforce the laws that are on the books now?
    Mr. Cohen. Certainly not. Absolutely not. Those laws should 
be enforced.
    Mr. Burr. I appreciate that.
    Ms. Samuelson, you were nice enough to refer in your 
testimony to the law, and I want to quote that. ``It is 
unlawful for a person to knowingly acquire, receive, or 
otherwise transfer any human fetal tissue for valuable 
consideration if the transfer affects interstate commerce.''
    Now, let me ask you, Dr. Cohen and Dr. Kinney, from the 
standpoint of researchers, is it commonly known in the research 
world that as a researcher, to excessively pay for fetal tissue 
would be a violation of the law?
    Mr. Cohen. I can only speak for our institution. Our 
investigators are aware of that. I can't speak for other 
institutions. I've never inquired about it.
    Mr. Burr. So it has been covered at your facility that to 
pay some amount that would exceed the cost to acquire those 
tissues would be a violation of the law on the part of the 
researchers having received them?
    Mr. Cohen. Yes.
    Mr. Burr. Dr. Kinney?
    Ms. Kinney. I don't know how common it is. I think there 
could be more education about it.
    Mr. Burr. Would it surprise you if it was, in fact, 
truthful that these price fee schedules had been circulated 
through other institutions?
    Ms. Kinney. I can't speak to--I don't have firsthand 
knowledge. I can't speak to that.
    Mr. Burr. Mr. Chairman, I would ask unanimous consent to 
enter into the record some documents that describe protocols 
for tissue recovery. I will give the minority whatever time 
they need.
    It is my understanding that these are guidelines for the 
recovery of tissue at the clinics that was drawn up by one of 
the two companies that we have discussed, either AGF or Opening 
Lines.
    Let me ask Ms. Fredericks, were you aware of any guidelines 
that those companies had for the procurement or for the 
recovery of these tissues?
    Ms. Fredericks. I don't believe I was.
    Mr. Burr. Let me just read you one section and ask you if 
you have any recollection.
    Mr. Coburn. The gentleman will need to make this quick.
    Mr. Burr. I'd be happy to.
    It says, ``Documentation and procurement records: it is 
imperative that accurate records be maintained, particularly 
for billing purposes, but also for problems which may arise 
later concerning a particular procurement. Recordkeeping also 
enables us to evaluate productivity.''
    Was it common at any clinic to get an end-of-the-year bonus 
or any type of additional payment because of the number of 
items supplied out of that clinic?
    Ms. Fredericks. No, sir. Not that I ever saw.
    Mr. Coburn. The gentleman's time has expired.
    We do have a unanimous consent request.
    Ms. DeGette. Mr. Chairman, reserving the right to object, I 
have a couple of foundational questions, seeing as foundation 
seems to be a big issue with documents here.
    Do we know where this document came from?
    Mr. Burr. I would ask Mr. Alberty if he was, in fact, the 
source of the guidelines.
    Mr. Alberty. No, sir.
    Mr. Burr. Then the gentleman would not know the source of 
these documents.
    Ms. DeGette. Mr. Chairman, on that basis, I'm going to have 
to object on foundational grounds. We don't know who produced 
this document, where it came from, what it means. It was 
represented as being a procedure, but we don't--there's 
handwritten notes here.
    Mr. Coburn. Would the gentlelady suspend for a minute?
    Ms. DeGette. Sure.
    Mr. Coburn. Mr. Alberty--would the staff give Mr. Alberty a 
copy of this? There's some question as to whether or not this 
is your handwriting.
    Mr. Alberty. Well, I can't see from here.
    Ms. DeGette. Where did it come from?
    Mr. Coburn. Look at the back few pages, Mr. Alberty.
    Mr. Alberty. Back few pages? Yes, the protocol for recovery 
of lung, that looks like my handwriting.
    Mr. Coburn. Have you ever seen these other--these materials 
before?
    Mr. Alberty. Since I wrote them?
    Mr. Coburn. Did you write all these?
    Mr. Alberty. I wrote the protocol for lung, looks like the 
liver fragment, protocol for the recovery of that, protocol for 
recovery of fetus intact, protocol for recovery of bone marrow.
    Mr. Coburn. So these are, in fact----
    Mr. Alberty. Specimen rejection criteria.
    Mr. Coburn. These are, in fact--the typewritten pages in 
front of that--have you ever seen these protocols before--
protocol for recovery of eyes, tissue recovery procedures, 
fetal?
    Mr. Alberty. Yes.
    Mr. Coburn. You have seen these?
    Mr. Alberty. I have seen them.
    Mr. Coburn. Where were these used?
    Mr. Alberty. The first one, protocol for recovery of eyes, 
it looks like it is probably AGF. Tissue recovery procedures 
for fetal tissue is an AGF document. But when it goes back to 
the handwriting, those are my handwritings that I did for Dr. 
Miles Jones.
    Ms. DeGette. Reclaiming my time, if I may, Mr. Chairman----
    Mr. Coburn. I believe the gentlelady has already objected.
    Ms. DeGette. No, I was acting under a reservation.
    Mr. Coburn. Okay. The lady is, in fact, recognized.
    Ms. DeGette. Thank you.
    Mr. Alberty, do you know these are--these typewritten pages 
are AGF's protocols?
    Mr. Alberty. Those are what were at the clinic when AGF was 
there, and I gave those--everything that I had over to Life 
Dynamics.
    Ms. DeGette. And these handwritten pages that are, 
according to your sworn testimony, in your handwriting, whose 
criteria were those? Were those your criteria?
    Mr. Alberty. Those would be the criteria that I, when I 
read from AGF's, I duplicated.
    Ms. DeGette. So these----
    Mr. Alberty. And whether they were in my own words or their 
words, you know, I read what they had before----
    Ms. DeGette. So these are criteria you came up with for 
yourself? Is that your testimony today?
    Mr. Alberty. Along with Dr. Miles Jones, yes.
    Ms. DeGette. Okay. And what I am told by my committee staff 
here is that this document was provided to our committee by 
Life Dynamics, the group that you made the paid videotape for. 
Would that be accurate?
    Mr. Alberty. That would be 100 percent accurate.
    Ms. DeGette. Okay.
    Thank you, Mr. Chairman. You know, given that caveat that 
that's where it came from, Life Dynamics, and that basis, I'll 
withdraw my reservation.
    Mr. Coburn. Any other objections?
    [No response.]
    Mr. Coburn. So agreed.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T3102.027
    
    [GRAPHIC] [TIFF OMITTED] T3102.028
    
    [GRAPHIC] [TIFF OMITTED] T3102.029
    
    [GRAPHIC] [TIFF OMITTED] T3102.030
    
    [GRAPHIC] [TIFF OMITTED] T3102.031
    
    [GRAPHIC] [TIFF OMITTED] T3102.032
    
    [GRAPHIC] [TIFF OMITTED] T3102.033
    
    [GRAPHIC] [TIFF OMITTED] T3102.034
    
    [GRAPHIC] [TIFF OMITTED] T3102.035
    
    [GRAPHIC] [TIFF OMITTED] T3102.036
    
    [GRAPHIC] [TIFF OMITTED] T3102.037
    
    [GRAPHIC] [TIFF OMITTED] T3102.038
    
    [GRAPHIC] [TIFF OMITTED] T3102.039
    
    [GRAPHIC] [TIFF OMITTED] T3102.040
    
    Mr. Coburn. The next person to be recognized is Ms. Cubin 
from Wyoming.
    Ms. Cubin. Thank you, Mr. Chairman.
    Mr. Coburn. I'm sorry, Mr. Burr was the last questioner.
    Mr. Green is recognized.
    Mr. Green. Thank you, Mr. Chairman.
    Mr. Alberty, have you received any compensation, 
reimbursement, or remuneration since January 11?
    Mr. Alberty. Since January----
    Mr. Green. From Life Dynamics? That's the last item. I 
understood, from earlier questioning, there was a check for 
$1,250.
    Mr. Alberty. Whatever the last check was.
    Mr. Green. And that was--you've received no money since 
then from Life Dynamics?
    Mr. Alberty. That is part of my agreement with my lawsuit 
settlement.
    Mr. Green. Okay. Under earlier questioning, you said that 
if you knew Dr. Jones was setting prices, and in your affidavit 
you say that you generally--you're familiar with Federal and 
State laws limiting the ability of charging fees, why didn't 
you report it to either Federal or State authorities?
    Mr. Alberty. Because no one really had a true--no one could 
show me a true law, you know, what said what. Am I answering 
the right question that you're asking?
    Mr. Green. Well, people don't typically make complaints 
based on looking at the law books.
    Mr. Alberty. Right. Well, when I made my complaint to the 
FBI, it was about the live births.
    Mr. Green. I'm sorry? It was about the live births?
    Mr. Alberty. Right.
    Mr. Green. Okay. But you didn't complain to the FBI or any 
other law enforcement agency about Dr. Jones setting these 
prices that we've seen?
    Mr. Alberty. No, sir.
    Mr. Green. Okay. I just wanted to make sure that our law 
enforcement wasn't notified and didn't prosecute. That's what 
bothered me.
    Mr. Alberty. Okay.
    Mr. Green. Let me ask some questions of our researchers.
    When the tissue sample is received in your laboratory, does 
it come in with information on where it is from or if it was 
from an abortion or how the abortion was performed, in either 
of your examples?
    Mr. Cohen. As far as I know, the only information is the 
approximate gestational age of the fetus, which is then 
verified using a variety of biochemical and molecular markers.
    Mr. Green. Okay. Dr. Kinney?
    Ms. Kinney. The gestational age and the sex is the only 
information we have.
    Mr. Green. Okay. So there's no information on how the 
procedure----
    Ms. Kinney. There is no link to the mother.
    Mr. Green. Do you ever specify with your order which 
abortion techniques should be used to retrieve specimens from 
your two labs?
    Mr. Cohen. No. We have an explicit understanding to begin 
with that procedures would not be modified in any way to 
provide the tissue.
    Mr. Green. Is that true also with your lab, Doctor?
    Ms. Kinney. Yes. Yes, sir, it is.
    Mr. Green. Is it very difficult for you to obtain tissue 
for your research?
    Mr. Cohen. Yes.
    Ms. Kinney. Yes, it can be.
    Mr. Green. At times, when you have problems or fetal tissue 
research is in short supply, have you ever considered going to 
someone like Dr. Miles Jones?
    Ms. Kinney. No.
    Mr. Cohen. No.
    Mr. Green. One of the concerns I have--and you heard in the 
opening statements, obviously, if someone is violating Federal 
law they should be prosecuted. You typically don't come to 
Congress for prosecution. You go to the executive branch. But 
the other concern is the loss of the research and the potential 
from what you are--each of you are seeing.
    What would happen to your research if Congress decided to 
prohibit fetal tissue from being available?
    Mr. Cohen. The research of our institution would come to a 
halt.
    Ms. Kinney. And the same in my case. In my particular case, 
the sudden infant death syndrome, there is no animal model of 
SIDS, and so it would be particularly harmful, because we 
couldn't use an animal model.
    Mr. Green. Mr. Chairman, what time I have left--and I was 
trying to see how much of Mr. Alberty's affidavit had been 
submitted for the record. If it is possible, we have an 
affidavit that I'd like to have submitted to the record, Mr. 
Chairman, and we can go through the whole----
    Mr. Coburn. This is Mr. Alberty's affidavit? It's already 
in the record.
    Mr. Green. It's already in the record?
    Mr. Coburn. Yes.
    Mr. Green. Okay. Good.
    Mr. Coburn. And your time is about to expire, by the way. I 
just thought I would verify.
    Mr. Green. Okay. I'll talk as fast as I can, Mr. Chairman.
    Mr. Alberty, you made this affidavit after the ``20/20'' 
taping?
    Mr. Alberty. I made that affidavit right before the ``20/
20'' taping, because we felt there was going to be--how do you 
put this--a gag order on me so I would not be able to talk, 
because basically it wasn't that I had a breach of contract. 
Basically, we figured it was by AGF to shut me up. That's the 
main reason behind the lawsuit. It wasn't a breach of contract. 
They didn't want anyone to know what I knew.
    Mr. Coburn. The gentleman's time has expired.
    Mr. Green. Let me, Mr. Chairman----
    Mr. Coburn. Well, the time has expired. Let's do it 
quickly.
    Mr. Green. Okay. This was submitted information based on 
Life Dynamics that was admitted earlier.
    In your affidavit, on item three--and I'll quote you, and 
all you need to do is say yes if it is true--``I have seen part 
of the edited 14-minute excerpt from the tape, which I 
understand that Life Dynamics is circulating, and I believe 
that they may have changed some of my answers and possibly 
substituted another person in my place during portions of the 
videotape, as it has been circulated.'' Is that correct?
    Mr. Alberty. Yes.
    Mr. Green. Thank you, Mr. Chairman.
    Mr. Bilirakis. Dr. Coburn to inquire.
    Mr. Coburn. Thank you.
    Dr. Kinney, just one quick note. Have we not seen a 
remarkable decline in SIDS in this country based on fetal 
positioning of newborn infants?
    Ms. Kinney. In the sleep position----
    Mr. Coburn. Yes or no?
    Ms. Kinney. Yes.
    Mr. Coburn. Yes. Okay. Thank you.
    Mr. Alberty, it is your testimony that doctors, prior to 
performing abortions, would come and look at what the orders 
were for that day?
    Mr. Alberty. Yes, sir.
    Mr. Coburn. And you stand by that testimony?
    Mr. Alberty. Yes, sir.
    Mr. Coburn. Were you, in fact, the person that collected 
the tissue, packaged the tissue, and shipped the tissue?
    Mr. Alberty. Yes, sir.
    Mr. Coburn. Without naming names, did you ship tissue to 
major, well-known universities throughout this country?
    Mr. Alberty. Absolutely, sir.
    Mr. Coburn. Did you ship tissue to well-known major 
pharmaceutical companies with----
    Mr. Alberty. Absolutely, sir.
    Mr. Coburn. Did you ship tissue to specific universities 
that had labeled NIH grant numbers?
    Mr. Alberty. I don't remember seeing NIH. I'm sorry, sir.
    Mr. Coburn. I want to go to one other issue. Mr. Alberty, 
you may be able to answer this and you may not. Does AGF and 
Opening Lines have competitors in this business?
    Mr. Alberty. I believe they do, but I do not know their 
names.
    Mr. Coburn. Is that they may have competitors, they don't 
have competitors?
    Mr. Alberty. I believe they do have.
    Mr. Coburn. Did you ever have any discussions with any of 
the principals of either of those two businesses about other 
competition in this area?
    Mr. Alberty. No.
    Mr. Coburn. So you would not have any knowledge about that?
    Mr. Alberty. The only knowledge is from researchers who 
would talk to me on the phone. ``Well, if we can't get it from 
you, we'll get it from someone else.''
    Mr. Coburn. And you don't recall these ``someone elses''?
    Mr. Alberty. The researchers or the----
    Mr. Coburn. No. I'm not asking you to name researchers. I'm 
asking you: do you recall the names of any of the ``someone 
elses'' under which they might have gotten----
    Mr. Alberty. No, sir.
    Mr. Coburn. All right. Thank you.
    Ms. Fredericks, I have a couple of questions for you that 
I'm a little bit concerned about, and it has to do with this 
price thing.
    You had--and you correct me if I'm wrong, because I very 
well may be--you had negotiated an agreement with Dr. Jones----
    Ms. Fredericks. Yes, sir.
    Mr. Coburn. When AFG--AGF left, or you separated from them 
under which he would essentially take over what was happening 
at your clinic.
    Ms. Fredericks. Correct.
    Mr. Coburn. And you also negotiated with him certain prices 
for pathologic work that he was licensed to do and was doing 
it?
    Ms. Fredericks. Yes.
    Mr. Coburn. And is it your testimony that you were paying 
the same price to Dr. Jones for that pathologic work as you 
were paying prior with the previous contractor for your clinic 
for the same pathology?
    Ms. Fredericks. Slightly lower, but not significantly.
    Mr. Coburn. I want to delve into this, because I know what 
pathology services cost.
    Ms. Fredericks. Right.
    Mr. Coburn. Is it your testimony that for a cervical biopsy 
you would pay approximately $20?
    Ms. Fredericks. I don't remember. I'd have to check.
    Mr. Coburn. Could you please supply that information to 
this committee if, in fact, you have that information?
    Ms. Fredericks. Before--what was negotiated to Dr. Jones or 
before?
    Mr. Coburn. In other words, what your clinic was paying 
before versus what you were paying afterwards.
    Ms. Fredericks. If the clinic would be willing to provide 
it for me. I am not--I am no longer employed there and I don't 
have access to that information.
    Mr. Coburn. And so you would not have that information?
    Ms. Fredericks. No.
    Mr. Coburn. That could be a question for a different 
hearing.
    Basically, in what I think I have seen is approximately 40 
percent reduction in pathological surgical fees for what I know 
is the going rate in the Kansas City area for like services 
from Dr. Jones to your clinic, and the reason that is important 
is that is another way of paying the clinic for the access for 
that tissue, and that's the only reason I waive that. And it 
may not be true.
    Ms. Fredericks. I don't believe it is, from the information 
I was provided at the time when I was instructed to type up 
that agreement. I did not negotiate the laboratory contracts 
and I did not pay the bills.
    Mr. Coburn. Okay. I want to get to one other area before my 
time is out.
    It is your testimony that you all had a package for women 
who underwent procedures there, who made the difficult choice 
of terminating the pregnancy, and in that package you had an 
informed consent for tissue donation.
    Ms. Fredericks. Correct.
    Mr. Coburn. At any time in your recollection were there any 
women who went through who might have had tissue collected from 
them who were 18 years of age or under?
    Ms. Fredericks. I honestly don't know. I was not a 
counselor.
    Mr. Coburn. Okay.
    Ms. Fredericks. I was not----
    Mr. Coburn. Is there a tissue log in your clinic that might 
show that, or would there normally expect to be a tissue log, 
either that Mr. Alberty would have had, based on what the 
patient's age was, or that your clinic might have had that 
would answer that question?
    Ms. Fredericks. I am not----
    Mr. Coburn. And I want to tell you why I'm asking the 
question. Under the Uniform Anatomic Gift Act, State of Kansas, 
no one under 18 can ever give a body part away, whether it is 
their fetus or anything else, and I have great concerns as to 
whether or not this clinic violated the Kansas laws as well as 
Federal laws in terms of minors giving consent for tissue 
donations which they are not able to do.
    Ms. Fredericks. The clinic was very conscious of getting a 
signature of a parent or guardian on all Kansas documents, 
which are extensive. I do not know if that particular form had 
a parental consent on it.
    Mr. Coburn. Thank you very much.
    I see my time has expired.
    Mr. Bilirakis. Mr. Strickland to inquire.
    Mr. Strickland. Thank you, Mr. Chairman.
    I would like to say a word to Ms. Samuelson. I want to 
thank you for being here. I want to thank you for your 
testimony. And I want to say to you how sorry I am that for 6 
long years you were deprived of the possible benefit of this 
vital research. And I want to say that I am sorry my friend, 
John Leach, who recently died with Parkinson's, was kept from 
the ability to have benefit from those 6 years of research, and 
that my physician friend who lost his young child to SIDS was 
also troubled by this cessation of vital research. It was 
intolerable, unconscionable, and I think human lives have been 
lost as a result of the actions that were taken to prevent that 
vital research.
    Mr. Alberty, you know, I have been sitting here and I have 
been listening to you, and I want to be honest with you--my 
heart has gone out to you, because, reading your testimony, I 
can sense that you have been a tortured individual. You talk in 
your testimony as if you were. And I want to ask you if you can 
share with us why it is that you said what you said to Life 
Dynamics that would cause you now to have to come back and, in 
a sworn affidavit, contradict so much of what you said. Can you 
explain that to us?
    Mr. Alberty. Yes, I can.
    I guess the reason why, it kind of--it does contradict, you 
know, the video--parts of the video are accurate, and others 
may be a little embellished, and I did that because I wasn't 
thinking. I was nervous. I was scared being down there, not 
knowing what was going to happen to me. That's my first time, 
you know, going to do this. I've never done an undercover 
videotape or hidden videotape.
    Mr. Strickland. Do you feel as if you were being used for a 
purpose other than to expose the possible sale of fetalAFTER 6 
P.M. tissue in an illegal way?
    Mr. Alberty. Was I being used? I think I was being used by 
everybody.
    Mr. Strickland. Well, were you----
    Mr. Alberty. But was I being used by Life Dynamics----
    Mr. Strickland. Yes.
    Mr. Alberty. [continuing] is your specific question?
    Mr. Strickland. Yes. I'm just trying to explore what would 
cause you to do what you've done and then have to come before 
this committee--and I think it has been very difficult for you.
    Mr. Alberty. Right.
    Mr. Strickland. And I appreciate that. What was the 
compelling reason that you have done what you've done to find 
yourself in these circumstances?
    Mr. Alberty. The reason why I went to Life Dynamics?
    Mr. Strickland. No.
    Mr. Alberty. Why I did everything?
    Mr. Strickland. The reason that you said things that you 
now have to swear that were not true.
    Mr. Alberty. Because I'm under oath. Is that what you're 
getting at?
    Mr. Strickland. Well, you're under oath now.
    Mr. Alberty. Right.
    Mr. Strickland. But you weren't under oath then.
    Mr. Alberty. Right.
    Mr. Strickland. Why did you say those things then?
    Mr. Alberty. I think that's what they wanted to hear.
    Mr. Strickland. And that's why I asked do you--if you felt 
that they were using you.
    Did ``20/20'' know about the affidavit before they showed 
the program last night to the American people?
    Mr. Alberty. Do they know about the affidavit?
    Mr. Strickland. Yes.
    Mr. Alberty. They never saw it.
    Mr. Strickland. Did they know about it?
    Mr. Alberty. I believe they did.
    Mr. Strickland. Did they know that many of the things that 
were in the affidavit contradicted things that you had said 
previously?
    Mr. Alberty. I don't know.
    Mr. Strickland. I'm just really curious that ``20/20'' 
would admit that information if, in fact, they had that 
information. It is quite sad, if they had that and did not 
share the full story with the American people.
    Mr. Alberty. Right.
    Mr. Strickland. Because much of what they shared with the 
American people last night was based upon information which 
they had secured from you, and one of our colleagues here today 
has said that you had lost credibility certainly with this 
committee, and I think the American people were mistreated by 
``20/20'' if they had this information and they did not share 
it.
    Mr. Alberty. There was a lot of information that ``20/20'' 
did not share and I felt that it should have been shared. And 
whether your colleague thinks I am not a credible person, let 
me put it to you this way: how credible is it that I came here 
without an attorney, that I come here on my free will standing, 
trying to bring forward something that I did. And I cannot 
excuse myself if I sat here and talk to you lovely people 
because I am nervous as hell, my blood pressure, as you can 
probably see, is up, and I've never done this before, but I----
    Mr. Strickland. And, Mr. Alberty, I have expressed to you 
at least my personal feeling that I think this has been 
difficult, and I appreciate that.
    One real quick question.
    Mr. Bilirakis. Real quick.
    Mr. Strickland. When you shipped these tissues to major 
universities, as one of my colleagues has asked you, do you 
know that those universities paid exorbitant prices or prices 
that would be considered illegal for that tissue? Do you have 
any direct knowledge that they did?
    Mr. Alberty. They paid for X amount of dollars. All I know 
is what I shipped them. I'm not really sure what they were 
charged.
    Mr. Strickland. So you do not know if these major 
universities were aware that the law potentially was being 
broken?
    Mr. Alberty. I don't believe they were aware of it. No. No, 
sir. And if they did, I don't think the universities would be 
using it. And, to go back to a question that was earlier that 
was not presented to me, the doctors on our panel, they do 
not--are not aware of the prices and stuff that's going on, 
because usually there is a representative before it gets to 
them.
    Mr. Strickland. Thank you very much.
    Mr. Bilirakis. The gentleman's time has expired.
    Mr. Strickland. Thank you, Mr. Chairman.
    Mr. Bilirakis. We're going to have to break. There are two 
votes. I'm going to say 6:30. Thank you.
    [Brief recess.]
    Mr. Bilirakis. In view of the fact that a few people who 
are clearly first up are not here, we'll recognize the 
gentleman from Tennessee for questions.
    Mr. Bryant. Thank you, Mr. Chairman. I have a number of 
issues, and I'm going to try to cover as much ground as I can.
    Let's see. We're missing a witness.
    Mr. Alberty, I have just a few questions for you that I 
might ask you.
    As I understand, you were a technician. Were you in the--
were you physically located in the clinic?
    Mr. Alberty. Yes.
    Mr. Bryant. Okay. And this is the clinic where the abortion 
would be done?
    Mr. Alberty. Yes, sir.
    Mr. Bryant. You were not physically in the room when that 
procedure was done?
    Mr. Alberty. Not physically in the room when that procedure 
was done. When the doors would open, if the patient was under 
sedation they'd wheel the cart, if they were too rushed, and 
they'd say, ``Come and get it'' or hand me the syringe.
    Mr. Bryant. Would the actual removal of the parts, 
dissecting, occur in that same building?
    Mr. Alberty. They would have--in the same building in a 
special--underneath a hood.
    Mr. Bryant. And this would be the same doctor who performed 
the abortion can come out, in the case of Dr. Jones, and then 
go into another room and do the----
    Mr. Alberty. No. Dr. Jones never did abortions.
    Mr. Bryant. He did not?
    Mr. Alberty. No, he did not.
    Mr. Bryant. But he would be in the other room to do the----
    Mr. Alberty. Dr. Jones was never there. He only came in to 
bring me supplies, to see how things were going. That was it. 
He was never there to witness an abortion. He was never there 
to coach the doctors.
    Mr. Bryant. Tell me what your part in that--once the doors 
swung open and they gave you a fetus or----
    Mr. Alberty. Yes.
    Mr. Bryant. All right. What was your job?
    Mr. Alberty. My job was to look on my list of the piece of 
paper to see what the daily schedule was, which researchers 
needed what tissue, and it was to dissect those tissues out and 
put them in a special medium and send those to the researchers 
at the end of the day to their specifications.
    Mr. Bryant. I noticed in the handwritten document--and I 
can't lay my hand on it now--you had a process for different 
procedures, and then you had a rejection. What was the----
    Mr. Alberty. Yeah, a rejection criteria.
    Mr. Bryant. All right. The rejection criteria that had on 
there specimen rejection criteria, and, regarding the donor, 
donor rejection, age 8 to 22-plus. Tell me what that is. That 
is----
    Mr. Alberty. Okay. Donor--what page are you on?
    Mr. Bryant. Eight months, 22-plus months.
    Mr. Alberty. Okay. Donor rejection criteria specimen, age 
18 to 22-plus. I don't think I really completed this form out 
totally. It probably should have had something at the top why 
it was being rejected.
    Mr. Bryant. Okay.
    Mr. Alberty. For that reason, 8 to 22.
    Mr. Bryant. Did you have access to the age of the mother?
    Mr. Alberty. Yes.
    Mr. Bryant. Okay. Did you ever send out--what's the right 
term, a fetus?
    Mr. Alberty. You mean a shipping packing list that goes to 
the research company?
    Mr. Bryant. Did you ever send out tissue to Dr. Jones that 
came from a young lady under the age of 18?
    Mr. Alberty. In the State of Kansas, what I saw--and I did 
not know that there was any laws governing that--yes, there was 
at AGF and Opening Lines tissue that were consented for with 
people that were under the age of 18. Yes.
    Mr. Bryant. Consented for by that person under the age of 
18?
    Mr. Alberty. Whether the mother signed it or the daughter 
signed it--I think it was more likely the mother signed the 
consent and the daughter also may have signed below, if I 
recall right.
    Mr. Bryant. Let me switch over.
    On this broadcast last night--and I think you have repeated 
today that you did--you realize that AGF--the procedure they 
used prolonged the abortion process, a process that increased 
the pain for the mother, and you know that because there was a 
special instrument being provided to the clinic by AGF, you 
mentioned.
    Mr. Alberty. That was a syringe.
    Mr. Bryant. Okay.
    Mr. Alberty. That was the one they showed on there and they 
talked to Mr. Bardsley about it.
    Mr. Bryant. And you're sure of that?
    Mr. Alberty. I'm positive of that. Yes, that they used the 
syringe, and to get a better specimen--because if they didn't 
use a syringe, they would use the suction jar. They had a high-
pressure vacuum, and it would blow apart everything that was in 
there. The liver would be fragmented beyond belief.
    Mr. Bryant. Who provided the syringe?
    Mr. Alberty. AGF did. They would mail in boxes. If the 
supply was low, I was to tell the Bardsleys, and they would 
order those syringes in boxes, and there would be, like, six to 
twelve boxes come whenever I called for it. And then those 
boxes were opened up, the syringes were staffed in the abortion 
rooms to use specially for the people that consented for early 
terms.
    Mr. Bryant. Back on the lawsuit, you were sued by AGF for 
breach of some sort of contract?
    Mr. Alberty. That's correct, sir.
    Mr. Bryant. Did you counter-sue them?
    Mr. Alberty. Yes, sir.
    Mr. Bryant. And there was a settlement made out of court?
    Mr. Alberty. Yes, sir.
    Mr. Bryant. Did you receive any money?
    Mr. Alberty. For settling?
    Mr. Bryant. Yes.
    Mr. Alberty. No. The reason--you want to ask me the 
question of why----
    Mr. Bryant. Yes.
    Mr. Alberty. [continuing] I had to settle? I paid for my 
legal fees out of my own pocket, where AGF received theirs for 
free. I didn't have any money to continue on the lawsuit, or I 
would have fought it tooth and nail.
    Mr. Bryant. So no money was exchanged in settlement of the 
lawsuit? You didn't give them any money, they didn't give you 
any money?
    Mr. Alberty. There was a $500 thing put in an escrow if I 
ever violated my contract, and a $10,000, you know, just out 
there. If I violated, that money would go to AGF. And the 
reason why I signed that, because I had no other choice. I was 
going to go so deep in debt with this lawsuit. They had the 
money, I didn't. I couldn't get any attorney to take this pro 
bono or help me out.
    Mr. Bryant. So as a term of the settlement you signed a 
confidentiality agreement?
    Mr. Alberty. That's correct, saying I would never disclose.
    Mr. Bryant. And it allows you to testify before this 
committee or in a court?
    Mr. Alberty. The only reason why I'm able to be here is 
because I was instructed the only way I could be here is if I 
had a subpoena to appear. That's the only way I could talk.
    Mr. Bryant. Okay.
    Mr. Alberty. I wanted to come here and talk freely, and I 
would love to have been here freely and talked without a 
subpoena, but the only way I could do that is if you guys filed 
a subpoena. That would prove that I could come here and at 
least give you my story.
    Mr. Bilirakis. I'm sorry. The gentleman hasn't missed a 
minute of this hearing and waited patiently, but really his 
time has expired.
    Ms. DeGette?
    Ms. DeGette. Thank you, Mr. Chairman.
    I just want to clarify a couple of things.
    First of all, I really want to thank Drs. Cohen and Kinney 
for coming today. I think that your afternoon would have been 
well spent researching diseases, and I really appreciate your 
coming here and giving information, both about the protocols 
you use and also about the types of fascinating research that 
you're doing, and I particularly want to thank Ms. Samuelson. 
Your Congresswoman just said hello and thank you for coming 
today on the floor, as well. I'm sure there are a lot of 
productive things you could have been doing, and I really want 
to thank you.
    Let me ask, first, Drs. Cohen and Kinney a question. There 
was an inference made in response to a question that the 
researchers never know how the fetal tissue is procured, and 
I'd like you to clarify. Do you think that you would know if 
your organizations were illegally purchasing fetal tissue? Dr. 
Cohen?
    Mr. Cohen. Yes.
    Ms. DeGette. Why do you think that?
    Mr. Cohen. Well, for one thing, I trust completely the 
administration that we have, and also the investigators that 
are involved with this, and there is absolutely no evidence 
that has come forward to suggest that any payment has been 
made. All of these individuals have made public statements 
because of the issue that is before our legislature right now, 
and the people that keep on claiming that there have been 
payments have not been able to produce any evidence to that 
effect.
    Ms. DeGette. And, Dr. Kinney, what about you?
    Ms. Kinney. Because we only take institutional tissues, we 
go--the post-doctoral fellow or the technician go directly to 
pick up the tissues from the pathology department in our 
institution. That's how we know that it is coming directly from 
our institution.
    Ms. DeGette. Thank you.
    And, Mr. Alberty, I believe that you said that you had 
shipped fetal tissue to various research institutions and so 
on. Did you actually--were you involved in the billing and 
payment? In other words, you shipped it. Do you know how much 
they paid for those actual shipments of fetal tissue?
    Mr. Alberty. No, ma'am, I do not.
    Ms. DeGette. So, for all you know, for those particular 
shipments, they could have been charged nothing, they could 
have been charged a nominal processing fee? You don't know, do 
you?
    Mr. Alberty. That's correct. I do not know.
    Ms. DeGette. You know you shipped the tissue, but you would 
have no idea whatsoever what was paid for that tissue?
    Mr. Alberty. That is correct.
    Ms. DeGette. Thank you.
    Now, Mr. Alberty, let me also ask you just to clarify some 
testimony. There is one advantage in batting cleanup, and I 
just want to clarify, for myself and for the record, you said 
that you tell the truth when you're under oath, right?
    Mr. Alberty. That's correct, ma'am.
    Ms. DeGette. And so you had the deposition and you were 
under oath in that deposition. You told Mr. Waxman you told the 
truth in that deposition, right?
    Mr. Alberty. That's correct.
    Ms. DeGette. And you signed the affidavit that we've all 
been talking about, and you were also under oath when you 
signed that; is that right?
    Mr. Alberty. That is correct.
    Ms. DeGette. And then today in the testimony you're also 
under oath, so you're telling the truth to us today, correct?
    Mr. Alberty. That's correct.
    Ms. DeGette. Okay. Thanks.
    Now, someone asked you about this affidavit and that you 
had signed it to settle the lawsuit and it was written by the 
attorneys for the other side, right?
    Mr. Alberty. I believe so. Yes.
    Ms. DeGette. But that affidavit, nonetheless, even though 
it was written by somebody else, you signed it under oath 
saying that it was correct, right?
    Mr. Alberty. That's correct. When I signed it----
    Ms. DeGette. And you're going to stand by that today, 
right?
    Mr. Alberty. When I signed that affidavit, I was never--you 
know, those are what I said, but when I signed the affidavit 
there was no one sitting there like we are today breaking that 
down and explaining what each paragraph was saying to me in 
logical terms.
    Ms. DeGette. But you read those words, right? You read each 
one of these paragraphs----
    Mr. Alberty. Right.
    Ms. DeGette. [continuing] before you signed it, right?
    Mr. Alberty. That's----
    Ms. DeGette. And you will stand by those words as being 
correct, right?
    Mr. Alberty. That's correct.
    Ms. DeGette. So where you say, ``I have no personal 
knowledge of any instances in which an employer of mine charged 
any fees or received compensation for retrieving fetal tissue 
in violation of any of these laws,'' you're going to stand by 
that statement.
    Mr. Alberty. Well, maybe they shouldn't have said an 
``employer of mine.'' No, go ahead. No, I'm sorry. I was 
confusing my own----
    Ms. DeGette. Is that statement correct? That's in paragraph 
four. It's the second sentence.
    Mr. Alberty. Okay. ``I am generally familiar with the 
Federal laws--'' Ms. DeGette. No, the second sentence. ``I have 
no personal knowledge of any instances in which an employer of 
mine charged any fees or received compensation for retrieving 
fetal tissue in violation of any of these laws.''
    Mr. Alberty. Right. I had no understanding of the amount of 
money that was----
    Ms. DeGette. Now you're changing this.
    Mr. Alberty. No.
    Ms. DeGette. It says ``any fees or received compensation.'' 
It doesn't say the amount, does it?
    Mr. Alberty. No, it doesn't say the amount.
    Ms. DeGette. Thank you very much, Mr. Alberty.
    Mr. Alberty. You're welcome. Thank you, ma'am.
    Mr. Bryant. Mr. Chairman, can I ask a unanimous consent 
request? There are two I'd like to make, if I could.
    I'd like to move to admit to the record two AGF brochures 
and three AGF fee-for-services schedules provided to the 
committee by AGF.
    Mr. Bilirakis. Is there any objection?
    Mr. Bryant. That's one. And the second one----
    Ms. DeGette. Reserving the right to object. Can I look at 
them?
    Mr. Bilirakis. The gentlelady is recognized.
    Mr. Bryant. The second--reserving the right to--let me go 
ahead and----
    Mr. Bilirakis. Is there something else you would like to 
enter into the record?
    Mr. Bryant. Yes. She's got a reservation on this one.
    Mr. Bilirakis. Well, I don't know. Are we going to wait 
until you've had time to----
    Ms. DeGette. Mr. Chairman, as you know, your side of the 
aisle has refused to agree to the introduction of either the 
deposition or the videotape on the basis that----
    Mr. Bilirakis. I have no problem with the gentlelady's 
reservation or objection if that's the case.
    Mr. Barrett. Mr. Chairman, if I could make a suggestion, if 
Mr. Bryant could delay putting these in, give us time to look 
at them, we're certainly near the end of the questions.
    Mr. Bilirakis. That really goes to the question that I 
asked of the gentlelady.
    Ms. DeGette. Thank you.
    Mr. Barrett. If you could do that after we're done, I think 
we can finish up the questioning.
    Mr. Bilirakis. Yes. What we want to do is speed up the 
process, if we can.
    Mr. Bryant. Go ahead and make those two and I'll make the 
UC request later.
    Mr. Bilirakis. All right.
    That being the case, Mr. Barrett, since your suggestions 
are--well, you wanted to yield to Ms. Capps?
    Mr. Barrett. I think Ms. Capps is----
    Mr. Bilirakis. All right. Ms. Capps is recognized.
    Ms. Capps. I have----
    Mr. Bilirakis. Is it our side? Oh, Ms. DeGette just 
questioned. I beg your pardon.
    Ms. Capps. It's the first round.
    Mr. Bilirakis. It's still the first round.
    Ms. Capps. It's the first round.
    Mr. Bilirakis. Well, we didn't have anybody on this side a 
moment ago. We're still the first round. That's right.
    Ms. Capps is recognized.
    Ms. Capps. Thank you, Mr. Chairman. I will yield to my 
colleague, Ms. Eshoo, for 15 seconds.
    Ms. Eshoo. Mr. Chairman, I would just like a unanimous 
consent that the checks that I held up for the record and 
queried Mr. Alberty on be submitted as part of our record 
today.
    Mr. Bryant. Reservation.
    Mr. Bilirakis. Is there a reservation heard?
    Mr. Bryant. I'd like to make a reservation. Can we see 
those?
    Ms. Eshoo. Absolutely.
    Mr. Bryant. Thank you.
    Mr. Bilirakis. All right. Let's treat those the same way 
that we're treating these two documents, if we may.
    Ms. Eshoo. W-2 forms are included, as well.
    Mr. Bilirakis. And get back again to Ms. Capps. Please 
proceed.
    Ms. Capps. Thank you.
    Mr. Alberty, please, if you would----
    Mr. Alberty. Yes, ma'am.
    Ms. Capps. [continuing] earlier in the testimony this 
afternoon you stated to my colleague, Mr. Greenwood, that 
procedures were modified through the use of the AGF syringes to 
improve fetal----
    Mr. Alberty. Yes, ma'am.
    Ms. Capps. And this statement was made under oath?
    Mr. Alberty. Yes, ma'am.
    Ms. Capps. And I would like to refer to your affidavit from 
January 20th, the section No. 6, that sentence. ``I know of no 
instances in which a doctor was asked or otherwise decided to 
perform a different type of abortion procedure solely for 
purposes of obtaining fetal tissue.''
    Mr. Alberty. Right.
    Ms. Capps. Which of these----
    Mr. Alberty. Because I knew--when this affidavit was made 
with the attorneys of AGF, it was put that, ``Did I hear AGF 
tell the doctors to change any procedure?'' And that states 
that no, I did not hear anybody ask, otherwise decided to do 
that. No.
    Ms. Capps. Which is correct?
    Mr. Alberty. That they use the syringes to alter the 
procedures. They did. But did I hear the Bardsleys or anybody 
tell the doctors to use the syringes? No, I did not.
    Ms. Capps. It says ``or otherwise decided to perform.'' If 
they decided to, then they would do it. Which is correct?
    Mr. Alberty. Right. If they decided to use it for fetal 
tissue research, they use a syringe.
    Ms. Capps. Which is correct?
    Mr. Alberty. That's correct. Yes, ma'am.
    Ms. Capps. The statement you made on January 20th, the 
affidavit, or today?
    Mr. Alberty. Both. Let me--this one right here that you 
just read is correct.
    Ms. Capps. But you told Mr. Greenwood that they did modify 
them.
    Mr. Alberty. They did modify it. But I didn't hear anybody 
tell anybody.
    Ms. Capps. I don't want to pursue that any further----
    Mr. Alberty. I'm sorry.
    Ms. Capps. [continuing] now, because I think it 
corroborates what my colleague, Mr. Burr, said about the 
credibility of this witness.
    I am very interested in the notion that has been said by 
you and also by Ms. Fredericks--and I will turn to you, Ms. 
Fredericks--about where--who is buying this tissue. We have 
strong testimony from our two researchers who are here that 
they have no knowledge in their institution or any other 
institution of the procurement at exorbitant rates of fetal 
tissue.
    You were an administrator in a clinic and you were 
concerned about costs, because of some other testimony you had 
given us. Can you tell me where this tissue was shipped at 
prices--according to the price list?
    Ms. Fredericks. I'm sorry. I don't fully understand your 
question.
    Ms. Capps. Who bought the fetal tissue from the laboratory 
where you worked?
    Ms. Fredericks. I didn't work for the laboratory. I worked 
for the clinic in which----
    Ms. Capps. For the clinic.
    Ms. Fredericks. [continuing] from which they procured the 
tissue from. I was not involved in the procurement.
    Ms. Capps. No. I know that. But you shipped it. Mr. Alberty 
described how he did. Somebody----
    Ms. Fredericks. He shipped it. We did not.
    Ms. Capps. Can you tell me, Mr. Alberty, where you shipped 
this tissue?
    Mr. Alberty. The tissue was shipped to wherever it was 
going to go, I mean, on that day----
    Ms. Capps. Well, which institutions?
    Mr. Alberty. Researchers, institutions.
    Ms. Capps. Can you name me one?
    Mr. Bilirakis. Would the gentlelady yield for just one 
moment? We have an agreement on both sides of the aisle, it was 
my understanding, that we would not name specific institutions.
    Ms. Capps. Sorry. Then I will withdraw that.
    Mr. Bilirakis. I'll be happy to give you the list of the 
institutions if you'd like to see it.
    Ms. Capps. Thank you very much. I would like to see, 
because there is apparent discrepancies in the assumptions that 
many institutions were buying, are buying this tissue at 
exorbitant cost, and then the testimony of both the private 
institution and the public one that they don't know anyone 
reputable who is buying this. It has got to be some underground 
kind of place.
    But I really want to make a statement now and make a 
statement of an acknowledgement of Ms. Samuelson and tell you 
how betrayed I feel by this hearing today, because I believe 
that the testimony of some of our witnesses is--has demeaned a 
very, very important topic and issue, which affects your life 
directly.
    This is tragic to me that, in the beginning of this 
hearing, there was a lot of attention being paid by the media 
to this fact. It was on ``60 Minutes'' last night. Everybody 
was tuned to it. And throughout the process of this afternoon, 
we have seen testimony destroyed, witnesses unable to support 
the statements they have made in other ways that can cause and 
probably have inflamed the topic which to you is a life-saving 
topic.
    My sister has Parkinson's, so I know what you're talking 
about and I understand and respect so completely the research 
that is going on in the institutions that are vulnerable to 
this Congress, because during the years that it was banned 
there were lives, I would dare say, that were lost, and I feel 
responsible for this body that does this in such a manner as to 
add to an inflammatory situation.
    We need to be focusing on authentic testimony--testimony 
that is about what happens in our NIH-sponsored institutions 
over which we have directly----
    Mr. Bilirakis. The gentlelady's time--that's a long one 
question.
    Ms. Capps. I'm sorry.
    Mr. Bilirakis. The gentlelady's time has long expired.
    Ms. Capps. And it has expired, and I apologize. I wanted to 
give Dr. Cohen an opportunity to tell us one or two topics for 
which there is very direct impact on disease.
    Mr. Bilirakis. We will have a second round.
    Ms. Capps. All right. I will reserve my----
    Mr. Bilirakis. We will have a second round.
    Ms. Capps. [continuing] question for Dr. Cohen until the 
second round.
    Mr. Bilirakis. I appreciate that.
    Ms. Capps. Thank you. And I apologize.
    Mr. Bilirakis. We're still in the first round.
    Mr. Barrett?
    Mr. Barrett. Thank you, Mr. Chairman.
    Mr. Bilirakis. And you will be the last person, I trust, 
unless somebody else walks in, for the first round.
    Mr. Barrett. Thank you very much.
    Mr. Alberty, you indicated, at least in the document that 
you submitted, your testimony, that there was a traumatic event 
involving twins. Was that the event that sort of triggered your 
change of mind?
    Mr. Alberty. Yes, sir.
    Mr. Barrett. And that was the time, then, when you 
contacted this organization?
    Mr. Alberty. That was the sole reason why I contacted the 
organization.
    Mr. Barrett. And how long did you continue to work for your 
employer after that?
    Mr. Alberty. I don't have a day.
    Mr. Barrett. A week? A month? Four months? A year?
    Mr. Alberty. It may have been, like, 3 or 4 months that I 
continued to work.
    Mr. Barrett. And did you receive payment from both your 
employer and this organization at any time? We've seen the 
check stubs that talked about your getting payments in 1997 and 
1998. Was there a time when you were receiving payments from 
both?
    Mr. Alberty. I believe so. Yes.
    Mr. Barrett. We've heard a lot here--and this has been a 
very emotional day--about this issue. I'm curious as to what 
your view is. And I understand your view about late-term 
abortions. But first trimester abortions and even second 
trimester abortion, I'm interested in your view on the morality 
of tissue research and the fetal--the whole underlying fetal 
tissue involvement here.
    Mr. Alberty. Right. The panel that is sitting right beside 
me, I totally support and understand what they are going after 
and what they are doing. But I think, on the other hand, that 
even people here in Congress should also be held accountable 
for knowing that what is going on out there in the field, 
because no one is following up, no one is going out there. Why 
does it take my testimony to come forward and say this is going 
on, when it clearly must have been going on----
    Mr. Barrett. But that's not my question. My question is to 
the morality of what was occurring--again, in first trimester 
abortions, a very controversial issue. Do you think it is 
morally wrong?
    And we've heard from Ms. Samuelson. I watched her earlier 
in the day sitting there very emotional about the impact it has 
on the lives that she is working for.
    Do you think it is immoral for us to have this fetal tissue 
research go to help save people's lives with Parkinson's 
disease?
    Mr. Alberty. No. It's going to really actually help to save 
their lives. It is not immoral.
    Mr. Barrett. Ms. Fredericks----
    Mr. Alberty. As long as there is an informed consent.
    Mr. Barrett. [continuing] I'd ask you the same question.
    Ms. Fredericks. Most definitely. I think it is more than 
moral. I'm very much for fetal tissue research. I think it is 
important.
    Mr. Barrett. So your objection, obviously, is to the 
business tactics that have been used----
    Ms. Fredericks. Yes.
    Mr. Barrett. [continuing] more so than the fact that this 
is being used to save people's lives.
    Ms. Fredericks. It's the business tactics totally. It is 
not the use of the tissue.
    Mr. Barrett. Okay. And I ask that question because I think 
we might get off track at some points during this hearing, and 
obviously I think the three researchers have testified that 
they feel it is important to do that, and that there is a 
difference between the research and there is a difference 
between fetal tissue research, and there is a difference 
between abortion, as well.
    I am again curious, Mr. Alberty. During the time that you 
were employed by this organization, we've seen stubs that total 
$11,000, or something like that. Were you doing other work for 
them, or what exactly were you doing? Do you recall?
    Mr. Alberty. The other work would be just going to 
meetings, like NAF meetings.
    Mr. Barrett. When you say ``meetings,'' were these meetings 
for the pro life movement? There's nothing wrong with this. I'm 
just curious.
    Mr. Alberty. No. The other meetings would be pro choice 
movement, NAF, National--you know what NAF stands for. I'm not 
sure if I can say that.
    Mr. Barrett. All right. And I understand that. And let me 
ask you one other question here--and we're almost done. You 
stated earlier today that during the taping, when you were 
wearing the wig--you couldn't recall whether you wore the 
dress--that you were stressed.
    Mr. Alberty. Yes.
    Mr. Barrett. I want you to just talk a little bit. What 
made you stressed, again?
    Mr. Alberty. I've never done that before. Going there on a 
whim, not really fully thinking----
    Mr. Barrett. Did you think it was wrong? It's not like 
you----
    Mr. Alberty. I didn't think it was wrong.
    Mr. Barrett. [continuing] went on a show to marry a 
millionaire, but----
    Mr. Alberty. I don't think it was wrong. I had a lot of 
concerns about my safety, my identity being kept secret. 
That's--I had a lot of concerns about that. I had a lot of 
concerns----
    Mr. Barrett. Did you feel wrong when you were saying 
statements that you knew weren't true?
    Mr. Alberty. I think, when I was making the statements, 
when they were coming out and I was talking about--and we'd 
have to dissect, like, in the thing, which statements are true 
and which statements are not true. That's where we'd have to 
go. Do you have a specific----
    Mr. Barrett. I don't, but I think we've heard enough 
testimony today, and I don't feel----
    Mr. Alberty. Right.
    Mr. Barrett. [continuing] I have to drag you over the coals 
again, but I think there has been a general acknowledgement 
that there were statements that weren't true. But, again, I 
just was curious as to whether you--and I think my time is up, 
so I'd yield back the balance of my time.
    And I want to thank all of you for being here today.
    Mr. Bilirakis. All right. I thank the gentleman.
    That does complete the first round.
    Mr. Barrett. Mr. Chairman, I was going to--if we're going 
back to the documents, I had a document, but I think that there 
were a couple documents and----
    Mr. Bilirakis. Well, there are a number of documents here, 
and if you have a document I would suggest you put it on the 
pile, because I've asked the both staffs to work on getting 
together on these things.
    Mr. Barrett. It is a letter from a Fay Clayton Chemskene at 
``20/20'' talking about the problems that she has with Mr. 
Alberty's testimony, and I would ask unanimous consent that 
that be placed in the record.
    Mr. Bilirakis. I would----
    Mr. Barrett. Yes, I'll give it to you. I understand what 
you're----
    Mr. Bilirakis. Why don't we just add it to this.
    Mr. Barrett. Fine. I understand.
    Mr. Bilirakis. People have gotten hungry and I'd like to 
break for an hour to give you all an opportunity to get 
something to eat.
    I know Dr. Coburn wants a second round, and I think Mr. 
Stupak indicated that he wants a second round. I think we're 
going to have to come back.
    We'll be here to late tonight. And I don't mean that we 
should keep you here that long, but----
    Ms. Kinney. Mr. Chairman?
    Mr. Bilirakis. Yes?
    Ms. Kinney. I need to go, too. I need to go----
    Mr. Bilirakis. You need to go? All right, Dr. Kinney. Well, 
we'll release whoever has to be released. All right. Drs. 
Kinney and Cohen are released--are relieved. I shouldn't use 
that term ``released''--and with our thanks.
    There ordinarily are additional questions that have not 
been asked because of the 5-minute rules, and so are you 
willing to respond to those or get them in writing from the 
committee?
    Mr. Cohen. Actually, if you want, I can stay here tonight. 
It's not that urgent that I get back.
    Mr. Bilirakis. But the weather is pretty good here.
    Mr. Cohen. Yes, the weather is a lot better than it is back 
home.
    Mr. Bilirakis. It's up to you, Dr. Cohen. I'll leave it in 
your hands. Okay?
    We'll be back at 7:45.
    [Brief recess.]
    Mr. Bilirakis. The hearing will come to order.
    In view of the fact that the other subcommittee members are 
not here yet and Ms. Cubin is, even though we did decide to go 
and shift into the second round, we'll go ahead and recognize 
you to inquire.
    Ms. Cubin. Thank you, Mr. Chairman.
    Mr. Bilirakis. Please proceed.
    Ms. Cubin. And I don't know if this is the appropriate time 
to ask for unanimous consent to enter some documents for the 
record, so I'll just hold that.
    Mr. Bilirakis. Believe me, it is not very appropriate.
    Ms. Cubin. I would like to ask Ms. Fredericks this 
question.
    Did any AGF representative ever tell you that they were 
seeking a profit?
    Ms. Fredericks. No. I never had a discussion of that nature 
with them, and I have never met them face-to-face.
    Ms. Cubin. How about Dr. Jones. Was your impression--or did 
he ever say that he wanted to make a profit from the sale of 
these body parts?
    Ms. Fredericks. I don't believe he ever used those words, 
but I think it was implied.
    Ms. Cubin. In what way?
    Ms. Fredericks. Just the nature of the fact that he is a 
businessman.
    Ms. Cubin. Mr. Alberty, did the physicians who performed 
the abortions at the facility where you worked review the 
researcher request before they performed the abortion 
procedures?
    Mr. Alberty. It varied. On some days they would, some days 
they wouldn't.
    Ms. Cubin. And did any physicians that performed the 
abortions at the clinic where you worked ever ask you what type 
of tissue that you needed that day or that requests had come in 
for what kind of tissue that would be best to harvest that day?
    Mr. Alberty. Yes, ma'am. They would basically come in, look 
at the list, and they would tell me what kind of gestational 
weeks were coming up.
    Ms. Cubin. Did you ever take tissue from a woman that did 
not consent to donate the tissue for research purposes?
    Mr. Alberty. On that, I was instructed by my attorney to 
take the Fifth on that question.
    Ms. Cubin. I had some other questions for the doctors that 
were here about their sources.
    Let's see. Ms. Fredericks, I read somewhere--and I don't 
see it right here--where you said that AFG paid rent of $600 
per month. And what else did they pay on top of that?
    Ms. Fredericks. I had been told that it was $10 an hour, 
although I was never able to find a contract or any 
documentation spelling out that that was truly what the 
agreement was. I was told by staff members who had been there 
for a long time.
    Ms. Cubin. That it was $10 an hour. And what services 
consumed the hour?
    Ms. Fredericks. I was never able to find anything 
delineated as to what they expected for----
    Ms. Cubin. What services were actually provided?
    Ms. Fredericks. As far as I know, the lab technician 
provided a vial of blood--we drew blood on most patients--
provided one of them that they drew. They drew multiple vials. 
And the counselors included the consent in the packet of 
information that was given to the woman that was gone over 
prior to the procedure.
    Ms. Cubin. Did they go over that procedure with the woman? 
Do you know?
    Ms. Fredericks. Our counseling staff?
    Ms. Cubin. Right.
    Ms. Fredericks. In the times that I sat in with them to 
observe, they would answer any questions or go get someone from 
AGF to ask the questions, but it was basically there for them 
to make up their own mind on.
    Ms. Cubin. Okay. Let me just go back. Miles Jones never 
told you that he was seeking a profit?
    Ms. Fredericks. Not in those words. No.
    Ms. Cubin. How about you, Mr. Alberty?
    Mr. Alberty. That he was seeking a profit?
    Ms. Cubin. Yes.
    Mr. Alberty. His goal was $50,000 for the first, I believe, 
quarter, whatever a quarter to him is, so, basically, if you're 
seeking $50,000 your first go-through, that could be construed 
as making a profit.
    Ms. Cubin. But you really don't have any cost figures to 
base that on or anything like that?
    Mr. Alberty. No, ma'am, I don't. And, due to the question 
that you asked earlier, did any--maybe you would like to--the 
doctors----
    Ms. Cubin. Could I restate the question?
    Mr. Alberty. Yeah.
    Ms. Cubin. Did you ever take tissue from an abortion 
wherein the woman did not consent to donate the tissue for 
research purposes?
    Mr. Alberty. Well, if you had--if the question was put, 
``Did the doctor ever ask me--'' meaning Dr. Jones--``to take 
tissue that was non-consented-for''----
    Ms. Cubin. Yes.
    Mr. Alberty. [continuing] the question would be yes.
    Ms. Cubin. The answer would be yes?
    Mr. Alberty. But then if you asked me did I take the tissue 
that day that Dr. Jones--no, I did not.
    Mr. Bilirakis. The gentlelady's time has expired.
    Ms. Cubin. Thank you, Mr. Chairman.
    Mr. Bilirakis. We are going into a second round, and I 
don't think you'll have to wait too very long for your turn, 
from the way it looks.
    Ms. Cubin. Thank you.
    Mr. Bilirakis. Let's see. First, a little bit of 
housekeeping.
    When we broke, there was a little bit of a controversy 
among the staffs regarding the admission of certain documents 
into the record, and we instructed them to get together and 
work things out. And so there has been agreement. There is a 
document here that's subject to further staff review and 
agreement. It is entitled, ``Black Tape,'' and it is clips from 
a tape made by Life Dynamics and Mr. Alberty titled, ``Black 
Tape,'' and that is, without objection, made part of the 
record.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T3102.216
    
    [GRAPHIC] [TIFF OMITTED] T3102.041
    
    [GRAPHIC] [TIFF OMITTED] T3102.042
    
    [GRAPHIC] [TIFF OMITTED] T3102.043
    
    [GRAPHIC] [TIFF OMITTED] T3102.044
    
    [GRAPHIC] [TIFF OMITTED] T3102.045
    
    [GRAPHIC] [TIFF OMITTED] T3102.046
    
    [GRAPHIC] [TIFF OMITTED] T3102.047
    
    [GRAPHIC] [TIFF OMITTED] T3102.048
    
    [GRAPHIC] [TIFF OMITTED] T3102.049
    
    Mr. Bilirakis. Additionally, there is a document here. The 
cover sheet is, ``Arnold & Porter,'' and it consists of a 
letter from the law firm of Arnold & Porter, to Mr. Brown and 
me, dated March 9, 2000, entitled, ``Authentication of Planned 
Parenthood Documents.'' That is subject to redaction, and a 
better copy is being prepared.
    And then there are a number of other documents here which 
both sides have agreed to.
    I understand Ms. Cubin has documentation that both sides 
have agreed to. Is that taken care of?
    Mr. Bilirakis. They are included in here.
    So, without objection, then, all of this documentation will 
be made a part of the record. I have not identified the rest of 
it in the interest of time, but I know both staffs are aware of 
what they are.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T3102.050
    
    [GRAPHIC] [TIFF OMITTED] T3102.051
    
    [GRAPHIC] [TIFF OMITTED] T3102.052
    
    [GRAPHIC] [TIFF OMITTED] T3102.053
    
    [GRAPHIC] [TIFF OMITTED] T3102.054
    
    [GRAPHIC] [TIFF OMITTED] T3102.055
    
    [GRAPHIC] [TIFF OMITTED] T3102.056
    
    [GRAPHIC] [TIFF OMITTED] T3102.057
    
    [GRAPHIC] [TIFF OMITTED] T3102.058
    
    [GRAPHIC] [TIFF OMITTED] T3102.059
    
    [GRAPHIC] [TIFF OMITTED] T3102.060
    
    [GRAPHIC] [TIFF OMITTED] T3102.061
    
    [GRAPHIC] [TIFF OMITTED] T3102.062
    
    [GRAPHIC] [TIFF OMITTED] T3102.063
    
    [GRAPHIC] [TIFF OMITTED] T3102.064
    
    [GRAPHIC] [TIFF OMITTED] T3102.065
    
    [GRAPHIC] [TIFF OMITTED] T3102.066
    
    [GRAPHIC] [TIFF OMITTED] T3102.067
    
    [GRAPHIC] [TIFF OMITTED] T3102.068
    
    [GRAPHIC] [TIFF OMITTED] T3102.069
    
    [GRAPHIC] [TIFF OMITTED] T3102.070
    
    [GRAPHIC] [TIFF OMITTED] T3102.071
    
    [GRAPHIC] [TIFF OMITTED] T3102.072
    
    [GRAPHIC] [TIFF OMITTED] T3102.073
    
    [GRAPHIC] [TIFF OMITTED] T3102.074
    
    [GRAPHIC] [TIFF OMITTED] T3102.075
    
    [GRAPHIC] [TIFF OMITTED] T3102.076
    
    [GRAPHIC] [TIFF OMITTED] T3102.077
    
    [GRAPHIC] [TIFF OMITTED] T3102.078
    
    [GRAPHIC] [TIFF OMITTED] T3102.079
    
    [GRAPHIC] [TIFF OMITTED] T3102.080
    
    [GRAPHIC] [TIFF OMITTED] T3102.081
    
    [GRAPHIC] [TIFF OMITTED] T3102.082
    
    [GRAPHIC] [TIFF OMITTED] T3102.083
    
    [GRAPHIC] [TIFF OMITTED] T3102.084
    
    [GRAPHIC] [TIFF OMITTED] T3102.085
    
    [GRAPHIC] [TIFF OMITTED] T3102.086
    
    [GRAPHIC] [TIFF OMITTED] T3102.087
    
    [GRAPHIC] [TIFF OMITTED] T3102.088
    
    [GRAPHIC] [TIFF OMITTED] T3102.089
    
    [GRAPHIC] [TIFF OMITTED] T3102.090
    
    [GRAPHIC] [TIFF OMITTED] T3102.091
    
    [GRAPHIC] [TIFF OMITTED] T3102.092
    
    [GRAPHIC] [TIFF OMITTED] T3102.093
    
    [GRAPHIC] [TIFF OMITTED] T3102.094
    
    [GRAPHIC] [TIFF OMITTED] T3102.095
    
    [GRAPHIC] [TIFF OMITTED] T3102.096
    
    [GRAPHIC] [TIFF OMITTED] T3102.097
    
    [GRAPHIC] [TIFF OMITTED] T3102.098
    
    [GRAPHIC] [TIFF OMITTED] T3102.099
    
    [GRAPHIC] [TIFF OMITTED] T3102.100
    
    [GRAPHIC] [TIFF OMITTED] T3102.101
    
    [GRAPHIC] [TIFF OMITTED] T3102.102
    
    [GRAPHIC] [TIFF OMITTED] T3102.103
    
    [GRAPHIC] [TIFF OMITTED] T3102.104
    
    [GRAPHIC] [TIFF OMITTED] T3102.105
    
    [GRAPHIC] [TIFF OMITTED] T3102.106
    
    [GRAPHIC] [TIFF OMITTED] T3102.107
    
    [GRAPHIC] [TIFF OMITTED] T3102.108
    
    [GRAPHIC] [TIFF OMITTED] T3102.109
    
    [GRAPHIC] [TIFF OMITTED] T3102.110
    
    [GRAPHIC] [TIFF OMITTED] T3102.111
    
    [GRAPHIC] [TIFF OMITTED] T3102.112
    
    [GRAPHIC] [TIFF OMITTED] T3102.113
    
    [GRAPHIC] [TIFF OMITTED] T3102.114
    
    [GRAPHIC] [TIFF OMITTED] T3102.115
    
    [GRAPHIC] [TIFF OMITTED] T3102.116
    
    [GRAPHIC] [TIFF OMITTED] T3102.117
    
    [GRAPHIC] [TIFF OMITTED] T3102.118
    
    [GRAPHIC] [TIFF OMITTED] T3102.119
    
    [GRAPHIC] [TIFF OMITTED] T3102.120
    
    [GRAPHIC] [TIFF OMITTED] T3102.121
    
    [GRAPHIC] [TIFF OMITTED] T3102.122
    
    [GRAPHIC] [TIFF OMITTED] T3102.123
    
    [GRAPHIC] [TIFF OMITTED] T3102.124
    
    [GRAPHIC] [TIFF OMITTED] T3102.125
    
    [GRAPHIC] [TIFF OMITTED] T3102.126
    
    [GRAPHIC] [TIFF OMITTED] T3102.127
    
    [GRAPHIC] [TIFF OMITTED] T3102.128
    
    [GRAPHIC] [TIFF OMITTED] T3102.129
    
    [GRAPHIC] [TIFF OMITTED] T3102.130
    
    [GRAPHIC] [TIFF OMITTED] T3102.131
    
    [GRAPHIC] [TIFF OMITTED] T3102.132
    
    [GRAPHIC] [TIFF OMITTED] T3102.133
    
    [GRAPHIC] [TIFF OMITTED] T3102.134
    
    [GRAPHIC] [TIFF OMITTED] T3102.135
    
    [GRAPHIC] [TIFF OMITTED] T3102.136
    
    [GRAPHIC] [TIFF OMITTED] T3102.137
    
    [GRAPHIC] [TIFF OMITTED] T3102.138
    
    [GRAPHIC] [TIFF OMITTED] T3102.139
    
    [GRAPHIC] [TIFF OMITTED] T3102.140
    
    [GRAPHIC] [TIFF OMITTED] T3102.141
    
    [GRAPHIC] [TIFF OMITTED] T3102.142
    
    [GRAPHIC] [TIFF OMITTED] T3102.143
    
    [GRAPHIC] [TIFF OMITTED] T3102.144
    
    [GRAPHIC] [TIFF OMITTED] T3102.145
    
    [GRAPHIC] [TIFF OMITTED] T3102.146
    
    [GRAPHIC] [TIFF OMITTED] T3102.147
    
    [GRAPHIC] [TIFF OMITTED] T3102.148
    
    [GRAPHIC] [TIFF OMITTED] T3102.149
    
    [GRAPHIC] [TIFF OMITTED] T3102.150
    
    [GRAPHIC] [TIFF OMITTED] T3102.151
    
    [GRAPHIC] [TIFF OMITTED] T3102.152
    
    [GRAPHIC] [TIFF OMITTED] T3102.153
    
    [GRAPHIC] [TIFF OMITTED] T3102.154
    
    [GRAPHIC] [TIFF OMITTED] T3102.155
    
    [GRAPHIC] [TIFF OMITTED] T3102.156
    
    [GRAPHIC] [TIFF OMITTED] T3102.157
    
    [GRAPHIC] [TIFF OMITTED] T3102.158
    
    [GRAPHIC] [TIFF OMITTED] T3102.159
    
    [GRAPHIC] [TIFF OMITTED] T3102.160
    
    [GRAPHIC] [TIFF OMITTED] T3102.161
    
    [GRAPHIC] [TIFF OMITTED] T3102.162
    
    [GRAPHIC] [TIFF OMITTED] T3102.163
    
    [GRAPHIC] [TIFF OMITTED] T3102.164
    
    [GRAPHIC] [TIFF OMITTED] T3102.165
    
    [GRAPHIC] [TIFF OMITTED] T3102.166
    
    [GRAPHIC] [TIFF OMITTED] T3102.167
    
    [GRAPHIC] [TIFF OMITTED] T3102.168
    
    [GRAPHIC] [TIFF OMITTED] T3102.169
    
    [GRAPHIC] [TIFF OMITTED] T3102.170
    
    [GRAPHIC] [TIFF OMITTED] T3102.171
    
    [GRAPHIC] [TIFF OMITTED] T3102.172
    
    [GRAPHIC] [TIFF OMITTED] T3102.173
    
    [GRAPHIC] [TIFF OMITTED] T3102.174
    
    Mr. Bilirakis. Okay. That being the case, we'll go into the 
second round at this point. And I just have something very 
quickly, and then I'm going to yield the rest of my time to Dr. 
Coburn.
    Ms. Fredericks, you haven't been subpoenaed to be here.
    Ms. Fredericks. No, sir.
    Mr. Bilirakis. Why are you here?
    Ms. Fredericks. When I was contacted by ``20/20'' and I 
found out that they had letters that I had written and the 
spreadsheet that I had done that I did not provide for them, I 
was very concerned that--I basically kind of wanted to make 
sure that if documents that I prepared were out there, that I 
wanted to make sure that everyone knew what was behind them and 
stand up for myself in saying----
    Mr. Bilirakis. So you offered to testify before this 
committee for those reasons?
    Ms. Fredericks. Yes, I did. Yes.
    Mr. Bilirakis. Mr. Alberty, you've gone through a pretty 
tough time.
    Mr. Alberty. Yes, sir.
    Mr. Bilirakis. I know that things have been rocky for you, 
somewhat inconsistent--I'm sure you're the first one to admit 
that----
    Mr. Alberty. Yes, sir.
    Mr. Bilirakis. [continuing] between maybe statements you 
made previously and statements you have made here today under 
oath. And you were subpoenaed because you entered into that 
agreement and you couldn't----
    Mr. Alberty. I wanted to be subpoenaed.
    Mr. Bilirakis. You wanted to be subpoenaed because you 
wanted to come here to----
    Mr. Alberty. I wanted to come here. Yes, sir.
    Mr. Bilirakis. You wanted to come here to share your 
experience with us.
    Mr. Alberty. That's very true.
    Mr. Bilirakis. And we appreciate the fact that you both 
wanted to do that for what I consider to be the right reasons.
    Mr. Alberty. I appreciate the fact that you're letting us 
come here, sir.
    Mr. Bilirakis. Well, I thank you, sir.
    I know we're all terribly disappointed that Dr. Jones is 
not here.
    Mr. Alberty. I am, too.
    Mr. Bilirakis. I think he could have added an awful lot to 
this hearing. I think that's an under-statement.
    In any case, the Chair yields the balance of his 3\1/2\ 
minutes to Dr. Coburn.
    Mr. Coburn. Thank you.
    Would the staff please give Mr. Alberty a copy of the 
Anatomic Gift Foundation ship-out reports?
    Mr. Alberty, did you prepare these documents?
    Mr. Alberty. Yes, sir.
    Mr. Coburn. And are they a true recollection of the 
procedures that you performed on those days?
    Mr. Alberty. Yes, sir. My initials are the tech, ``LDA,'' 
Lawrence D. Alberty.
    Mr. Coburn. I would ask you to turn to the one dated 2/8/
96.
    Mr. Alberty. Okay.
    Mr. Coburn. And look at donor ID 113968. It's about two-
thirds of the way down the table.
    Mr. Alberty. That's 113968?
    Mr. Coburn. Yes.
    Mr. Alberty. Twenty-one weeks?
    Mr. Coburn. Yes, 21-week, 220 gram fetus.
    Mr. Alberty. Right.
    Mr. Coburn. If we look at what you have written over to the 
side, what I see here is a lung, two legs, two arms, a liver, 
two kidneys, an adrenal gland, and two eyes; is that correct?
    Mr. Alberty. That's correct, but the weight was the 
patient's weight, 220 pounds, not the fetus.
    Mr. Coburn. Okay. Let me ask you something. If, in fact, 
the clinic was paid $600 a month for a site fee, and these, 
according to Anatomic Gift Foundation prices, $80 a pop, I get 
$800 here for one group of fetal parts. Is that a correct 
assumption?
    Mr. Alberty. I have never seen, sir, their price list.
    Mr. Coburn. Okay. I have seen their price list. But there 
is, in fact, ten organs or pieces of tissue that are being 
shipped separately, and under one container, ten separate items 
that are being shipped?
    Mr. Alberty. That's correct. You also have to indicate that 
they were doing blood testing and charging for blood testing.
    Mr. Coburn. So, in fact, there's $800 worth of revenue off 
of one fetus at this time?
    Mr. Alberty. Yeah. And then you have to also indicate 
special handling fees, whatever that might be.
    Mr. Coburn. So--but let's forget that.
    Mr. Alberty. Yes.
    Mr. Coburn. Let's say that there's no charge for blood, 
there's no charge for tissue typing, there's no charge for an 
HIV test, there's no charge for any of this. Just on this one 
fact, one fetus out of several done that day more than covers 
both your rate at $10 an hour and what the clinic was paid for 
the entire month?
    Mr. Alberty. Absolutely.
    Mr. Coburn. So if we were to take all the sheets for 
February, what we would see is there is a significant amount of 
billing potential out of everything that is listed here. And 
you do agree that these are your sheets and that you did 
produce them?
    Mr. Alberty. That is 100 percent correct.
    Mr. Coburn. All right. And this is Anatomic Gift 
Foundation, this is not the other company which--Opening Lines?
    Mr. Alberty. That's correct.
    Mr. Coburn. And there is a significant difference between 
Opening Lines. And I would ask the staff to also give you 
Opening Lines' price list, which you said you were involved in 
developing. Is that a correct statement?
    Mr. Alberty. That is a correct statement. I sat down with 
him over a dinner and he went over the pricing and asked me if 
I agreed or disagreed, and----
    Mr. Coburn. And so you have seen this price list before?
    Mr. Alberty. That is correct, sir.
    Mr. Coburn. And if one were to imagine this price list that 
we could collect from one baby all these different things, as 
outlined in that price list, that totals $14,000 for one baby.
    Mr. Alberty. That would be correct. The math is correct.
    Mr. Coburn. So I don't believe that, even if your 
testimony, in terms of not being consistent with what you've 
said both by affidavit, by deposition, and what you've said 
here, the fact is that you did write these, these collection 
sheets.
    Mr. Alberty. The shipping and procurement. Yes, sir.
    Mr. Coburn. And that if we contrast just one baby in 1 day, 
that there is a significant profit being made, both by Anatomic 
Gift Foundation and Opening Lines.
    Mr. Alberty. You are correct, sir.
    Mr. Bilirakis. My time has expired for this gentleman.
    Mr. Coburn. Thank you, Mr. Chairman.
    Mr. Bilirakis. Of course, his own time will be coming.
    Ms. Eshoo to inquire?
    Ms. Eshoo. Thank you.
    Mr. Coburn. Mr. Chairman, might I--Mr. Alberty has 
acknowledged that these, in fact, are his sheets, his working 
sheets, and I would ask unanimous consent that this be entered 
in.
    Mr. Bilirakis. That is not a part of the group that we just 
had?
    Mr. Coburn. No.
    Mr. Bilirakis. Is there an objection?
    [No response.]
    Mr. Bilirakis. There being none, that is the case.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T3102.175
    
    [GRAPHIC] [TIFF OMITTED] T3102.176
    
    [GRAPHIC] [TIFF OMITTED] T3102.177
    
    [GRAPHIC] [TIFF OMITTED] T3102.178
    
    [GRAPHIC] [TIFF OMITTED] T3102.179
    
    [GRAPHIC] [TIFF OMITTED] T3102.180
    
    [GRAPHIC] [TIFF OMITTED] T3102.181
    
    [GRAPHIC] [TIFF OMITTED] T3102.182
    
    [GRAPHIC] [TIFF OMITTED] T3102.183
    
    [GRAPHIC] [TIFF OMITTED] T3102.184
    
    [GRAPHIC] [TIFF OMITTED] T3102.185
    
    [GRAPHIC] [TIFF OMITTED] T3102.186
    
    [GRAPHIC] [TIFF OMITTED] T3102.187
    
    [GRAPHIC] [TIFF OMITTED] T3102.188
    
    [GRAPHIC] [TIFF OMITTED] T3102.189
    
    [GRAPHIC] [TIFF OMITTED] T3102.190
    
    [GRAPHIC] [TIFF OMITTED] T3102.191
    
    [GRAPHIC] [TIFF OMITTED] T3102.192
    
    Mr. Bilirakis. Ms. Eshoo?
    Ms. Eshoo. Thank you, Mr. Chairman.
    Just a quick question relative to the last round. These are 
fees. Do you have any knowledge of these amounts actually being 
paid by anyone?
    Mr. Alberty. No, ma'am. I have no----
    Ms. Eshoo. So this is just a list?
    Mr. Alberty. That's just a list.
    Ms. Eshoo. Just a list. Okay.
    Mr. Alberty, you told ``20/20'' that you helped put 
together Opening Lines' price list in 1998. Now, you already 
knew that it was illegal to profit from the sale of fetal 
tissue. In fact, until Dr. Jones hired you to retrieve and 
market tissue, he had never been in this business, had he?
    Mr. Alberty. I have no idea.
    Ms. Eshoo. You have no idea, or no?
    Mr. Alberty. I have no idea if he was ever in this 
business.
    Ms. Eshoo. Lynn Fredericks told our staff earlier this week 
that Dr. Jones was hired mostly because of his pathology 
services, and that fetal tissue was just an extra he threw in. 
So Dr. Jones didn't have any contact with the researcher 
community or any sense of what the cost of procuring the 
tissue; is that correct?
    Mr. Alberty. Yes, that's correct.
    Ms. Eshoo. But you did, because at the time you had been in 
this business for 3 years, since 1995. You knew how long each 
retrieval took, what the preservation and shipping costs were, 
and you knew the researchers, didn't you?
    Mr. Alberty. I know the researchers. I didn't know the 
preservation cost. Those fees were handled especially by AGF, 
and they could vary. So I never saw the billing.
    Ms. Eshoo. So you weren't aware of any preservation costs 
or shipping costs at all?
    Mr. Alberty. If they sent in the material, or if they----
    Ms. Eshoo. What does that mean? Is it yes or no?
    Mr. Alberty. No. That would be no.
    Ms. Eshoo. All right. One of the reasons that AGF let you 
go was because there were allegations that you were giving the 
names of researchers to others. Is that correct?
    Mr. Alberty. That the names I was giving to others? No, 
that is not correct.
    Ms. Eshoo. Well, what was the reason that they let you go?
    Mr. Alberty. I was tardy coming to work. I was totally sick 
and tired of coming there and doing my job, so I was very sick. 
I embellished my hours because I basically charged them for 
being on the road in the morning till I----
    Ms. Eshoo. I want to remind you that you are under oath.
    Mr. Alberty. Yes.
    Ms. Eshoo. There is a letter to you from the AGF, the 
Anatomic Gift Foundation, to you, Lawrence Dean Alberty, your 
address. ``Dear Mr. Alberty--and this letter constitutes 30 
days termination notice of your agreement,'' and it goes on to 
state why, which is not what you just said. So I'd like 
unanimous consent to place this in the record.
    Mr. Alberty. I would like to see that, please.
    Ms. Eshoo. Certainly. It is addressed to you, December 4, 
1997.
    Let me just go on.
    Based on your knowledge----
    Mr. Coburn [presiding]. Does the gentlelady have a 
unanimous consent request?
    Ms. Eshoo. I will ask for it, but I want to continue on 
with my questions.
    Based on your knowledge, you helped Dr. Jones price tissue, 
did you not?
    Mr. Alberty. I helped him price the tissue. I told him, 
when we were sitting down for dinner, once again, that I 
repeated this.
    Ms. Eshoo. Yes. I just wanted that for the record and make 
it very clear.
    Mr. Alberty. Right.
    Ms. Eshoo. In fact, according to your deposition, you told 
him at one point that he could bring in $50,000 a month from 
fetal tissue. That's on page 248 of your deposition.
    I'm not going to defend Dr. Jones, of course, if these 
allegations are true, but it appears that you were quite an 
enabler and perhaps a co-conspirator. Were you or were you not?
    Mr. Alberty. No, I was not.
    Ms. Eshoo. But you did help him price?
    Mr. Alberty. I sat there----
    Ms. Eshoo. You deny----
    Mr. Alberty. Once again, I deny that I sat there and gave 
him the prices.
    Ms. Eshoo. Do you deny what is on page 248 of your 
deposition relative to this question?
    Mr. Alberty. I don't have 248 of the deposition in front of 
me, so I cannot see that.
    Ms. Eshoo. All right. Well, we'll provide it for you. How's 
that?
    Mr. Alberty. That would be wonderful.
    Ms. Eshoo. Let's look at your salary for a moment. When you 
worked for AGF, you were guaranteed $200 or $20 an hour a week; 
is that correct?
    Mr. Alberty. That is not correct.
    Ms. Eshoo. What were you paid?
    Mr. Alberty. Ten dollars an hour.
    Ms. Eshoo. Well, that figure is----
    Mr. Alberty. It never came. Well, $10 an hour. There was 
never a negotiation saying, ``Oh, well, we'll give you $200 a 
week, whether you meet it or not.'' No.
    Ms. Eshoo. So what were you paid, $10 an hour?
    Mr. Alberty. Yes, $10 an hour.
    Ms. Eshoo. Yes. That's what I----
    Mr. Alberty. But it would never----
    Ms. Eshoo. Yes. All right. But you testified in your 
deposition that for Opening Lines you received $1,000 per week, 
or about $25 an hour. You weren't just a technician, you were 
doing marketing for Opening Lines, were you not?
    Mr. Alberty. I was paid $1,000 an hour, but was I doing 
marketing for them?
    Ms. Eshoo. No, not $1,000 an hour, $1,000 a week.
    Mr. Alberty. I mean, no, I wish it was $1,000 an hour. That 
is correct, $1,000 a week. But was I doing marketing for them? 
No, I was not.
    I was contacting, under the supervision, and giving names 
to Dr. Miles Jones so he could contact researchers.
    Ms. Eshoo. Were you calling researchers----
    Mr. Alberty. But did I contact----
    Ms. Eshoo. Let me just----
    Mr. Alberty. Yes, I did.
    Ms. Eshoo. Were you calling researchers and telling them 
about your services?
    Mr. Alberty. Yes, I did.
    Ms. Eshoo. All right. It appears that with your higher 
salary you were also profiting from Dr. Jones' higher prices. 
Does that--do you agree with that or do you disagree with it?
    Mr. Alberty. Was I profiting from him, but he never made 
anything to pay me. I mean----
    Ms. Eshoo. No, I didn't ask you that.
    Mr. Alberty. Okay. Restate your question then.
    Ms. Eshoo. I said: it appears that with your higher salary 
you were also profiting from Dr. Jones' higher prices.
    Mr. Alberty. No, because he was in the red.
    Ms. Eshoo. I'm not talking about him. I'm talking about 
you.
    Mr. Alberty. Well, I made $1,000 an hour. Was I profiting--
--
    Ms. Eshoo. That's $1,000 a week.
    Mr. Alberty. [continuing] from Dr. Miles Jones? Yes, I was.
    Ms. Eshoo. All right. Now, you didn't tell Life Dynamics--
--
    Mr. Coburn. The gentlelady's time has expired.
    Ms. Eshoo. All right.
    Mr. Coburn. We'll let you finish this question, if you'd 
like.
    Ms. Eshoo. Please. You didn't tell Life Dynamics about what 
you were doing on the side with Dr. Jones, did you?
    Mr. Alberty. No, I did not. Not until probably December 1st 
or somewhere in December.
    Ms. Eshoo. Of what year?
    Mr. Alberty. Of 1999.
    Ms. Eshoo. Because there were a lot of checks from----
    Mr. Alberty. Of 1999.
    Ms. Eshoo. Of 1999?
    Mr. Alberty. Of 1999.
    Ms. Eshoo. All right.
    Mr. Chairman, I'd like to ask unanimous consent that this 
letter from AGF signed by James Bardsley, Jr., the 
administrative director and vice president----
    Mr. Coburn. Without objection.
    Ms. Eshoo. [continuing] be placed in the record. Thank you.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T3102.193
    
    Mr. Coburn. The gentleman from Pennsylvania, Mr. Greenwood?
    Mr. Greenwood. Thank you, Mr. Chairman.
    Mr. Alberty----
    Mr. Alberty. Yes, sir?
    Mr. Greenwood. [continuing] I'm looking at a document that 
is on Life Dynamics, Incorporated's stationery that says, 
``During his association with us, we have made payments to Dean 
Alberty totaling $10,150 in remuneration and $11,276.04 
reimbursement for expenses--hotel, travel, food, audiotape 
purchases, conference registration, association dues, etc.''
    Of the $10,150 which was essentially salary, what were you 
doing for them to earn that salary?
    Mr. Alberty. Going to NAF conferences.
    Mr. Greenwood. Were you what----
    Mr. Alberty. Documents to them.
    Mr. Greenwood. You were selling documents to them?
    Mr. Alberty. I was--they asked me if I had anything of AGF 
or in that realm that I could supply to them, and I did, and 
they paid a certain amount of money. Yes, we did.
    Mr. Coburn. Would the gentleman yield for a second? Could 
we have a clarification of what NAF is, if you wouldn't mind?
    Mr. Alberty. National Abortion Federation.
    Mr. Coburn. Thank you.
    Mr. Greenwood. Were the documents--did you obtain the 
documents that you sold to this organization legally?
    Mr. Alberty. They were in my midst. Yes, they were legally.
    Mr. Greenwood. You had them legally, but you just--you 
provided them to----
    Mr. Alberty. They were confidential material.
    Mr. Greenwood. They were confidential. You violated the 
confidentiality in providing them to your employer at the time, 
which was Life Dynamics. You were receiving pay from both 
outfits, right, at the same time?
    Mr. Alberty. I believe so. Yes.
    Mr. Greenwood. Were you what--were you referred to as a 
``life spy''? Have you heard that term?
    Mr. Alberty. I've heard the term before.
    Mr. Greenwood. What does that mean?
    Mr. Alberty. Someone that might be spying for a while, but 
never able to come out, because we didn't know when or how I 
would be able to come and present my face to anybody.
    Mr. Greenwood. Okay.
    Mr. Alberty. Because I was terrified for my life.
    Mr. Greenwood. The organization that you were working for, 
for whom you were a life spy, is, as I understand it, founded 
by a fellow whose name is Crutcher, who has as his stated goal, 
``To make abortion unavailable by any means necessary.'' Have 
you ever heard that phraseology?
    Mr. Alberty. No, sir.
    Mr. Greenwood. Okay. That's from his book. That's a direct 
quote, for the record, from his quote called, ``Firestorm: a 
Guerilla Strategy for Pro-Life America.''
    You told me earlier and you've said to other members today 
that when you were making the videotape you lied.
    Mr. Alberty. I didn't lie. There were certain things that 
were not totally adequate.
    Mr. Greenwood. Well, some things----
    Mr. Alberty. Well, I mean, yes, okay, you can say that 
certain parts of it may not have been totally truthful, as in--
--
    Mr. Greenwood. We call that lies.
    Mr. Alberty. What?
    Mr. Greenwood. You intentionally told something that--
stated something in the video that you knew not to be true. Is 
that true or false?
    Mr. Alberty. Well, an example would be in the video it's 
something where it states 30 weeks. No. Not 30 weeks. That's 
always----
    Mr. Greenwood. So you knew it wasn't a gestation period of 
30 weeks, and yet you said it was----
    Mr. Alberty. It was a guess that it was 30 weeks.
    Mr. Greenwood. Were you--why do you think you did that? 
Were you coached at all to say certain things during that? As I 
understood, it took 5 hours to make that videotape, and then it 
was distilled down to about 14 minutes. Were you coached as to 
what to say?
    Mr. Alberty. No, I wasn't coached on what to say. 
Basically, I went there just to say what I had to say. They 
were--sometimes Dentra would give me a question and I would 
answer the question.
    Mr. Greenwood. And then would you--did you answer the same 
question repeatedly? Did you try to give one answer, and then 
they asked you, ``Let's try that answer again?'' and ask the 
question again and you'd give a different answer----
    Mr. Alberty. I'm not sure on that.
    Mr. Greenwood. [continuing] until you got it right? You're 
not sure about that? Did they find you, or did you find them?
    Mr. Alberty. I contacted, after a failed attempt with the 
FBI, a pro-life group in the State of Kansas, and the State of 
Kansas referred me to Life Dynamics. At that point, Life 
Dynamics wanted me to come forth, say what I had to say, tell 
everything I had seen, and basically expose myself, but I told 
them I would not do that.
    Mr. Greenwood. Do you think that the fact that you were 
paid in excess of $21,000 by this organization had any 
influence on the fact that you intentionally made deceptive and 
untrue remarks on the videotape?
    Mr. Alberty. That I was paid? Did I make----
    Mr. Greenwood. Earlier you said today you did the 
videotape. You only, at that time, acknowledged $400 payment 
from them, but you said that you did it because you needed the 
money. Were you pretty desperate for money at the time?
    Mr. Alberty. When I was going through--let me phrase and 
get you clarified on this.
    When I was working with AGF, pay checks were never on time. 
It wound me almost into bankruptcy. And then I wound up working 
for a lawn and garden service. Even though I was very disgusted 
with myself, and because I was not being very successful, and 
due to the fact that I saw the late-term abortions with the 
twins being killed, that very upset me.
    Mr. Greenwood. It should.
    Mr. Alberty. And that led me to probably 6 months at 
Suburban Lawn and Garden. And after that is when I was 
contacted by Miles Jones to come forward and do some stuff. And 
the whole time while I was with Jones, Life Dynamics never knew 
I was doing it.
    The reason why is I did not want a pro life group or any 
outside influence telling me or, you know, prodding me like, 
``Hey, you know, why don't you see what's going on here?'' I 
didn't want that. I wanted to be able to some day come forward 
with my testimony to whoever it may be, God or whoever, and 
say, ``Hey, I did this on my own for $1,000 a week working for 
Dr. Miles Jones, and I proved that his organization was as bad 
as this organization was.'' And the comparisons--it's a very 
fine line.
    Mr. Greenwood. His organization was as bad as what 
organization?
    Mr. Alberty. AGF.
    Mr. Coburn. The gentleman's time has expired.
    The gentleman from Michigan.
    Mr. Stupak. Thank you, Mr. Chairman.
    You know, this is an extremely serious issue before us on 
whether fetal tissue is being bought and sold for profit, and 
that's why you see Members of Congress still here, because 
we're really trying to get to the bottom of this. It has to be 
bought and sold for profits, so let me ask some questions again 
along those lines. I still haven't heard any evidence of that 
yet today and am still perplexed as to why we haven't.
    In this protocol that you said, Mr. Alberty, on the back of 
your written things that you wrote out, and there is some 
typed-up stuff, that was all part of your protocol.
    Mr. Alberty. Right.
    Mr. Stupak. It says on here, ``Always insure contents of 
package in amount of $1,000 or higher.'' Why would you do it 
for $1,000 if--now, that sounds like there would be some profit 
there if your insurance----
    Mr. Alberty. What page are you on?
    Mr. Stupak. I don't know. They're not numbered. Page four. 
Bottom of page four.
    Mr. Alberty. Bottom of page four. Give me a minute.
    Mr. Stupak. It says ``tibia.'' Bottom of it says, ``Always 
insure--or higher if instructed by IIAM.''
    Mr. Alberty. Oh, IIAM is not Anatomic--that was AGF. That's 
not Miles Jones. IIAM was a company that they were before AGF.
    Mr. Stupak. But why insure for $1,000? If it is worth $100, 
why not just insure it for $100?
    Mr. Alberty. You know, I don't know. I guess they felt like 
if they could insure it for $1,000--and FedEx would lose 
packages--that they could be fully compensated.
    Mr. Stupak. Doesn't the insurance usually reflect the value 
of the contents of the package?
    Mr. Alberty. I would think so.
    Mr. Stupak. In your dinner that you had with Dr. Jones, 
where you talked about what the prices should be, what was your 
arrangement? Were you paid strictly salary? Was there any other 
compensation for you?
    Mr. Alberty. It was $1,000 a week, sir.
    Mr. Stupak. Pardon?
    Mr. Alberty. Yes, $1,000 a week.
    Mr. Bilirakis. It was $1,000 a week, no matter how much 
came into the clinic?
    Mr. Alberty. The long-term goal that Dr. Miles Jones set 
forth was eventually, if he exceeded $50,000--and I believe his 
words were a quarter, whatever a quarter turns out to be in his 
phrase--then he would give me a nice little bonus.
    Mr. Stupak. Okay. So when you were setting these prices, 
then, or the fee schedule, ``Fee for Services Schedule,'' it 
says here, by Opening Lines, then what you're setting is--was 
that $50,000 figure--were these prices inflated to reach that 
$50,000 figure?
    Mr. Alberty. When I sat down with Miles Jones over this 
price list----
    Mr. Stupak. Right.
    Mr. Alberty. [continuing] everything you see on here he 
inflated. When I would say one thing, he goes, ``Okay.'' He 
would----
    Mr. Stupak. Well, the inflated price was to get to this 
goal of $50,000, correct?
    Mr. Alberty. Say what?
    Mr. Stupak. The inflated price was to get to this $50,000 
per week [sic] goal that you are trying for?
    Mr. Alberty. That he was trying for. Yes.
    Mr. Stupak. Okay. That Opening Lines was trying for.
    Mr. Alberty. Opening Lines. Yes.
    Mr. Stupak. And you didn't really object to it, because if 
you make it you got a bonus, too?
    Mr. Alberty. We would never reach that, and I knew they 
never would.
    Mr. Stupak. But if they reached it, you got a bonus?
    Mr. Alberty. That was Miles Jones' understanding, but 
whether I would have seen it, probably not.
    Mr. Stupak. Okay. But it was your understanding you'd get a 
bonus?
    Mr. Alberty. That was my understanding.
    Mr. Stupak. Okay.
    Ms. Fredericks, in response to a question from Congressman 
Burr, you said you saw a lot of revenue in looking at AGF 
revenue, and then you examined maybe--I take it your clinic was 
giving your fetal tissue right to AGF, right?
    Ms. Fredericks. Yes.
    Mr. Stupak. And you saw the revenues, and you said your 
clinic was having a little difficulties, it would be a way to 
develop revenue if you could deal directly, cut out AGF, right?
    Ms. Fredericks. Yes.
    Mr. Stupak. And you said that you looked at it, looked at 
the law, and decided you couldn't do that?
    Ms. Fredericks. Correct.
    Mr. Stupak. And you went to the CEO of the company?
    Ms. Fredericks. Yes.
    Mr. Stupak. What did the CEO, he or she, say when you said, 
``We've got a problem here,'' or, ``I think there is a revenue 
stream here that is rather questionable. That looks a little 
high''?
    Ms. Fredericks. Well, when I initially went to her with, 
``Look, there is a potential revenue stream here,'' it was, 
``We need to research this further,'' because there were some 
ethical issues and legal issues that----
    Mr. Stupak. Sure.
    Ms. Fredericks. [continuing] we wanted to make sure that 
we're in order before we considered it any further.
    Mr. Stupak. And you tried to get invoices and couldn't get 
any, right?
    Ms. Fredericks. I tried to get copies of contracts and 
documentation, and I could not.
    Mr. Stupak. Did you ask the CEO for the contracts?
    Ms. Fredericks. Yes.
    Mr. Stupak. He never produced them?
    Ms. Fredericks. Yes. The person--the clinic had been 
purchased from another entity----
    Mr. Stupak. Okay.
    Ms. Fredericks. [continuing] about 3 to 6 months prior to 
my getting there, and in that transition there was a lot of 
documents that were misplaced and hard to find.
    Mr. Stupak. Sure. Did you then take this concern anywhere 
else? Did you go to authorities or anything like that?
    Ms. Fredericks. No. I just took it to the CEO, and that's 
where I was instructed to take it.
    Mr. Stupak. Okay.
    Mr. Alberty----
    Mr. Alberty. Yes, sir?
    Mr. Stupak. --I've heard a lot about this twin event or the 
twin babies. Did you ever report that to the police if it----
    Mr. Alberty. No, I couldn't. I didn't trust--when the 
police are working there in a local city, it was my impression 
that the police always protected the clinic.
    Mr. Stupak. Okay.
    Mr. Alberty. And was I going to stand forward at that 
moment and say, ``Hello, my name is Dean Alberty. I've 
witnessed two twins--'' Mr. Stupak. Okay. In a question from 
Mr. Greenwood, you indicated that you were fearful, you were 
concerned.
    Mr. Alberty. Yes, I was.
    Mr. Stupak. From who? Who would harm you?
    Mr. Alberty. I was fearful from both sides. I didn't trust 
the pro life group or the pro choice group. If the doctors 
would have found out at that point I was objecting strongly or 
if I was going out here to eventually talk to someone, would it 
be beyond belief that they would put a bullet in my brain? No, 
it would not.
    You always hear about the pro life group coming after 
abortion doctors, but don't you ever hear about the pro choice 
and abortion doctor coming after someone to shut him up? Did 
you know I got a death threat?
    Mr. Stupak. Without using any names or things like that, 
other than Dr. Jones, is there anyone else that you have 
knowledge or you have reason to believe profiting from the sale 
of fetal tissue? Just yes or no.
    Mr. Alberty. No. I mean, could you rephrase that?
    Mr. Stupak. Sure. Other than Dr. Jones, is there anyone 
else you believe--have reason to believe may have profited from 
the sale of fetal tissue?
    Mr. Alberty. Well, you know Dr. Jones had partners. Did 
those partners of him, the two women that----
    Mr. Stupak. I'm asking you, do you have any reason to 
believe anyone else other than Dr. Jones----
    Mr. Alberty. No. No.
    Mr. Stupak. Okay.
    Mr. Coburn. The gentleman's time has expired.
    Mr. Stupak. Thank you, Mr. Chairman.
    Mr. Coburn. The gentleman from Tennessee.
    Mr. Bryant. Does the chairman need some time? You know, I 
can't help but make one quick comment before us. In years of 
experience in civil cases and criminal cases, an old saying, 
you have witnesses that turn on other people that do these 
things, they often get criticized in trials and their 
credibility attacked, and, of course, we always say when you do 
something, when you commit a crime, you don't do it in front of 
the priest and the Sunday School teachers and the Boy Scouts. 
And I don't know if that applies here or not, but I thought I'd 
say that and add that to the record and yield the balance of my 
time to the chairman.
    Mr. Coburn. Thank you.
    I would like for the staff to get a copy of the Anatomic 
Gift Foundation payment history.
    I believe, Ms. Fredericks, this is a document you've 
created. All I would like for you to do is verify that that is 
the case.
    Ms. Fredericks. This appears to be the spreadsheet that I 
created, but I have not had the opportunity to cross check and 
verify that these are actually the numbers. They look like it, 
but I can't attest to that exactly. My memory is not that good.
    Mr. Coburn. But the rent was $600 a month----
    Ms. Fredericks. Correct.
    Mr. Coburn. [continuing] for the facility fee?
    Ms. Fredericks. That's what I was told. Yes.
    Mr. Coburn. And then you also collected fees based on the 
informed consent that you offered?
    Ms. Fredericks. I did not know what the additional money 
was based on, and that was my major concern. I had been told by 
staff members that it was $10 an hour. That's why the column in 
there--this is $10 an hour, the number of hours that I was 
trying to back into that to see how many hours that was.
    Mr. Coburn. That's a perfectly justifiable explanation.
    I'd like unanimous consent to put this in the record, if I 
may.
    Ms. Fredericks. I'd like to take a look at it.
    Mr. Coburn. Yes. With the caveat that she'll verify that it 
is.
    No objection, so ordered.
    [The information referred to follows:]

                                    Anatomic Gift Foundation Payment History
----------------------------------------------------------------------------------------------------------------
                                                                                $10/hr
                                                       Chk date      Rent        Hours       Other       Total
----------------------------------------------------------------------------------------------------------------
Oct.................................................    11/20/97     $600.00     $600.00               $1,200.00
Sept................................................    10/30/97     $600.00     $490.00     $223.69   $1,313.69
Aug.................................................    09/23/97     $600.00     $370.00                 $970.00
July................................................    08/25/97     $600.00     $720.00               $1,320.00
June................................................    07/25/97     $600.00     $350.00                 $950.00
May.................................................    06/25/97     $600.00     $510.00               $1,110.00
1/2 April...........................................    02/28/97     $300.00      $80.00                 $380.00
March...............................................    02/28/97                 $770.00                 $770.00
March...............................................    02/28/97     $600.00   $2,900.00               $3,500.00
Feb.................................................    02/28/97     $600.00                             $600.00
Jan.................................................    02/19/97     $600.00                             $600.00
Dec.................................................    01/17/97     $600.00                             $600.00
                                                                 ------------------------            -----------
Total...............................................               $6,300.00   $6,790.00              $13,313.69
Average.............................................                 $572.73     $754.44
----------------------------------------------------------------------------------------------------------------


    Mr. Coburn. Ms. Fredericks, I want to spend a little time. 
I don't believe anybody else in this room has delivered 2,000 
babies, and I have. Okay? I want to ask you what you know about 
informed consent.
    Well, I want to preface it first. In every court of law in 
this country a signed document does not imply informed consent. 
What it says is I've signed a document that says somebody has 
attempted to give me informed content.
    Ms. Fredericks. Yes.
    Mr. Coburn. And my question to you is--and you may not be 
able to answer it--an informed consent in a court of law is 
that you have identified the patient and the procedure to be 
performed, the indications for that procedure, the risks 
associated with that procedure, the possible complications 
associated with that procedure, and the possible untoward 
outcomes, as well as informing the patient that if you do 
nothing here's the possible outcome.
    Is it your feeling that that was the type of informed 
consent that was given to these patients as to the Anatomic 
Gift tissue, as to the fetal tissue that was being transmitted, 
and also as to the procedure? I'm not as interested in the 
procedure as I am in terms of the tissue.
    Ms. Fredericks. I don't truly remember verbatim what their 
consent said. We had so many consents of our own----
    Mr. Coburn. Right.
    Ms. Fredericks. [continuing] that this was one more piece 
of paper in a packet of information.
    Mr. Coburn. I guess the question I have for you is: who 
collected the consent? Did the doctor performing the abortion 
collect the consent, or did those people in the clinic----
    Ms. Fredericks. For the donation of tissue?
    Mr. Coburn. No. For both the abortion and the donation of 
tissue.
    Ms. Fredericks. The physician had to meet with the patient 
prior to performing the----
    Mr. Coburn. Right, as we would expect.
    Ms. Fredericks. [continuing] procedure to make sure they 
didn't have any questions and to make sure they signed the 
consent. ``Do you have any questions? Do you understand the 
risk?''
    Mr. Coburn. Right.
    Ms. Fredericks. The physician signed it, the patient signed 
it, and a witness signed it.
    Mr. Coburn. Okay.
    Ms. Fredericks. That was one of the clinic's consent, one 
of many.
    Mr. Coburn. Okay.
    Ms. Fredericks. As far as the consent to donate, that was 
just one in the packet.
    Mr. Coburn. We had--Mr. Alberty stated that these tissue 
collections were his writings, these shipping, and in there, 
there were several--over a period of a month, several 
individual cases with multiple organs from one individual 
specimen, and also multiple numbers of young females who had 
made this very difficult choice in their life.
    Is there any doubt in your mind that every one of those 
knew that their--the products of their conception was going to 
be used--all those that had products shipped, that they, in 
fact, knew that and were informed of that? Do you feel 
comfortable with that at night? That's all I'm asking.
    Ms. Fredericks. No.
    Mr. Coburn. So there is some small amount of doubt in your 
mind that they might not have had that?
    Ms. Fredericks. Yes.
    Mr. Coburn. Thank you very much.
    My time has expired.
    I believe, Ms. Eshoo, you've gone, so I'm going to go to 
Ms. Cubin.
    Ms. Cubin. Mr. Alberty, I appreciate your being here. I 
know not only have you had a rough day today, but it sounds 
like you've had a rough few years. And I appreciate that your 
motives are that you want to have a clean slate with your God 
and with yourself. I do appreciate that.
    I would like to know, in the settlement of the lawsuit that 
was filed against you for breach of contract by AFG--excuse me, 
AGF--did you pay any monetary settlement to them at all?
    Mr. Alberty. No. I had to put up $500 that I barely had 
enough to do, and that went into, I guess, what they call an 
``escrow'' that my attorney holds, and then I had to sign a 
document--and this was all under protest, because I had no more 
money for legal fees.
    When the Anatomic Gift Foundation, whose attorneys are the 
ACLU and they're getting free charge, and I'm suffering to try 
to put dinner on the table, pay for a house, so----
    Ms. Cubin. So that affidavit that we saw earlier, that is 
the document that basically settled the lawsuit for you; isn't 
that right?
    Mr. Alberty. Yes. Unless I violate my document, then, you 
know, but I'm under subpoena, so I have to tell everything.
    Ms. Cubin. I don't have any more questions, Mr. Chairman.
    Mr. Alberty. Thank you.
    Mr. Coburn. The Chair would recognize himself for 5 
minutes, and then I think we can finish up here.
    Mr. Alberty, did you lie to ``20/20''?
    Ms. Eshoo. Mr. Chairman, can I just ask--interrupt, I'm 
sorry. Will you allow another round? That's why I'm here. I 
have another question I'd like to ask.
    Mr. Coburn. I would be happy to defer to you right now.
    Ms. Eshoo. Great. Thank you very much.
    I wanted to ask both Lynn Fredericks and Mr. Alberty about 
the International Biological Supply. Tell me what that is.
    Ms. Fredericks. That is Dean and I's company.
    Ms. Eshoo. So you have a business together?
    Ms. Fredericks. Yes, we do.
    Ms. Eshoo. All right. And how long have you had this 
business?
    Ms. Fredericks. Since late spring of 1999.
    Ms. Eshoo. Now, did it collect tissue also?
    Ms. Fredericks. Can you be more specific?
    Mr. Alberty. Fetal tissue, do you mean?
    Ms. Eshoo. Fetal tissue. Did it collect fetal tissue?
    Ms. Fredericks. That is basically how the company started. 
Dean called me and said he was getting calls from researchers 
who were asking him for tissue. I had been unable to find a 
job. I knew people in the industry and I made a phone call, and 
we went to a clinic that does very early abortions and I 
believe we did free donors, were unable to get adequate tissue 
to, you know, to meet the needs of the person who wanted them. 
They weren't of a quality because of the way the procedure was 
done. And we changed--we figured we couldn't do this, so we 
went and we started procuring umbilical cords and foreskins, 
and now we have branched into cancerous tissue.
    Ms. Eshoo. Do you, Mr. Alberty, want to describe this 
brochure that I have here, ``International Biological Supply''?
    Let me ask you something else, because you don't have it in 
front of you. I'm sure you're familiar with it, because either 
you or Ms. Fredericks authorized its printing because it 
advertises your business.
    When did you decide to get into this business? After you 
were disgusted, before you were disgusted, before you went to 
Lifetime Dynamics? When did you engage in this business 
together, in terms of collecting tissue? And when did your 
conscience start bothering you as you've testified? I'm very 
confused about your testimony, because you say things on the 
one hand and then you say things on the other.
    Now, this is documented, and Ms. Fredericks has said that 
you had a business together that you started, I guess, in April 
1999. So what were you doing just before this? You started this 
in April 1999, and when did you stop doing this?
    Ms. Fredericks. Stop procuring this----
    Ms. Eshoo. Yes.
    Ms. Fredericks. The fetal tissue?
    Ms. Eshoo. Yes. What you are here to talk about today.
    Ms. Fredericks. Probably April 1999, the same----
    Ms. Eshoo. You started it in April, 1999, or you ended in 
1999, April 1999?
    Ms. Fredericks. It was three donors. It wasn't working. 
We----
    Ms. Eshoo. Well, it is a business brochure.
    Ms. Fredericks. Right.
    Ms. Eshoo. You've got a lot of advertising here for what 
you set out to do.
    Ms. Fredericks. Right.
    Ms. Eshoo. Okay? And I think that's very important to get 
into the record, because I don't think it is something that 
either one of you have mentioned since 2 this afternoon that 
you, indeed, went out and had your own business to do what 
you've come here to protest about today.
    Ms. Fredericks. Can I make a comment?
    Ms. Eshoo. So I think it really flies in the face of why 
we're even having a hearing today.
    Credibility from witnesses means a lot in terms of an 
issue. It really does. And----
    Mr. Alberty. Credibility also comes from the part of being 
able to stand up for myself and say that I saw late-term 
abortions being done wrong. This is not late-term abortions. 
And the----
    Ms. Eshoo. It's my time.
    Mr. Alberty. I'm sorry.
    Ms. Eshoo. That's not what we're here to discuss today. And 
you can hold that view, and in this magnificent Nation of ours 
you hold yours, the people that are--the person that is seated 
next to you may hold the same view, the people behind you may 
have an entirely different view, and that's all right. That's 
part of the blessings of this Nation.
    But the hearing today was not on what you just exploded 
about. It was about the profiteering----
    Mr. Alberty. I'm sorry for my explosion.
    Ms. Eshoo. [continuing] the profiteering of the sale of 
fetal tissue, which is against Federal law.
    Now, you said an awful lot on ``20/20.''
    Mr. Alberty. Yes.
    Ms. Eshoo. I have a sense that ``20/20'' is going to have 
to start retracting or make an apology for what you put out 
over that transom to the people of our country, because your 
testimony today simply doesn't hold up. But let the record show 
that you were in this business in April 1999.
    So I'll yield back the balance of my time, Mr. Chairman.
    I don't know how much money you made from the business. It 
wasn't well run. You weren't successful at it----
    Mr. Alberty. Let me----
    Ms. Fredericks. May I?
    Ms. Eshoo. [continuing] but you were partners in this 
business.
    Ms. Fredericks. May I address--may I say something?
    Ms. Eshoo. It's up to the chairman.
    Mr. Coburn. You have 5 seconds left, gentlelady from 
California.
    Ms. Eshoo. All right. Sure.
    Ms. Fredericks. Thank you.
    Ms. Eshoo. You can give the answer, but maybe comment, too, 
that your business brochure says, ``we are NAF members.''
    Ms. Fredericks. I am.
    Ms. Eshoo. You are?
    Ms. Fredericks. Yes. I became----
    Ms. Eshoo. NAF. It says ``we,'' not ``I.''
    Ms. Fredericks. Well, I was under the impression that Dean 
was, but----
    Ms. Eshoo. On the brochure. So you are an NAF member, as 
well, Mr. Alberty?
    Mr. Alberty. Yes.
    Ms. Fredericks. I had no knowledge of any of this until 
Dean's lawsuit hit in December. I feel like I have been drug 
into this because I'm hearing all this. That's one of the 
reasons I wanted to be here, to get to the bottom of this. I'm 
hearing this, and it is, like, ``Oh, my gosh.''
    Ms. Eshoo. Are you still partners?
    Ms. Fredericks. Well, we were this morning. I don't know if 
we still are.
    Ms. Eshoo. Thank you.
    Thank you, Mr. Chairman.
    Mr. Coburn. Let me ask you a question. I'll recognize 
myself for the final 5 minutes, unless there's----
    Mr. Greenwood. I would like one more briefly.
    Mr. Coburn. Okay. Well, I'll yield to the gentleman from 
Pennsylvania.
    Mr. Greenwood. Thank you. I appreciate that indulgence, Mr. 
Chairman.
    I would like to ask unanimous consent to enter into the 
record a letter from Anatomic Gift Foundation dated 7 February 
2000 to Mr. Chris Wallace, investigative reporter, ABC News, 
``20/20.''
    Mr. Coburn. Without objection, so ordered.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T3102.194
    
    [GRAPHIC] [TIFF OMITTED] T3102.195
    
    [GRAPHIC] [TIFF OMITTED] T3102.196
    
    [GRAPHIC] [TIFF OMITTED] T3102.197
    
    [GRAPHIC] [TIFF OMITTED] T3102.198
    
    [GRAPHIC] [TIFF OMITTED] T3102.199
    
    [GRAPHIC] [TIFF OMITTED] T3102.200
    
    [GRAPHIC] [TIFF OMITTED] T3102.201
    
    [GRAPHIC] [TIFF OMITTED] T3102.202
    
    [GRAPHIC] [TIFF OMITTED] T3102.203
    
    [GRAPHIC] [TIFF OMITTED] T3102.204
    
    [GRAPHIC] [TIFF OMITTED] T3102.205
    
    [GRAPHIC] [TIFF OMITTED] T3102.206
    
    [GRAPHIC] [TIFF OMITTED] T3102.207
    
    [GRAPHIC] [TIFF OMITTED] T3102.208
    
    [GRAPHIC] [TIFF OMITTED] T3102.209
    
    [GRAPHIC] [TIFF OMITTED] T3102.210
    
    [GRAPHIC] [TIFF OMITTED] T3102.211
    
    [GRAPHIC] [TIFF OMITTED] T3102.212
    
    [GRAPHIC] [TIFF OMITTED] T3102.213
    
    [GRAPHIC] [TIFF OMITTED] T3102.214
    
    [GRAPHIC] [TIFF OMITTED] T3102.215
    
    Mr. Greenwood. And this goes to the issue of whether or not 
the procedure was done differently in order to extract the 
fetal tissue for research purposes than it would have been done 
otherwise, and this letter written by James Bardsley, Jr., vice 
president of Anatomic Gift Foundation, reads as follows: ``You 
also asked me about the curettage syringes that AGF provided to 
the Kansas Health Center, and I told you that I did not know 
why the syringes were provided. After looking into the matter, 
I've learned that the syringes were provided because the health 
care did not have the ability to sterilize syringes. The clinic 
sterilizer would have melted the syringes.
    ``In order for tissue to be utilized in cell culture 
research, the tissue must be sterile, which means that the 
syringe under which it is drawn must also be sterile.
    ``We provided the sterile syringes to the clinic so that 
tissues donated could be used by the researchers. Doctors at 
the clinic used identical syringes for pregnancy terminations 
where the woman was not donating tissue. However, where the 
patient did not donate, the syringes could be washed, recycled, 
and re-used. In either case, the cannula, which attaches to the 
syringe and comes in contact with the patient, is always 
sterile. The cannulas are always provided by the clinic. There 
was absolutely no alteration in the abortion procedure. It is 
absolutely not true that the use of syringes increased the time 
the procedure took by 15 minutes. It did not increase the time 
at all, because the same procedure was followed. It was simply 
a sterile syringe instead of an aseptic one that was used.
    ``As an aside, many doctors prefer the procedure because it 
is gentler on the woman.''
    I think there has been some----
    Mr. Coburn. Would the gentleman yield?
    Mr. Greenwood. I will certainly yield.
    Mr. Coburn. You just heard a quote that is absolutely 
medically incorrect. A large vacuum syringe is much harder on a 
woman, creates a great deal of more-advanced pain, and----
    Mr. Greenwood. The thought occurred to me as I read it that 
that would seem to be the case.
    Mr. Coburn. It does. And, actually, I wasn't going to--I 
want to--if the gentleman would just yield for a minute, I 
brought this because I wanted the people here to see. Here's 
the difference. Here's is what is used when they want to 
collect fetal tissue parts for selling, versus an aspirator. 
And this is what is inserted into the woman, versus something 
about half the size of a pencil regularly. And this creates--as 
you can see, it has a curet on the end of it, plus it is a 
suction, and it is sterile, and it creates a tremendous amount 
of difficulty and pain when it is used. And this is what is 
required--it is a number 20 syringe, curet, suction curet--to 
collect a specimen that would be viable, to collect whole 
tissue under 20 weeks.
    Mr. Greenwood. Reclaiming my time, clearly the acting 
chairman has the medical knowledge that I don't pretend to.
    I do think it is important for the record to demonstrate 
that at least Anatomic Gift Foundation had----
    Mr. Coburn. Absolutely.
    Mr. Greenwood. [continuing] an explanation for why it----
    Mr. Coburn. Absolutely.
    Mr. Greenwood. [continuing] and it was different than what 
we've heard.
    Mr. Coburn. And I think the gentleman would agree it is a 
shame that Mr. Bardsley is not here so that we can question him 
about that.
    There is a unanimous consent request. Is there an objection 
from Ms. Eshoo?
    Ms. Eshoo. No.
    Mr. Coburn. If not, so ordered.
    Mr. Greenwood. And I would yield back the balance of my 
time.
    Mr. Coburn. I just want to finish up.
    Ms. Fredericks, I think you have displayed great courage in 
coming here today, and I want to thank you.
    Ms. Fredericks. Thank you.
    Mr. Coburn. We may not agree on certain issues, but I 
recognize your character and I want to thank you for that. I 
think you have displayed the kind of courage that makes this 
country great.
    Ms. Fredericks. Thank you.
    Mr. Coburn. Mr. Alberty, I have some questions for you. I 
want to finish.
    Did you lie to ``20/20'' in any way, shape, or form?
    Mr. Alberty. I do not believe I lied to them in any shape 
or form. I do not have my full thing that I talked to them, but 
what I saw on ``20/20'' last night was adequate.
    Mr. Coburn. Was it the truth?
    Mr. Alberty. What they said last night on ``20/20''----
    Mr. Coburn. What you said on ``20/20,'' was it the truth?
    Mr. Alberty. What they showed last night, it was. Yes. I 
mean, I didn't see----
    Mr. Coburn. Mr. Alberty----
    Mr. Alberty. Yes?
    Mr. Coburn. [continuing] what you said on ``20/20'' last 
night, was it the truth?
    Mr. Alberty. Yes.
    Mr. Coburn. Have you, in fact, made statements today that 
have been untruthful?
    Mr. Alberty. No.
    Mr. Coburn. Did you, in fact, make statements in your 
affidavit that now you would think are untruthful?
    Mr. Alberty. No.
    Mr. Coburn. But, you know, I just have to tell you that I 
cannot understand that answer, and I think all of us are 
perplexed about this issue that we see conflicting evidence in 
that regard, and that's why people are saying you lack 
credibility here today.
    Mr. Alberty. Right.
    Mr. Coburn. And we do not have the time to let you try to 
explain that. I think we've tried to encourage that.
    I want to ask you some other things.
    Do you believe a profit was made from the sale of baby 
parts?
    Mr. Alberty. Do I believe a profit was made from baby 
parts?
    Mr. Coburn. Do you believe----
    Mr. Alberty. Yes.
    Mr. Coburn. [continuing] that profit was made from the sale 
of fetal tissue?
    Mr. Alberty. I believe there was a profit made.
    Mr. Coburn. Okay. Was there a time and instance, to your 
knowledge, that the clinic received additional money at the end 
of the year based on the amount of volume that you performed 
for that clinic in harvesting fetal tissue, to your knowledge?
    Mr. Alberty. To my knowledge, no, not to my knowledge.
    Mr. Coburn. Ms. Fredericks, do you have an answer to that?
    Ms. Fredericks. I'm sorry. I was kind of--could you repeat 
the question?
    Mr. Coburn. To your knowledge, was there ever a payment 
made to your clinic at the end of the year based on the amount 
of volume that was transferred through your clinic in terms of 
fetal tissue?
    Ms. Fredericks. No, sir. Not to the best of my knowledge.
    Mr. Coburn. All right. Thank you.
    One final question. Mr. Alberty, you have said that you had 
seen live-born babies.
    Mr. Alberty. Yes.
    Mr. Coburn. Did you ever inform the Bardsleys or Miles 
Jones of the live births problem?
    Mr. Alberty. I informed Brenda Bardsley on the day the twin 
episode occurred.
    Mr. Coburn. And what was her response?
    Mr. Alberty. Her response was very cold, not caring.
    Mr. Coburn. I didn't ask you----
    Mr. Alberty. She basically told me to get back in there----
    Mr. Coburn. I did not ask you to characterize. I asked 
you----
    Mr. Alberty. Get back in there and procure the tissue.
    Mr. Coburn. Did you ever inform Dr. Jones--and I, too, use 
that loosely--that there was a problem with live births?
    Mr. Alberty. I wrote a thing, and I think it is still on 
there, on a protocol which states what to do in a process if a 
live birth is born. It's on that one.
    ``Protocol for the recovery of an intact fetus. If a fetus 
is intact and not alive, call staff ASAP.'' Right. If a fetus 
is intact. Right. Basically----
    Mr. Coburn. Well, I don't have any additional questions. 
I'm very dissatisfied with the answers.
    Ms. Cubin, did you have one?
    Ms. Cubin. I do have a question.
    Mr. Coburn. All right. Let me yield to you, and then I'll 
close up.
    Ms. Cubin. That's great.
    Mr. Alberty, what was the occasion for you to--or what was 
the reason that you wrote those protocols? And when did you 
write them? Did you--were those to be used in the clinic for 
other people to follow instructions? Why did you write them and 
what are they for?
    Mr. Alberty. The reason why I wrote those is because Dr. 
Miles Jones and his two partners, the two women, informed me 
that part of my job on slow days was to make them these 
protocols so they could put them in other abortion clinics 
throughout the United States so they would have stuff to go by.
    Ms. Cubin. So when did you do that? You did that before 
your employment was terminated with AGF?
    Mr. Alberty. No. I did that when I was working with Miles 
Jones.
    Ms. Cubin. Okay. But was it--so that----
    Mr. Alberty. It was long after I was gone from AGF.
    Ms. Cubin. Okay. But I meant Open Line.
    Mr. Alberty. Yes, Open Line.
    Ms. Cubin. It was before you were terminated?
    Mr. Alberty. I was never terminated with Open Lines.
    Ms. Cubin. Okay. That's right.
    Mr. Alberty. But, to go back on that one thing, make sure 
the fetus is not alive. I was looking down the wrong part. That 
clearly states that if there was a fetus alive there's a 
problem. So when you do look at this----
    Mr. Coburn. I have it in front of me.
    Mr. Alberty. Okay. ``Identify the fetus. Make sure the 
fetus is not alive. Please call staff--support staff if there 
is a live fetus for steps to take.''
    Mr. Coburn. Mr. Greenwood, I believe you have a unanimous 
consent request.
    Mr. Greenwood. Thank you, Mr. Chairman. I would ask 
unanimous consent that the committee submit Dr. Bardsley a 
question that would help us clarify the issue that you and I 
just had a colloquy concerning the syringes.
    Mr. Coburn. Is there objection?
    [No response.]
    Mr. Coburn. None. So ordered.
    The members of this committee know that I am adamantly pro 
life, and fetal tissue research is legal in this country. 
That's whether I like it or not, whether I think it's a good 
way to accomplish an end or not.
    The purpose of this hearing was to look at the charges that 
have been made. Unfortunately, Dr. Jones and Mr. Bardsley were 
not here.
    I think what we've seen is we've seen some credible 
witnesses and some whose story is not consistent. It is my hope 
that we can work with the minority to try to discern what is 
and is not worth pursuing on this and move in a way where we 
can find the truth for the American public. It is my deep 
concern that somebody has made money selling baby parts. To me 
that is abhorrent. I believe that is abhorrent to every Member 
of this body.
    We will not stop until we know the facts. Dr. Jones will 
testify before this committee, and so will Mr. Bardsley.
    So we will corroborate some of the claims that have been 
made here, and we will deflate some that have been made here 
based on that testimony.
    I again want to thank you for coming.
    The subcommittee is adjourned.
    [Whereupon, at 8:41 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]

</pre></body></html>
